<html>
<title> - CRITICAL CHALLENGES CONFRONTING NATIONAL SECURITY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                    CRITICAL CHALLENGES CONFRONTING


                     NATIONAL SECURITY--CONTINUING


                 ENCROACHMENT THREATENS FORCE READINESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2002

                               __________

                           Serial No. 107-79

                               __________

       Printed for the use of the Committee on Government Reform





  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








     CRITICAL CHALLENGES CONFRONTING NATIONAL SECURITY--CONTINUING 
                 ENCROACHMENT THREATENS FORCE READINESS









                    CRITICAL CHALLENGES CONFRONTING


                     NATIONAL SECURITY--CONTINUING


                 ENCROACHMENT THREATENS FORCE READINESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2002

                               __________

                           Serial No. 107-79

                               __________

       Printed for the use of the Committee on Government Reform






  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                               --------
                   U.S. GOVERNMENT PRINTING OFFICE
80-496 PDF                 WASHINGTON : 2002
______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; 
(202) 512�091800 Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 
20402�090001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 16, 2002.....................................     1
Statement of:
    DuBois, Raymond F., Jr., Deputy Under Secretary of Defense 
      for Installations and Environment; Paul Mayberry, Deputy 
      Under Secretary of Defense, Readiness; and Barry W. Holman, 
      Director, Defense Capabilities and Management, General 
      Accounting Office..........................................   131
    Miller, Dan, first assistant attorney general, Colorado 
      Department of Law..........................................   218
    Tangney, Lieutenant General William P., USA, Deputy Commander 
      in Chief, U.S. Special Operations Command, Tampa, FL; 
      Colonel Thomas D. Waldhauser, USMC, Commanding Officer, 
      15th Marine Expeditionary Unit, Special Operations Capable, 
      Camp Pendleton, CA; Captain Stephen S. Voetsch, USN, 
      Commander, Air Wing One, USS Theodore Roosevelt, Norfolk, 
      VA; Commander Kerry M. Metz, USNR, Naval Special Warfare 
      Group One, Coronado, CA; and Captain Jason L. Amerine, USA, 
      5th Special Forces Group (Airborne), Fort Campbell, KY.....    39
Letters, statements, etc., submitted for the record by:
    Amerine, Captain Jason L., USA, 5th Special Forces Group 
      (Airborne), Fort Campbell, KY:
        Followup questions and responses.........................   380
        Prepared statement of....................................   102
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Department of Defense Range Organizations................   135
        List of hearings.........................................    20
        Prepared statement of....................................     4
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    11
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................   263
    DuBois, Raymond F., Jr., Deputy Under Secretary of Defense 
      for Installations and Environment:
        Followup questions and responses.........................   389
        Prepared statement of....................................   139
    Holman, Barry W., Director, Defense Capabilities and 
      Management, General Accounting Office:
        Followup questions and responses.........................   384
        Prepared statement of....................................   171
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, page H. 2333 of the Congressional 
      Record.....................................................   119
    Jones, Major General Thomas S., Commanding General, Training 
      and Education Command, Quantico, VA, prepared statement of.   284
    Mayberry, Paul, Deputy Under Secretary of Defense, Readiness:
        Followup questions and responses.........................   420
        Prepared statement of....................................   139
    Metz, Commander Kerry M., USNR, Naval Special Warfare Group 
      One, Coronado, CA:
        Followup questions and responses.........................   371
        Prepared statement of....................................    94
    Miller, Dan, first assistant attorney general, Colorado 
      Department of Law, prepared statement of...................   221
    Moore, Vice Admiral Charles W., Deputy Chief of Naval 
      Operations for Readiness and Logistics, prepared statement 
      of.........................................................   274
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   259
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................   261
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Letter dated April 24, 2002..............................   191
        Prepared statement of....................................    31
    Schmidt, Major General Randall M., Deputy Chief of Staff for 
      Air and Space Operations, Office of the Chief of Staff, 
      prepared statement of......................................   305
    Tangney, Lieutenant General William P., USA, Deputy Commander 
      in Chief, U.S. Special Operations Command, Tampa, FL:
        Followup questions and responses.........................   314
        Prepared statement of....................................    41
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   265
    Van Antwerp, Major General Robert L., Assistant Chief of 
      Staff for Installation Management, Headquarters, Department 
      of the Army, prepared statement of.........................   296
    Voetsch, Captain Stephen S., USN, Commander, Air Wing One, 
      USS Theodore Roosevelt, Norfolk, VA:
        Followup questions and responses.........................   351
        Prepared statement of....................................    85
    Waldhauser, Colonel Thomas D., USMC, Commanding Officer, 15th 
      Marine Expeditionary Unit, Special Operations Capable, Camp 
      Pendleton, CA:
        Followup questions and responses.........................   341
        Prepared statement of....................................    70
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    16


     CRITICAL CHALLENGES CONFRONTING NATIONAL SECURITY--CONTINUING 
                 ENCROACHMENT THREATENS FORCE READINESS

                              ----------                              


                         THURSDAY, MAY 16, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room 2154, Rayburn House Office Building, Hon. Bob Barr (vice 
chairman of the committee) presiding.
    Present: Representatives Barr, Gilman, Morella, Shays, 
Horn, Ose, Davis of Virginia, Putnam, Schrock, Waxman, Norton, 
Cummings, Kucinich, Tierney, Allen, Watson and Lynch.
    Staff present: Grace Washbourne, Gil Macklin, and Susan 
Mosychuk, professional staff members; Daniel R. Moll, deputy 
staff director; David A. Kass, deputy chief counsel; Allyson 
Blandford and Susie Schulte, staff assistants; Robert A. 
Briggs, chief clerk; Robin Butler, office manager; Elizabeth 
Crane, deputy communications director; Joshua E. Gillespie, 
deputy chief clerk; Michael Layman, legislative assistant; 
Nicholis Mutton, assistant to chief counsel; Leneal Scott, 
computer systems manager; Corinne Zaccagnini, systems 
administrator; Uyen Dinh, subcommittee counsel; Jonathan 
Tolman, subcommittee professional staff member; David Rapallo, 
minority counsel; Karen Lightfoot, minority senior policy 
advisor; Ellen Rayner, minority chief clerk; and Jean Gosa and 
Earley Green, minority assistant clerks.
    Mr. Barr [presiding]. Good morning. A quorum being present, 
the Committee on Government Reform will now come to order. I 
ask unanimous consent that all Members and witnesses' written 
and opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent to include in the record statements 
by Vice Admiral Charles Moore, Major General Thomas S. Jones, 
Major General Robert L. Van Antwerp and Major General Randall 
M. Schmidt. Without objection, so ordered.
    I ask unanimous consent that all written questions 
submitted to witnesses and answers provided by witnesses after 
the conclusion of this hearing be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I ask unanimous consent that Chairman Hansen be permitted 
to participate in today's hearing. Without objection, so 
ordered.
    I recognize myself for purposes of an opening statement.
    Some people may not like to be reminded of the fact that 
the United States of America is at war, but we are. And so far 
we are doing very well in this war against terrorism. We are 
reminded of the need for military benefits for our soldiers, 
sailors, airmen and marines when they are at greatest risk. 
However, we need to examine the very most important military 
benefit that our men and women in uniform require and need to 
be successful on the battlefield now and in the future, and 
that is tough, realistic, mission-oriented training.
    It is the judgment of this Chair, based on first-hand 
observation, that our fighting forces are getting the short end 
of the stick when it comes to the subject of the encroachment 
on and loss of U.S. military training ranges. All military 
career fields require training, be it the Army artillery 
forward observer calling in fire missions to support the 
maneuver of an infantry battalion or a Navy carrier pilot 
delivering bombs in a close air support mission. These 
exercises are critical to the synergistic effect of combined 
arms training. This type of training keep our soldiers, 
sailors, airmen and marines alive on the battlefield, 
successful in combat, and proficient in their use of ever more 
complex military technology. This is the only way we can give 
our armed forces the highest likelihood of success.
    The Department of Defense currently has four different task 
forces and study groups involved in examining training 
encroachment issues. There is a current General Accounting 
Office study of Department of Defense management and reporting 
of encroachment concerns. All of these activities examine the 
training requirements for our combat units, yet the bureaucracy 
in these efforts by the Department of Defense appears to have 
become a career field in itself. We need to interject some 
common sense answers to our questions and demand leadership to 
put our troops first, not some plant life or bird egg or the 
sex life of some turtle.
    From what I've seen personally, the encroachment issue is a 
serious readiness problem. If readiness is a problem, we will 
get people killed needlessly in combat. There can be no 
argument about that. The young soldiers, sailors, airmen and 
marines who spoke with me and who continue to speak with us 
have all told us they need more live fire training and that 
requires firing ranges and maneuver areas, and they need more 
and more realistic training. I know. I've seen it for myself.
    Last summer, for example, I visited the previously live 
fire training ranges at Vieques, Puerto Rico. These ranges are 
absolutely critical to training our artillery crews, our naval 
gunfire crews and aircraft crews and our forward air 
controllers in order to form a well functioning combined arms 
team.
    This past March, the House Armed Services Subcommittee on 
Readiness held a hearing on the issue of encroachment. The 
political appointees in the current administration admitted 
that encroachment does in fact impact readiness. That was 14 
months after the Bush administration came into office. Now we 
are at war. We need to speed things up a bit.
    We need some tough leadership from the Department of 
Defense. We need hard decisions that, while perhaps not 
politically correct, are correct when it comes to doing what is 
right for our men and women in combat. What is right is what 
will better prepare our warriors to win and survive on the 
battlefield, not limiting training so we don't run a risk of 
trampling blades of grass or upsetting the nesting habits of a 
cockamamie warbler. When things go wrong on the battlefield, 
people, and the importance of the Marine Mammal Protection Act, 
the Migratory Bird Treaty Act or the Noise Control Act pale in 
comparison.
    I have yet to a speak to a soldier, sailor, airman or 
Marine who would prefer a migratory bird or marine mammal merit 
badge to coming home in one piece from the battlefield. The 
United States is at war and we need to proceed with that in 
mind.
    [The prepared statement of Hon. Bob Barr follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.001
    
    [GRAPHIC] [TIFF OMITTED] T0496.002
    
    [GRAPHIC] [TIFF OMITTED] T0496.003
    
    [GRAPHIC] [TIFF OMITTED] T0496.004
    
    [GRAPHIC] [TIFF OMITTED] T0496.005
    
    Mr. Barr. I look forward to hearing from our distinguished 
witnesses today and expect to hear about the efforts to reform 
some rather silly acts that serve as impediments to preparing 
our warriors for what they face on the battlefield. We owe it 
to them.
    I ask unanimous consent to read into the record the 
statement of Chairman Dan Burton who, because of a death in his 
family, was unable to be here today. The following is the 
statement of Chairman Burton.

    The Committee on Government Reform has conducted a 2-year 
long investigation of encroachment on military training ranges 
and the critical importance of training for the safety of the 
men and women in the armed forces. This investigation has 
uncovered a growing number of restrictions placed on training 
at military training ranges by environmental regulations, urban 
sprawl, international treaties and competition of limited 
airspace and frequency spectrum.
    Last year we held 3 hearings on this issue. We learned that 
the unbalanced implementation of environmental regulations, 
urban expansion and commercial interest in frequency spectrum 
have endangered and degraded the training of our military.
    At our first hearing last year we heard senior military 
officers detail the critical challenges they face in sustaining 
realistic and comprehensive training in this country. On August 
4, 2001, the Subcommittee on National Security, Veterans 
Affairs and International Relations at the urging of Mr. Putnam 
held a hearing in Avon Park, Florida to focus on the importance 
of sustaining critical military training facilities. On April 
23 this year, Mr. Shays' subcommittee held another hearing on 
the importance of radio frequency spectrum in securing military 
readiness and national security.
    Today we are pleased to bring to the encroachment debate 
the unique perspective and opinions of experienced special 
operations personnel and leaders. For the first time the deputy 
commander in chief of U.S. Special Operations Command will 
discuss the preliminary results of an ongoing SOCOM range 
encroachment study.
    We are also honored to include other distinguished members 
of the military services who have recently served in Operation 
Enduring Freedom. Their ability to comment on the critical 
importance of realistic training for continued success on the 
battlefields of tomorrow should be of great interest to all 
Americans.
    The committee is also very concerned about the government 
reforms needed by the these departments and agencies 
responsible for managing the use of military lands. The 
committee requested the U.S. General Accounting Office look 
into limitations on military training in this country and to 
look at the encroachment and management practices of the 
Department of Defense. We look forward to hearing the progress 
made by the Department of Defense over the last 2 years and to 
the recommendations of GAO.
    The purpose of our investigation and of our hearing today 
is rather simple. National security is of utmost importance to 
our country. Our freedom and our safety depend on a strong and 
proficient military. Our war on terrorism will require many 
different kinds of military training and levels of military 
training and skills, not only abroad, but also at home in our 
own Nation.
    As a government, we have a duty similar to the men and 
women of the armed forces. We need to go no further than the 
preamble of our Constitution to know of our responsibility to 
provide for the common defense. As a Nation we are confronted 
with the uncertainty of terrorism and war, coupled with 
technological advances that will change the battlefield and 
change the fortunes of war. We must decide that our military 
has the right to train in this country. We must set aside 
places in which they can train for the proficiency and skills 
they know are best needed.
    Secretary Rumsfeld and all the men and women in uniform 
that he represents have asked Congress for help. Every 
executive branch department and agency with responsibilities 
for Federal range management has been called to consider the 
proposals for the administration's readiness and range 
preservation initiative. There are no exemptions or sweeping 
rollbacks of environmental laws in this legislation. The $48 
billion the Department of Defense invested in environmental 
programs from 1991 to 2001 does not represent an exemption. 
There are no soldiers or sailors, airmen or marines who want to 
permanently damage the environment. The very important National 
Environment Policy Act, NEPA, process that requires State, 
local and public comment at every step is still in effect. 
These proposals are aimed at creating better regulatory 
management that will allow the Department of Defense, Interior 
and Commerce and the Environmental Protection Agency to act 
with an eye on the future instead of reacting to problems when 
it is too late to compromise. It is in the best interest of the 
people we all represent to balance the policies and procedures 
of our executive branch missions. It is also our solemn 
responsibility.
    I want today to take this opportunity to thank all the many 
thousands of Federal and military personnel across the 
departments and services that have contributed to this 
committee's knowledge of these important concerns. Solutions to 
encroachment are not out of our reach.

    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.006
    
    [GRAPHIC] [TIFF OMITTED] T0496.007
    
    [GRAPHIC] [TIFF OMITTED] T0496.008
    
    Mr. Barr. The Chair is pleased to recognize the 
distinguished ranking member, Mr. Waxman of California, for any 
opening statement he might provide.
    Mr. Waxman. Thank you very much, Mr. Chairman. The hearing 
today is about whether the Defense Department needs special 
exemptions from a host of environmental laws enacted by 
Congress to protect public health and safety. This issue raises 
serious questions that need careful examination. But, 
unfortunately, this committee and the House are not acting in a 
careful or deliberate manner. Last month the Pentagon delivered 
to Congress a package of amendments that would exempt them from 
compliance with numerous Federal environmental statutes, 
including the laws governing clean air, endangered species, 
solid waste disposal, and Superfund provisions. Today is our 
opportunity to finally discuss these exemptions and already 
several of them have been pushed through on the House floor.
    To make matters worse, Republican leadership prohibited any 
debate on them.
    The Pentagon defines encroachment very broadly to include a 
wide variety of limitations on training. These include 
competition for airspace, commercial and residential 
development, restrictions on noise, and competition for 
frequency spectrum. Despite these very varied constraints, 
however, the Pentagon aimed its legislative guns exclusively 
and squarely at the environment. They submitted no proposals to 
address the many other forms of encroachment.
    The Pentagon seeks these environmental exemptions despite 
the fact that it has not made a solid case for why it needs 
them. A recent General Accounting Office report made four 
findings that undermine the department's claims.
    First, the department has not even completed an inventory 
of its own training facilities. According to GAO, commanders 
sometimes find out about other training facilities by chance.
    Second, GAO found that the department does not know what 
its training requirements are. GAO found that no military 
service has, ``comprehensively reviewed available range 
resources to determine whether assets are adequate to meet 
needs.''
    Third, GAO concluded that the Pentagon has no data showing 
that the encroachment has increased cost. No installation GAO 
visited could provide data on costs incurred as a result of 
encroachment. Instead, GAO found that the Pentagon's overall 
cost for environmental obligations have decreased over the past 
3 years. Most importantly, GAO reported that the services 
demonstrated no significant reduction in readiness as a result 
of encroachment.
    GAO analyzed the Pentagon's readiness reporting system as 
well as the quarterly readiness reports the Pentagon sends to 
Congress. Although these reports are intended to identify units 
that cannot meet standards, they rarely if ever mention 
encroachment.
    For these reasons, the Pentagon's legislative proposals are 
premature at best. The Pentagon's claims of urgency are also 
undermined by the fact that many of our environmental laws 
already contain exemptions that the Defense Department has 
chosen not to utilize. Section 7(j) of the Endangered Species 
Act, for example, provides an exemption for any agency action, 
including action that would impact critical habitat, if the 
Secretary of Defense finds it necessary for national security. 
So much for the Endangered Species Act. This can be dealt with 
under section 7(j).
    The Pentagon has never sought such an exemption. Perhaps 
they hope to avoid the scrutiny that would be brought to bear 
by the local communities affected.
    There are important reasons why our environmental laws must 
apply to the Defense Department. Consider what happened at the 
Massachusetts Military Reservation in Cape Cod. Their munitions 
training contaminated a sole source aquifer that supplies 
drinking water to nearly 150,000 permanent residents and over 
400,000 seasonal residents of Cape Cod. This threat was averted 
only after EPA intervention under the Safe Drinking Water Act.
    In their briefing last week with committee staff, Pentagon 
officials stated that if some of these exemptions are not 
passed quickly, they fear various constituencies could grow up 
around them and prevent their passage. Today one of these 
constituencies, the States, will finally have the opportunity 
to present their views to Congress. What will we learn? What we 
will learn is that State officials do not support this reckless 
attempt to allow Defense Department to despoil our environment.
    Mr. Chairman, our Federal environmental statutes were not 
passed with the intention of creating a burden for military 
commanders. They were designed to protect the health and safety 
of our population. While I recognize the department has a 
responsibility to train, they have not made a sufficient case 
for special exemptions to these universal protections.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.009
    
    [GRAPHIC] [TIFF OMITTED] T0496.010
    
    Mr. Waxman. Thank you very much, and I yield back my time.
    Mr. Barr. Are there other Members that wish to----
    Mr. Waxman. I ask unanimous consent, because we had two 
Republicans statements in a row, that we have two Democrat.
    Mr. Barr. That's fine. The gentleman from Maine, Mr. Allen, 
is recognized for an opening statement.
    Mr. Allen. Thank you, Mr. Chairman. I welcome this 
opportunity to debate the relationship between environmental 
protection and military training. The title of this hearing 
refers to encroachment, a term designed to imply that 
environmental regulation is encroaching on military land, 
restricting the space available for the military to train. I 
serve on the Armed Services Committee. As we modernize the 
military, the ranges of aircraft and artillery get longer. New 
technologies are fielded, such as naval sonar systems that may 
have new impacts on the environment that weren't a problem 
before. As we use the term encroachment, fairness demands that 
we recognize that the impact can be felt in both directions and 
in particular, that new military technologies can represent 
encroachment on the environment.
    Setting aside policy for a moment, the process by which the 
Department of Defense environmental exemptions are being moved 
through Congress is highly objectionable. First, DOD submitted 
its readiness and range preservation initiative to the Armed 
Services Committee on April 19th, a Friday evening, and only 4 
working days before the markup of the defense bill by the 
Readiness Subcommittee. This constricted timeframe prevented a 
full review of the package by the Armed Services Committee and 
committees with actual jurisdiction over environmental laws.
    Second, the two provisions included in the defense 
authorization bill modifying the Endangered Species Act and the 
Migratory Bird Treaty Act were added without any hearings on 
the legislation and without any involvement of the Resources 
Committee. It was just too convenient that the chairman of 
Resources happened to serve on Armed Services and was able to 
waive Resources' jurisdiction, denying his committee's ability 
to debate these changes to laws under its jurisdiction.
    Third, while the military has been given every forum to 
express its views on this issue, the other stakeholders in our 
Nation's environmental laws have not. In the only hearing the 
Armed Services Committee held this year on the environment, 
only Bush administration officials were allowed to testify. The 
majority refused requests to allow State and local governments, 
environmental or conservation groups, or community 
representatives to present their views. Today, the Government 
Reform Committee is following suit with a one-sided approach.
    While I appreciate hearing from the Colorado Attorney 
General's office, there is no one here to represent 
communities, nongovernmental organizations or citizens groups. 
These stakeholders have asked to testify on environmental 
exemptions before this committee and before Armed Services, but 
have been shut out by the majority.
    Taken together, these efforts give the appearance of a 
stealth attempt by the most anti-environmental administration 
in generations and its Republican allies in Congress to use the 
popularity of the military to carve loopholes in our Nation's 
landmark environmental laws; laws they have been unable to 
repeal directly. And today's witness list is stacked to present 
a one-sided, anti-environmental view.
    Getting back to policy, I dispute the contention that 
current environmental laws are incompatible with military 
readiness. If they were ever allowed to testify, State and 
local officials, and even the career people at the 
Environmental Protection Agency would tell you that today's 
laws give DOD ample flexibility to conduct appropriate 
training. They would tell you that changes in regulatory 
policies can meet DOD's concerns and that wholesale statutory 
changes are unnecessary.
    I look forward to hearing from the GAO witness whose new 
report reportedly will find that DOD has little documentation 
or hard evidence that environmental ``encroachment'' is harming 
readiness. If accurate, it suggests that DOD and the Armed 
Services Committee are engineering a predetermined result.
    The first panel of commanders will offer appealing 
anecdotes about environmental ``encroachment,'' but we do not, 
at least at our best, govern by anecdote. The administration 
has yet to make a balanced, coherent, well-defended case that 
environmental laws that DOD finds inconvenient should be 
changed. It may be that some laws should be modified, but until 
this Congress has the opportunity to hear from all sides, and 
have enough time to make well-informed decisions, we should not 
accede to DOD's last-minute request.
    Thank you, Mr. Chairman. I hope that we can follow this 
hearing with another that includes testimony from the rest of 
the stakeholders in our Nation's environmental laws.
    Mr. Barr. Thank you. In order to set the record straight 
after the distortions of the previous speaker, I'd like to ask 
unanimous consent that the following document be submitted for 
the record, the History of Congressional Hearings on Military 
Training Encroachments, prepared by the House Committee on 
Government Reform, May 3, 2002. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.011
    
    [GRAPHIC] [TIFF OMITTED] T0496.012
    
    [GRAPHIC] [TIFF OMITTED] T0496.013
    
    [GRAPHIC] [TIFF OMITTED] T0496.014
    
    [GRAPHIC] [TIFF OMITTED] T0496.015
    
    [GRAPHIC] [TIFF OMITTED] T0496.016
    
    [GRAPHIC] [TIFF OMITTED] T0496.017
    
    [GRAPHIC] [TIFF OMITTED] T0496.018
    
    [GRAPHIC] [TIFF OMITTED] T0496.019
    
    Mr. Barr. The Chair recognizes the distinguished gentleman 
from Connecticut, Chairman Shays, for any opening statement he 
might care to provide.
    Mr. Shays. Thank you, Mr. Barr. There is a dangerous 
arrogance in the conclusion that a victory in Afghanistan 
proves there are no problems in sustaining military readiness. 
Ignoring long evident constraints and pressures on the fragile 
infrastructure of military training and testing facilities puts 
lives at risk, perhaps not today but certainly in dispersed 
asymmetric battles we know we will have to fight tomorrow.
    The training platforms from which we launched our forces to 
victories in the Gulf war in Afghanistan is shrinking just as 
the strategic landscape of future conflicts expands. The land, 
sea lanes, airspace and radio frequencies once used for 
indispensable training exercises are being put to other uses.
    In a recent hearing before the National Security 
Subcommittee which I chair, we learned just one Global Hawk 
unmanned aerial vehicle [UAV], consumes 5 times the total 
electromagnetic band width consumed by the entire U.S. military 
during the Gulf war. Five times.
    But here at home, military requirements far exceed the 
available range of electromagnetic band width needed to train 
and fight an ever eccentric battlefield of the future. Some ask 
if training range constrictions and encroachments are so 
serious why isn't readiness ratings degraded as a result. One 
part of the answer lies, I believe, in the very personal 
aspects of what we call readiness. If the readiness ratings are 
flawed, it's that they measure too accurately the willingness 
of the men and women in uniform to fight. They're ready and 
willing, out of patriotism and personal pride, they're always 
ready to fight. That's their job. It's our job to see they 
never go into a fight unprepared and that they are truly ready 
to win, and that because of their exceptional training and 
equipment, the fight is never fair.
    The lack of data quantifying the extent of range 
encroachments, the cost of work-arounds and the effect on 
readiness proves only that DOD has not been asking the right 
questions. In the Pentagon, range sustainment questions were 
consigned to a maze of committees, task forces, working groups 
and the Tiger Teams where they fell prey to budget pressures, 
interservice rivalries and bureaucratic inertia. But waiting 
for more data before addressing training range sustainment 
issues is not the answer. Unless training needs are addressed 
now, the hard data we get on the degraded training will be in 
the form of mortalities statistics.
    As we will hear in testimony today, the General Accounting 
Office [GAO], says there is a problem, the full dimensions of 
which are simply not fully known. They found each installation 
they visited has lost some capacity in terms of, 1, the time 
training ranges were available or, 2, the types of activities 
that can be conducted. They found these limitations and 
impediments often prevented training to doctrinal standards.
    An immutable equation applies in war. The more that has to 
be learned in the heat of battle, the higher the casualties. 
On-the-job training costs lives. Only realistic exercises 
before deployment conquers the steep cruel learning curve.
    Our first panel of witnesses today knows that equation 
well. Their testimony will help us understand the life and the 
death link between realistic training and prevailing in combat.
    I am in awe of their service to our Nation. I am grateful 
they are here today and I look forward to their testimony and 
that of all our witnesses.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.020
    
    [GRAPHIC] [TIFF OMITTED] T0496.021
    
    Mr. Shays. I would particularly say that as a Peace Corps 
volunteer who was in the Peace Corps where my generation, many 
of them, was in Vietnam, and I would just like to conclude I 
don't know the protocol, General Tangney, but I've been looking 
forward to this day. Three years ago you gave me a coin in Fort 
Bragg at the U.S. Army Special Operations Command. I know I'm 
not in a bar and I'm not prepared to risk the fact you may have 
this coin in your pocket and treat everyone here to a drink, 
but one on one, I challenge you, here's my coin, General. Do 
you have a coin?
    General Tangey. I'm sure my XO has but I have to buy you a 
beer.
    Mr. Shays. Did I cheat? Am I only allowed to have them in 
the bar? Was I unfair?
    General Tangey. No, you were not.
    Mr. Shays. I won't feel guilty.
    Mr. Barr. I thank the distinguished subcommittee chairman 
for his comments.
    Do any other Members wish to make opening statements?
    Mr. Cummings. I do.
    Mr. Barr. The gentleman from Maryland is recognized for an 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. Today our 
committee meets to discuss the issue known as encroachment. The 
term encroachment refers to the impairment of training 
capabilities due to the growth of civilian populations near 
military installations that were once isolated. In general, 
encroachment issues fall into the following categories: Urban 
growth and development; regulatory compliance, including 
critical habitat designation and maritime restrictions; air 
space restrictions; airborne noise abatement; and radio 
frequency spectrum limitations.
    The Armed Services conduct a wide variety of activities on 
their training ranges which include areas of land, water and 
airspace in or around military installations. Mr. Chairman, an 
argument is made that the ability of the military to execute 
air, ground and naval training across the country is eroding. 
I'm sure that we all can agree that given the war on terrorism 
in Afghanistan and around the world, our servicemen and women 
must have realistic training if this military campaign is to be 
successful. But we must find a balance between adequate 
training and military training within the environment and 
population perimeters.
    The General Accounting Office recently completed a draft 
report regarding encroachment issues. GAO proposed several 
recommendations to address this issue. While GAO found some 
specific instances in which training had to be altered to 
ensure compliance with Federal law at the these installations, 
GAO made several other findings that question the rationale for 
immediate exemptions from a host of environmental laws.
    GAO's findings suggest that the Defense Department has 
failed to make a solid indication for special treatment under 
the laws protecting public health and safety. Despite GAO's 
findings, the Pentagon came forward last month with an entire 
package of legislative proposals to exempt the Pentagon from 
full compliance with a host of environmental laws.
    Representative Hansen of Utah introduced portions of these 
recommendations as an amendment during the House Armed Services 
Subcommittee on Readiness hearing on April 25th. H.R. 4546, the 
National Defense Authorization Act of fiscal year 2003, passed 
on the floor of the House on May 9, 2002. The fate of the House 
legislation will be decided in a Senate-House conference in 
June.
    Mr. Chairman, I want the record to reflect that the 
National Association of Attorneys General have joined the 
National Governors Association and the National Conference of 
State Legislatures in expressing a, ``significant concern,'' 
with recent congressional efforts to push through the 
Pentagon's legislative package.
    I look forward to hearing from the GAO officials and our 
military officers about encroachment and the challenges we 
face. Thank you, Mr. Chairman.
    Mr. Barr. I thank the gentleman from Maryland. Any other 
members? The gentleman from Florida, Mr. Putnam, is recognized 
for an opening statement.
    Mr. Putnam. Thank you, Mr. Chairman. Mr. Chairman, for the 
past year the Government Reform Subcommittee on National 
Security and International Relations has investigated the 
growing number of restrictions or encroachments placed on 
training at military training ranges, including one which I 
represent in Avon Park. Our hearings have substantially 
demonstrated that environmental regulations are among the most 
pervasive and burdensome constraints on military training.
    At a hearing last spring, for example, the committee 
learned that 16 of 17 miles of coastline at Camp Pendleton, CA 
are off limits for amphibious training due to a growing list of 
wildlife protections. Witnesses testified that soldiers are not 
allowed to dig foxholes on some ranges and instead must 
practice jumping into circles marked with tape.
    Our experience in Afghanistan has demonstrated that our 
success on the battlefield is directly related to the quality 
of our military training. We have a commitment to all military 
men and women and their families. They have volunteered to go 
into harm's way. We owe it to them to send them there trained 
to win. Training saves lives.
    Only 1.2 percent of the land in the United States is owned 
by the military, while the Federal Government owns over 20 
percent. Perhaps it's just my Florida way of thinking, Mr. 
Chairman, but it's not a lot to ask that we dedicate 1 percent 
of this great Nation to training men and women to fight to 
protect the freedoms and liberties that we all take for 
granted. I think it's interesting that the other side has 
chosen, rather than coming in here armed with facts and records 
from their own investigations, have accused the men and women 
in uniform in this room of engineering a result, armed only 
with appealing anecdotes of the troubles that they face in 
preparing to defend this country.
    Perhaps, Mr. Chairman, we should conduct environmental 
impact statements on Tora Bora in conjunction with NGO's and 
other respective groups. Perhaps we should abide by village 
noise restrictions before we drop daisy cutters onto al Qaeda 
training cells. Perhaps we should engage in more consultation 
with interested parties. But that's not what these men and 
women are here to discuss. They're here to discuss what it 
takes for our training forces to be the best trained, best 
equipped, and most prepared for any spot in the world. And I 
look forward to their testimony, Mr. Chairman, and I'm proud to 
have them here.
    Mr. Barr. I thank the gentleman from Florida. Any other 
Members over here wish to make opening statements? The 
gentleman from Virginia, Mr. Schrock, is recognized for an 
opening statement.
    Mr. Schrock. Thank you, Mr. Chairman. I wasn't going to say 
anything because I knew if I did, my blood pressure would 
probably go through the roof by some of the stuff I have heard 
earlier this morning. I cannot let it go unchallenged.
    Mr. Chairman, you're absolutely right. This is about 
training. This is about saving lives. If we're going to put 
these men and women in uniform and task them to do the missions 
we task them to do, we darn well better provide them the 
territory to do that training so when they go over there, 
they're going to come home safely. This is about common sense. 
Common sense sometimes doesn't reign supreme up here. And some 
of the laws and regulations that have been put in place do not 
provide common sense for the men and women we're putting in 
harm's way.
    Speaking to the troops, I was privileged, and I mean 
privileged, to wear the Navy uniform for 24 years. I think I 
have an understanding of what some of this stuff is all about. 
And for people to sit up here and say these men are going to 
come here and that we're going to govern by anecdote, they've 
been there, they've been in the harm's way. You have a 
commander of an air group here whose airplanes flew longer than 
any other air group in the history of our country. They set a 
record unlike anything on the TR battle group. You have SEALs 
who are out there giving their all every day.
    Last Monday a dream of mine came true. Since I was in 
Vietnam when I lived with the SEALs, I wanted to spend a day 
with the SEALs and do everything they did. Well, I spent a day 
with the SEALs. I'm not sure I was able to do everything they 
did, but at least I got a taste of what they do and what it 
takes to be a SEAL and go in and do those sort of things.
    We have to provide them with the land and the space to make 
sure they get done what they need to get done. I heard a 
statement, political correctness is getting in the way of the 
servicemen's life. You bet it is. I was privileged to take a 4-
day trip around this country in 12 States, visit 25 military 
bases, Army, Navy, Air Force, Marine Corps. I saw what some of 
the problems are. I heard the commanders, I heard the troops 
complain about the restrictions they have put on them.
    For instance, at Camp Pendleton in California they have a 
wonderful ocean and beachfront there where they're able to 
train, do realistic training, but there are certain times of 
the year when there are certain creatures mating on that beach, 
and when that happens the exercises have to be closed. What 
kind of nonsense is that? Do you suppose when we go into some 
of these countries overseas if there are birds doing that same 
sort of activity on the beaches we're going to say the war is 
over until they're finished? We have to let these people do 
what they're supposed to do.
    I don't know how many of you have read this GAO report. I 
don't usually read this kind of stuff but I did the last 2 
days. I highlighted everything that bothered me and when I ran 
out of ink in two pens, I stopped. Of the land mass at Camp 
Pendleton 57 percent is for endangered species now. What kind 
of nonsense is that? How can these troops train out there to 
get ready for the battles we're going to put them into if they 
have those sort of restrictions?
    Yes, they do need special exemptions. We're in a different 
kind of war. Our country, our Nation has been attacked on our 
soil, and if we don't do something about it, then we're going 
to have this the rest of our lives.
    By training these kids, we're going to provide them with 
the training to maybe not have that happen again. I don't want 
any more 9/11s to come down our street.
    So I heard somebody say the Pentagon proposal will harm the 
environment. Give me a break. Every single base that I've ever 
seen or ever served on, they're probably better stewards of the 
environment than most people in the civilian sector. So to say 
they aren't doing that is totally unfair. I think they need to 
be given the credit for what they're doing.
    Let me see. I made so many notes here. I shouldn't have 
made this many notes.
    The popularity of the military. Somebody complained about 
the popularity of the military. That probably irritated me more 
than anything else. Sure they're popular because they're doing 
what we've asked them to do. They're going to protect our 
country. If the defense of our country is at risk and we're 
going to have people coming in here blowing the daylights out 
of us, the snail darter isn't going to make a difference 
because they're not going to be around, anyhow. So we have to 
make sure that doesn't happen. We have to keep these bases open 
as long as we can. And the more restrictions we put on them, 
the more harm we're going to bring to our people.
    I heard Mr. Shays say I think people perceive that we've 
had victory in Afghanistan. We have not. I spent 8 days there 
in April. We are nowhere near completed with that country. And 
once we get done with them, we've got to go over in other 
countries as well. So we're going to be in this a long time. 
And kids that aren't even born yet are going to be involved in 
these wars. We better make sure we provide the wherewithal, we 
provide the equipment and the training and the land to train 
these people on. And if a snail darter gets killed in the 
process, folks, I'm sorry. I'd rather have an airman, a sailor, 
a soldier, Marine come home alive rather than worry about 
whether a snail darter is going to survive some training.
    I'm very anxious to hear what these distinguished gentleman 
say. I hope we listen carefully. They're the ones on the front 
lines. They're the ones that know what needs to be done. We 
need to pay attention to them and heed what they say and get 
off their backs. Thank you, Mr. Chairman.
    Mr. Barr. Thank the gentleman from Virginia. Any other 
opening statements? Gentlelady from California wish to make an 
opening statement?
    Ms. Watson. Thank you so much, Mr. Chairman, and the former 
speakers. What I will be looking for in listening to the 
representatives at the table there is how we provide balance as 
we prepare for the challenges that we have had and will have in 
the future. As we have a mind-set to look at our Nation 
differently than we did prior to 9/11, how do we do what we 
need to do? How do we train your people? How do we train your 
people in areas that are similar to the areas that we will be 
fighting in, possibly? And how do we take in the concerns that 
citizens have about the environment that they live in every 
single hour of the day?
    What I want to see is the balance--how much consideration 
there is for the issues that were brought up. I don't think 
anyone that I have heard prior is antimilitary. I don't think 
anyone that I have heard prior does not want a well-trained 
force. We would be foolhardy if we did not have that. But what 
I will be listening for is how do we balance it with the needs 
of all those citizens out there. And I think we ought to take 
time to listen. We ought to take time to look. We ought to take 
time to see what the needs are, and we ought to take into 
consideration the environment in which we reach these goals.
    So I would be very, very pleased to hear, as you make your 
presentations, how we have balance. I think if we get that, the 
criticisms that you hear will vanish because they will be 
addressed. Thank you very much. I am very, very interested in 
hearing from you.
    Mr. Barr. I thank the gentlelady. There being no other 
opening statements, we will proceed to the heart of the matter 
here with the introduction of the witnesses on our first panel, 
their testimony, and then questions and answers.
    For those witnesses and Members and folks in the audience 
who haven't been at one of these hearings before, members will 
come and go depending on other meetings, other hearings, and 
markups that may be going on in other committees or 
subcommittees. Also, there may be other meetings from time to 
time. Many of the Members on our side of the aisle are 
currently at a caucus meeting, a conference meeting that 
hopefully will be ending shortly, so there will be several more 
Members here and same on the other side. So Members will come 
and go, but don't let that bother you all. And if I have to 
leave--we have a markup in the Judiciary, a series of bills, 
just down the hall, and I will ask Mr. Shays to take over the 
chair from time to time.
    We appreciate very much the witnesses being with us today. 
Like all of the witnesses, please stand at this time to be 
sworn in.
    [Witnesses sworn.]
    Mr. Barr. Thank you, gentlemen. Let the record reflect that 
all five witnesses answered in the affirmative. You may be 
seated, gentlemen. I ask unanimous consent that full biographic 
information on these five distinguished military leaders be 
included in the record. Without objection, so ordered.
    Rather than take time to introduce at length--and it would 
really would be at length--the relevant biographical 
information on each one of these gentlemen here today that 
brings them to the point of being a witness before this 
committee, we will submit that for the record. I will introduce 
each one of them very briefly by title, and each one of them, I 
believe, may insert in the record or may refer to other 
specific background that they have that might be relevant to 
their testimony today.
    But I would at this time turn to the gentleman from 
Florida, Mr. Putnam, to make a special recognition of our first 
witness, General Tangney. Gentleman from Florida.
    Mr. Putnam. Thank you, Mr. Chairman. It's a special honor 
to welcome someone from my part of the world, Lieutenant 
General William P. Tangney, Deputy Commander in Chief of U.S. 
Special Operations Command, tip of the spear. Based at MacDill 
Air Force Base in Tampa, FL, Pentagon South. He served in 
Vietnam with the U.S. Army Second Battalion, Ninth Artillery, 
Fourth Infantry Division after graduating from the Citadel. He 
returned to Vietnam after graduation from Special Forces 
Officer Course to serve as an operations officer and senior 
launch site commander. He has a master's degree in anthropology 
from Syracuse University and is a graduate of the Naval Command 
and Staff College and the Army War College.
    His awards and decorations include the Defense Superior 
Service Medal, with one oak leaf cluster; the Distinguished 
Service Medal; Legion of Merit, with one oak leaf cluster; 
Bronze Star, with V device and two oak leaf clusters; Defense 
Meritorious Service Medal, Meritorious Service Medal with two 
oak leaf clusters; Combat Infantryman Badge; Master Parachutist 
Badge; Ranger tab and the Special Forces tab.
    General Tangney, we look forward to your appealing 
anecdotes.
    Mr. Barr. I thank the gentleman from Florida. There was 
reference made earlier to this being part of some stealth 
operation. I think one can tell by the size of the audience 
here today, the number of witnesses, and the number of TV 
cameras and other media folks here, this is anything but a 
stealth proceeding.
    We do welcome all of the witnesses here, in addition to 
hearing from General Tangney who has already been very 
eloquently introduced by the gentleman from Florida.
    We will hear from Colonel Thomas D. Waldhauser, U.S. Marine 
Corps, Commanding Officer 15th EMU Special Operations Capable, 
Camp Pendleton, CA.
    We will be hearing Captain Steve Voetsch, U.S. Navy 
Commander, Carrier Group Air Wing One, USS Theodore Roosevelt. 
Commander Voetsch, welcome. It's good to see you here. I had 
the honor of being aboard the carrier a little less than a year 
ago and met you then, and I know you have logged a lot of 
miles, nautical and air miles, between now and then, and we 
appreciate your service. Good to see you again.
    We'll also be hearing from Lieutenant Commander Kerry Metz, 
SEAL, Naval Special Warfare Group One.
    And finally on this first panel, anchoring it from the Army 
is Captain Jason Amerine, U.S. Army, Fifth Special Forces 
Group, Airborne, Fort Campbell, KY.
    Gentlemen, we welcome you all very much here today. As I 
indicated earlier, your full statements will be inserted into 
the record, and the way we will proceed is to recognize each 
one of you, starting with General Tangney and working our way 
down. Each of you, we would appreciate it if you try and limit 
your opening remarks to about 5 minutes. If it goes over to 
some extent that's fine, but try to limit it to about 5 
minutes. And once all of your opening statements have been 
made, we will turn to Members on both sides of the aisle up 
here for questions.
    At this time, I am happy to recognize General Tangney for 
his opening statement.

   STATEMENTS OF LIEUTENANT GENERAL WILLIAM P. TANGNEY, USA, 
  DEPUTY COMMANDER IN CHIEF, U.S. SPECIAL OPERATIONS COMMAND, 
   TAMPA, FL; COLONEL THOMAS D. WALDHAUSER, USMC, COMMANDING 
  OFFICER, 15TH MARINE EXPEDITIONARY UNIT, SPECIAL OPERATIONS 
 CAPABLE, CAMP PENDLETON, CA; CAPTAIN STEPHEN S. VOETSCH, USN, 
 COMMANDER, AIR WING ONE, USS THEODORE ROOSEVELT, NORFOLK, VA; 
COMMANDER KERRY M. METZ, USNR, NAVAL SPECIAL WARFARE GROUP ONE, 
 CORONADO, CA; AND CAPTAIN JASON L. AMERINE, USA, 5TH SPECIAL 
           FORCES GROUP (AIRBORNE), FORT CAMPBELL, KY

    General Tangney. Thank you, sir. Mr. Chairman and members 
of the committee, as previously indicated I am Lieutenant 
General Bill Tangney, and I'm the Deputy Commander in Chief of 
U.S. Special Operations Command.
    Mr. Barr. All the witnesses pull the mic's pretty close, 
just to make sure that it picks up both for the purposes of the 
audience, us hearing, as well the court reporter.
    General Tangney. OK, Mr. Chairman, we will try this again.
    Mr. Chairman, members of the committee, as previously 
noted, I am Lieutenant General Bill Tangney. I'm the Deputy 
Commander in Chief, U.S. Special Operations Command, Mac Dill 
AFB Tampa, FL. I am privileged today to report to the Congress 
on critical challenges confronting national security, with 
particular emphasis on how continuing encroachment threatens 
force readiness as it pertains to USSOCOM forces.
    We are a fully integrated joint force of soldiers, sailors, 
airmen and marines, and must train together on a routine basis. 
Our goal with regard to range use is to be prepared and ready 
for every contingency. Because we are a fully integrated joint 
force, we rely heavily on the Services for training ranges and 
access. Throughout the years, the Services have provided 
excellent support to this command. However, resources spent on 
environmental studies and assessments take valuable assets from 
the command that could be used for training.
    Additionally, formal training areas now set aside or 
restricted as habitat for endangered species, such as the 
northern spotted owl at Fort Lewis, WA; the Red Cockaded 
Woodpecker at Eglin Air Force Base, FL; at Fort Bragg, NC, the 
Loggerhead Shrike; and the Sage Sparrow on San Clemente Island, 
CA; along with the loss of other former live-fire ranges now 
restricted from use, all create increased demand and 
competition for shrinking ranges and training areas.
    Live-fire training is an essential part of combat 
readiness. Military training is inherently dangerous, and the 
United States has set aside areas to use specifically for this 
purpose as DOD operational ranges. Although crucial to 
maintaining national security, these ranges comprise, as 
previously noted by one of the members of the panel, just over 
1 percent of the U.S. land mass. Because there is so little 
land set aside for operational training, we coordinate closely 
with the Services to get access that we need to train our 
Special Operations forces.
    You have heard the concerns and challenges encroachment has 
had in previous testimony on the U.S. Army, Navy, Air Force, 
and Marine Corps. Their problems and concerns are also our 
problems and concerns, for we are truly a joint team. In 
addition to what you have heard from them, I will offer what 
Special Operations' unique concerns are in the area of 
encroachment.
    There are inherent risks we must accept if we are not able 
to exercise the full range of activities demanded of our forces 
in combat. Restrictions on training equal consequences on the 
modern battlefield. For example, in Afghanistan, U.S. Special 
Operations Command, Air Force Special Tactics Teams, Navy 
SEALS, Army and Air Force PSYOP units, Army and Air Force 
aviation assets, Army Special Forces, Rangers and Civil Affairs 
units are all executing complex operations and missions during 
periods of extremely limited visibility. They face climatic 
extremes and must operate over rough and unfamiliar terrain in 
support of U.S. Central Command. Many of these soldiers, 
sailors, and airmen were able to hone their combat skills on 
adequate ranges just prior to deployment. However, many did not 
get this opportunity.
    A large part of the reason that we can support our global 
commitment is that the Special Operations troops are embedded 
with our philosophy of how to train and deploy. These troops 
are the humans and are more important than hardware; that 
quality is better than quantity. That special operations forces 
cannot be mass produced; and that competent special operations 
forces cannot be created after emergencies occur.
    In closing, I would like to reiterate two key points. 
First, we provide the Armed Forces of our Nation with unique, 
one-of-a-kind capabilities. We have been available to develop 
these assets because of the foresight of the U.S. Congress in 
creating this command and providing it with the tools to get 
the job done.
    Second, we must protect our people, provide for their 
professional development, give them the tools that they need to 
do their job, and remember those and their families who have 
given the last full measure of dedication and devotion. With 
continued support from the Congress and key investments in 
quality people, readiness, and training, we will continue to 
have the best Special Operations forces in the world, a force 
that is ready, responsive, and relevant to the challenges of 
the 21st century. I believe that the Special Operations 
soldiers, sailors, and airmen represent one of our Nation's 
greatest assets, superbly trained, physically tough, culturally 
aware, independent thinkers, quiet professionals, all.
    Mr. Chairman, members of the committee, thank you very much 
for the opportunity to testify on this critical issue of 
national importance.
    Mr. Barr. Thank you, General.
    [The prepared statement of General Tangney follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.022
    
    [GRAPHIC] [TIFF OMITTED] T0496.023
    
    [GRAPHIC] [TIFF OMITTED] T0496.024
    
    [GRAPHIC] [TIFF OMITTED] T0496.025
    
    [GRAPHIC] [TIFF OMITTED] T0496.026
    
    [GRAPHIC] [TIFF OMITTED] T0496.027
    
    [GRAPHIC] [TIFF OMITTED] T0496.028
    
    [GRAPHIC] [TIFF OMITTED] T0496.029
    
    [GRAPHIC] [TIFF OMITTED] T0496.030
    
    [GRAPHIC] [TIFF OMITTED] T0496.031
    
    [GRAPHIC] [TIFF OMITTED] T0496.032
    
    [GRAPHIC] [TIFF OMITTED] T0496.033
    
    [GRAPHIC] [TIFF OMITTED] T0496.034
    
    [GRAPHIC] [TIFF OMITTED] T0496.035
    
    [GRAPHIC] [TIFF OMITTED] T0496.036
    
    [GRAPHIC] [TIFF OMITTED] T0496.037
    
    [GRAPHIC] [TIFF OMITTED] T0496.038
    
    [GRAPHIC] [TIFF OMITTED] T0496.039
    
    [GRAPHIC] [TIFF OMITTED] T0496.040
    
    [GRAPHIC] [TIFF OMITTED] T0496.041
    
    [GRAPHIC] [TIFF OMITTED] T0496.042
    
    [GRAPHIC] [TIFF OMITTED] T0496.043
    
    [GRAPHIC] [TIFF OMITTED] T0496.044
    
    [GRAPHIC] [TIFF OMITTED] T0496.045
    
    [GRAPHIC] [TIFF OMITTED] T0496.046
    
    [GRAPHIC] [TIFF OMITTED] T0496.047
    
    [GRAPHIC] [TIFF OMITTED] T0496.048
    
    Mr. Barr. Colonel Waldhauser.
    Colonel Waldhauser. Mr. Barr, members of the minority, and 
distinguished members of the committee, before I proceed with 
my remarks this morning, I would like to express sincere 
condolences of the Commandant of the Marine Corps and all 
Marines on the passing of Chairman Burton's wife Barbara. Our 
thoughts and prayers are with the chairman at this time, and 
his family, in this very difficult period. Thank you.
    Mr. Barr. Thank you for those sentiments reflecting, I'm 
sure, all of the panelists and all of the members of this 
committee.
    Colonel Waldhauser. It is currently my privilege to serve 
as the commanding officer of the 15th Marine Expeditionary Unit 
[MEU], from Camp Pendleton, CA. Three expeditionary units from 
Pendleton routinely rotate and forward deploy for approximately 
6 months to the western Pacific and Arabian Gulf region. 
Although the MEU is generally the smallest Marine Air/Ground 
Task Force, it serves as the Nation's forward-deployed quick 
response force, capable of accomplishing a wide variety of 
missions around the globe on short notice.
    The MEU consists of approximately 2,200 marines. In 
addition to the command element, the MEU is made up of a ground 
combat element based around an infantry battalion, an aviation 
combat element consisting of a composite helicopter squadron 
and a detachment of AV-8 Harrier jets, and finally a combat 
service support element to provide that function. Together with 
the ships from the Navy's Amphibious Ready Group, this forward-
deployed Navy/Marine team provides an extremely flexible and 
responsive force to our Nation.
    The 15th MEU arrived in the northern Arabian Sea in late 
September 2001 and continued to support Operation Enduring 
Freedom until January 2002. We recently returned to Camp 
Pendleton in early March. Several of our significant taskings 
during Operation Enduring Freedom were to seize from the sea an 
air strip 350 nautical miles inland in southern Afghanistan 
called Rhino; conduct offensive operations to destroy Taliban 
and al Qaeda forces attempting to escape from Kandahar; and to 
secure the Kandahar airfield for turnover to the 26th MEU. 
Obviously, our predeployment training program, most of which 
was conducted in southern California, was vital to our ability 
to handle the variety of missions and tasks that came our way.
    Effective training is the price of success in combat. 
Consequently, I as a commander, and marines of the MEU, share 
the concern that encroachment is limiting our training 
opportunities with potentially negative consequences for our 
readiness. Wildlife and habitat regulations, airspace and 
target engagement restrictions, and the proximity of civilian 
homes to our bases cause our training to be sometimes 
fragmented, segmented, and in many cases not in accordance with 
sound military doctrine. We must be able to hone our skills, 
from the individual marine up to the Marine Air/Ground Task 
Force level. This means we must be able to dig in, move cross 
country, off roads with our vehicles, fly our aircraft on 
different routes and tactical altitudes, and conduct combined 
arms live-fire exercises, especially at night. Presently on 
board Camp Pendleton, we are limited in being able to 
accomplish all of these tasks.
    Another area of concern to the MEU is access to the beaches 
along Camp Pendleton's coast line, as has been alluded to here 
this morning. Because the MEU primarily comes from the sea, we 
need beach access. Although Camp Pendleton has 17 miles of 
coastline and four landing beaches for training, we were only 
allowed to use one of these beaches during our work-up period, 
primarily due to wildlife restrictions during that time of the 
year at Camp Pendleton. This makes amphibious training for the 
marines and sailors very frustrating and somewhat unrealistic.
    Finally, I am concerned about the impact multiple 
encroachments are having on our junior leaders and their 
ability to develop sound tactical judgment and keen time sense 
and awareness on the battlefield. Over time, bad habits caused 
by encroachment may become the accepted way of doing business. 
From my own experience at Camp Pendleton, amphibious exercises 
conducted in the mid-eighties to test at that time new 
equipment and evolving doctrine are simply not possible today 
as a result of these encroachment restrictions.
    In sum, encroachment is pushing us in the wrong direction. 
As we modernize our weapons systems in order to be able to 
engage the enemy at extended ranges and maneuver our forces 
over great distances to place that enemy in a dilemma, we will 
need all of our range and training area space in order to be 
properly trained and prepared for future combat operations.
    I thank you very much, Mr. Chairman, and look forward to 
your questions.
    Mr. Barr. Thank you very much, Colonel.
    [The prepared statement of Colonel Waldhauser follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.049
    
    [GRAPHIC] [TIFF OMITTED] T0496.050
    
    [GRAPHIC] [TIFF OMITTED] T0496.051
    
    [GRAPHIC] [TIFF OMITTED] T0496.052
    
    [GRAPHIC] [TIFF OMITTED] T0496.053
    
    [GRAPHIC] [TIFF OMITTED] T0496.054
    
    [GRAPHIC] [TIFF OMITTED] T0496.055
    
    [GRAPHIC] [TIFF OMITTED] T0496.056
    
    [GRAPHIC] [TIFF OMITTED] T0496.057
    
    [GRAPHIC] [TIFF OMITTED] T0496.058
    
    [GRAPHIC] [TIFF OMITTED] T0496.059
    
    [GRAPHIC] [TIFF OMITTED] T0496.060
    
    [GRAPHIC] [TIFF OMITTED] T0496.061
    
    Mr. Barr. Captain Voetsch.
    Captain Voetsch. Good morning, Mr. Barr and members of the 
committee. I was asked after my recent return from deployment 
on board the Theodore Roosevelt to testify about my personal 
involvement with my air wing's combat performance during 
Operation Enduring Freedom. I accepted it because I believe it 
is important enough to explain in person the process my air 
wing went through in preparation for the war.
    My name is Captain Steve Voetsch, and with me today is my 
wife Libby, behind me. And before I begin, sir, I would like to 
point out it was also a pleasure for me to be here today and 
meet these two gentlemen in person sitting next to me. They 
were both on the ground in Afghanistan when we were dropping 
our bombs, and it is an honor for me to actually meet them face 
to face.
    I am a graduate of the U.S. Naval Academy and proudly 
served 24 years of active duty. I have flown in five different 
squadrons of both the F-4 Phantom and F-14 Tomcat. I have 4,800 
flight hours and 1,100 carrier landings and 350 combat hours in 
Operation Desert Storm, Bosnia, Operation Southern Watch, and 
Operation Enduring Freedom. I am a graduate of Top Gun, the 
Armed Forces Staff College, and a fellow at the Hoover 
Institute, Stanford University.
    My responsibilities as the air wing commander include being 
in direct charge of eight squadrons and over 1,500 personnel. 
This air wing is unique, given the fact of the geographic 
locations of the squadrons. The number of aircraft that Air 
Wing One brings to the battle group is 68. We joined the 
Theodore Roosevelt Battle Group over a year ago, and we 
previously deployed with the John F. Kennedy Battle Group prior 
to that.
    CVW-1, a short name for our air wing, uses a stair-step 
approach to training. It begins with unit level training where 
individual squadrons train in section and division tactics. All 
eight of my air wing's squadrons trained at various locations 
throughout the United States completing their syllabus.
    Once a squadron completes their ULT requirements at the 
varied locations, the entire air wing deploys to Fallon, NV, 
home of the Naval Strike Air Warfare Center. This is the first 
time all eight squadrons get together as a unit to prepare and 
train at the ranges in Fallon for combat. In Fallon, the 
squadrons integrate together as an air wing, practicing air 
wing tactics and working to get together to conduct coordinated 
strikes. That range in Fallon provides outstanding over-land 
training to an air wing prior to deployment, due to the fact 
its ranges provide a unique blend of mountains and desert 
targets much like we experienced in Afghanistan.
    Air Wing One then integrates with the aircraft carrier in 
the battle group during our interdeployment training cycle. 
This encompasses three at sea periods: tailored ship training 
availability; composite training unit exercise; and joint task 
force exercise.
    Theodore Roosevelt Battle Group with Air Wing One deployed 
on September 19, 2001, only 8 days after the attacks on New 
York and the Pentagon. The battle group crossed the Atlantic as 
the air wings sharpened their skills as much as possible, 
dropping practice 25-pound bombs on Larne targets, basically a 
sled that floats, towed behind two of our battle group ships, 
USS Vella Gulf and USS Leyte Gulf. As the battle group sailed 
through the Mediterranean waters, we received an Execute order 
to continue through the Suez Canal and to the Arabian Sea to 
start operations upon arrival. As we arrived on station, we 
were assigned the night flying window, and we would begin at 
2230 at night and finish at 1330 the next day, flying an 
average 15 hours, 7 days a week. For the first 3 months, from 
October through December, all sorties flown by Air Wing One 
were in support of Operation Enduring Freedom. The missions 
included coordinated strikes deep in Afghanistan, delivering 
laser-guided GPS and MK-80 series iron bombs. Additionally, 
aircraft flew off the coast of Iran and Pakistan in defense of 
the coalition forces, and provided support to maritime 
interdiction and leadership interdiction operations.
    It wasn't until January, when the Taliban and al Qaeda 
defenses crumbled, that our tasking was reduced and the air 
wing began to fly unit level training flights to stay 
proficient in other warfare areas. The preponderance of our 
flying was at night, wearing night vision goggles, dropping our 
ordnance under the cover of darkness. Air Wing One performed 
well and set numerous squadron flight records due to long 
flights in Afghanistan. We did it safely, without losing any 
aircraft.
    Our lessons learned are many, and mostly classified. 
However, Operation Enduring Freedom continues to stress the 
importance of training and flying in the carrier environment. 
Afghanistan and the war on terrorism was unique, and the 
training we received prior to deployment prepared us for those 
challenges. Afghanistan presented a fluid battlefield in an 
unconventional war where Air Wing One's capability and 
flexibility proved to be successful and lethal. Training and 
readiness must remain a top priority in future operations 
throughout the globe. Thank you.
    Mr. Barr. Thank you very much, Captain.
    [The prepared statement of Captain Voetsch follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.062
    
    [GRAPHIC] [TIFF OMITTED] T0496.063
    
    [GRAPHIC] [TIFF OMITTED] T0496.064
    
    [GRAPHIC] [TIFF OMITTED] T0496.065
    
    [GRAPHIC] [TIFF OMITTED] T0496.066
    
    [GRAPHIC] [TIFF OMITTED] T0496.067
    
    [GRAPHIC] [TIFF OMITTED] T0496.068
    
    Mr. Barr. Commander Metz.
    Commander Metz. Mr. Chairman and members of the committee, 
I appreciate the opportunity to appear before you. My name is 
Kerry Metz, I am from Colorado and currently stationed at Naval 
Special Warfare Group in Coronado, CA. In support of our Navy, 
Navy Special Warfare and the entire Special Operations 
community has been vital to our Nation's ongoing war effort. As 
you know, Operation Enduring Freedom is challenging our forces 
to conduct the full spectrum of Special Operations. We are 
asking the operators to use every tool in the kit bag in an 
effort to accomplish the mission while mitigating the risk to 
civilian populations, our coalition partners, and ourselves.
    Just over a month ago, I returned from Afghanistan where I 
served as the director for operations for the Special Operation 
Task Force charged with the conduct of special reconnaissance 
and direct action missions. We were fortunate to have the 
finest special operators from a coalition of seven nations. We 
challenged our operators to conduct missions in some of the 
most hostile environments ever operated in. For example, we had 
special reconnaissance teams operating in the mountains of 
Afghanistan at altitudes above 10,000 feet for extended periods 
without resupply.
    I am a SEAL officer and therefore most familiar with the 
somewhat unique challenges of training SEALs and special boat 
operators for combat operations around the world. In addition 
to my service in Afghanistan, I have served as an instructor 
for our basic underwater demolitions/SEAL or BUD/s training 
course in Coronado, CA, and as a training officer at one of our 
Naval Special Warfare units. SEAL is an acronym for Sea, Air, 
and Land. These are environments in which we are trained to 
operate. In order to win in combat, special operators must have 
the opportunity to train in environments that simulate as 
closely as possible the environments in which they are expected 
to fight. The Naval Special Warfare Command in Coronado, CA led 
by Rear Admiral Eric Olson, has the ultimate responsibility to 
ensure that every SEAL and special boat operator is fully 
trained to the highest level of readiness prior to deployment.
    The encroachment areas that are of most concern and pose 
significant negative impact on Naval Special Warfare training 
are endangered species and critical habitat, unexploded 
ordnance, maritime sustainability, and urban growth. We are 
asking our special operators to go into harm's way. We demand a 
lot from them. We need to ensure they are as ready as possible 
when we deploy. The increasing toll from encroachment is felt 
in many forms and work-arounds are used to compensate for the 
limitations encountered. These work-arounds impact the realism 
of the training, the amount of time spent away from home, and 
the quality of life for our operators and their families. 
Additional costs are also incurred.
    Special operators focus on one goal: to win in combat. I 
strongly believe you must train like you fight, and to do this 
you must have adequate ranges. It has always been our intent to 
be good stewards of the environment and a reasonable balanced 
approach to range management should be achievable.
    I would like to thank the Members of the committee and 
Congress for their continued support of Naval Special Warfare 
and Special Operations. Thank you, sir.
    Mr. Barr. Thank you very much, Commander.
    [The prepared statement of Commander Metz follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.069
    
    [GRAPHIC] [TIFF OMITTED] T0496.070
    
    [GRAPHIC] [TIFF OMITTED] T0496.071
    
    [GRAPHIC] [TIFF OMITTED] T0496.072
    
    [GRAPHIC] [TIFF OMITTED] T0496.073
    
    [GRAPHIC] [TIFF OMITTED] T0496.074
    
    Mr. Barr. Captain Amerine.
    Captain Amerine. Mr. Chairman and members of the committee, 
I am captain Jason Amerine. Over the past 14 years I have 
served in various infantry and Special Forces units, in Hawaii, 
Panama, Honduras, Venezuela, Korea, Kuwait, Kazakhstan and 
Germany. Most recently I commanded a Special Forces team in 
central Asia, deployed in support of Operation Enduring Freedom 
from October 20 to December 5, 2001.
    In November 2001, my team, Operational Detachment Alpha 
574, infiltrated Afghanistan in a 4-hour low-level insertion 
deep into enemy territory. Our mission was to assist 
antiTaliban forces and replace the Taliban regime with a 
legitimate government to ensure that Afghanistan would never 
again be a safe haven for terrorism. Once on the ground, we 
engaged the enemy in several pitched battles and we won all of 
them.
    My team advised and assisted antiTaliban fighters through 
military training and by providing humanitarian aid and 
weapons. We directed air strikes against Taliban targets in 
southern Afghanistan by using laser designation equipment and 
pilot ``talk-on'' for nearly a month. My team traveled across 
southern Afghanistan in pickup trucks with antiTaliban forces 
conducting unconventional warfare.
    From an operational perspective, my team's ability to train 
for this war was far from ideal. Range encroachment issues 
affected nearly every aspect of this mission's profile. Ranges 
and impact areas in some of our military installations were 
designed for military equipment dating back to the 1950's, at a 
time when military posts were located well away from the 
civilian population. The increase in urbanization around our 
military bases will make it even more difficult to train 
effectively with our most lethal weapons on the space 
available.
    On some installations we cannot train adequately for close 
air support, a critical aspect of our success in Afghanistan. 
Such training opportunities are limited because impact areas do 
not support parameters needed for realistic effective training. 
The usable area for such training is very small and we have 
limited locations from which to direct air strikes. Noise 
concerns constrain fighter aircraft conducting attack runs, day 
or night. We must limit the approaches of our attack runs based 
upon civilian airspace restrictions. These measures reduce the 
effectiveness of the training.
    Laser designation equipment, our most critical tool in 
executing close air support, cannot be used in some training 
areas. Lasers can only be used in training areas to the extent 
of the maximum range of the equipment itself or which have 
well-developed backstops. This impedes our ability to train 
with and test our equipment in a realistic environment.
    Long-range movements are a core task of 5th Special Forces 
Group. In the last decade, this group exercised this skill 
extensively in Southwest Asia. My team applied the skills in 
the deserts of Afghanistan. We are severely limited in our 
ability to realistically practice these skills due to limited 
training areas. Operating outside installation boundaries 
requires extensive and time-consuming coordination with outside 
agencies, the local government, and private landowners. My 
team's readiness enabled us to execute the classic warfare 
mission in Afghanistan. Our training, however, could have been 
better. Some of the best training my men received for this war 
came from within the war zone itself, where we could completely 
exercise our combat systems without facing the many training 
restrictions and work-arounds that have become a normal part of 
life for the military due to encroachment.
    We must continue to fulfill our responsibilities as good 
neighbors, but in order to save lives we must provide realistic 
training opportunities for those who serve our country. Thank 
you.
    Mr. Barr. Thank you very much, Captain.
    [The prepared statement of Captain Amerine follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.075
    
    [GRAPHIC] [TIFF OMITTED] T0496.076
    
    [GRAPHIC] [TIFF OMITTED] T0496.077
    
    [GRAPHIC] [TIFF OMITTED] T0496.078
    
    [GRAPHIC] [TIFF OMITTED] T0496.079
    
    [GRAPHIC] [TIFF OMITTED] T0496.080
    
    Mr. Barr. As I indicated earlier, all of your complete 
statements will be included as part of the record. We 
appreciate very much your condensing them for purposes of 
opening statements on the record here today.
    At this time we'll proceed with questions from committee 
members. We'll be going in 5-minute increments. And I recognize 
myself for 5 minutes.
    Colonel Waldhauser, one of the gentlemen who is a true 
American hero, a Medal of Honor winner, General Ray Davis, who 
lives in Georgia, and I know him very well, and I am honored to 
consider him a friend--and I think you are familiar with him, 
as all Marines are. And he won his Medal of Honor for his 
service to this Nation and in the cause of freedom in Korea at 
the Chosin Reservoir. And I know in your prepared statement, 
you talk a little bit about that.
    Without necessarily going into the entire detail, tell the 
panel, the committee if you would, please, why something so 
seemingly insignificant as developing--almost an instinct to 
dig a foxhole when you go into an area, why that is so 
important?
    Colonel Waldhauser. Thank you, sir.
    Mr. Barr. And with that, why, with the way the encroachment 
issue--and we've heard in earlier hearings that, for example, 
when the Marines or the troops go ashore in a training 
exercise, they have roped-off areas that are pretend foxholes, 
because they can't actually dig a foxhole because they might 
disturb something.
    Colonel Waldhauser. There is a well-worn phrase that has 
been with me my entire time in the Marine Corps, that says you 
don't have to dig a foxhole, because the first time you have to 
do one, it doesn't take a lot of practice and you'll know how 
to do it. But that really is an overstatement and it really 
does not delve into the whole issue of what it means to 
entrench or field fortify your position.
    When we flew in 350 nautical miles from the ship, we were 
pretty much at risk, although we had most of that mitigated 
through other means. But the ability to dig in, construct 
offensive positions, integrate fields of fire, construct 
obstacles, is something we were never able to do at Camp 
Pendleton. It's just too hard, and can't do it all in one 
place; and as previously indicated, this is what we would call 
our practice, perhaps, under fire.
    Now, it doesn't take a lot for a Marine to dig. He has to 
work to do it, and he understands how to do that. But in order, 
as I indicated, to coordinate, synchronize, and orchestrate the 
defensive position or defense of an airfield in the middle of 
southern Afghanistan, is something you don't want to do for the 
first time when you actually have to do it. In essence, that's 
what we did.
    Mr. Barr. Thank you.
    General Tangney, as the most senior officer on this panel, 
I will direct this question to you, but other members of the 
panel feel free to offer any insights you might have or 
particularized knowledge.
    We are all familiar with the various Federal laws that 
relate to the encroachment issue, the Endangered Species Act, 
perhaps most notably among them the Marine Mammal Protection 
Act, and so forth. Yet there is a particular provision, section 
7(j), I believe, of the Endangered Species Act, that contains a 
very broad national security exemption. And as a matter of 
fact, that's what it is called, ``exemption for national 
security reasons.'' And it provides that if the Secretary of 
Defense finds that such an exemption is necessary for reasons 
of national security, that the particular committee to which 
that exemption request would be directed must--it isn't 
discretionary; they must grant the exemption. In other words, 
if the Secretary of Defense goes to this endangered species 
committee and says we need an exemption from these laws, these 
restrictions, for national security, they have to grant it.
    Have there been any instances in which such an exemption 
has been sought or requested?
    General Tangney. Mr. Chairman, to the best of my knowledge, 
I have no specific insights into this particular issue. I was 
unaware of the particular exemption which you reference. I 
would assume that if that is on the books as it is, it has 
certainly been considered, and I know we have subsequent 
speakers who are better qualified than I to address that 
particular issue.
    Mr. Barr. Is there any member on this first panel that 
believes that such an exemption would not be fully justified in 
the current wartime situation?
    Let the record reflect that none of the witnesses so 
believed that there would not be full justification for such an 
exemption being sought.
    Captain Voetsch, when you flew in the missions in the 
Afghanistan theater, did the accuracy or the success rate of 
your missions, your bombs, improve over time?
    Captain Voetsch. That is correct, sir.
    Mr. Barr. Did it improve significantly over time?
    Captain Voetsch. The first 2 weeks, sir--after the first 2 
weeks when we got our systems groomed and got used to flying in 
that area, things did improve to the point that we were about 
73 percent accurate.
    Mr. Barr. And was such training available prior to your 
entry into the theatre?
    Captain Voetsch. Yes, sir. We received all the proper 
training prior to Operation Enduring Freedom. There were some 
restrictions placed that did hamper some of the end-to-end--one 
of the important things for our training is not just dropping 
that weapon, it is the whole process of bringing the weapon up 
and having the magazine on the ship, having a young 20-year-old 
load it on an aircraft, and then the systems and aircraft have 
to work. And dropping live ordnance is an issue that I don't 
think we trained enough doing that prior to Operation Enduring 
Freedom. And I caveat that because most of our live weapons 
training dropping was out in Fallon, NV and on the East Coast, 
which drives us away from family and ITEMPO and other issues 
like that, sir.
    Mr. Barr. Chair recognizes the gentlelady from California 
for 5 minutes.
    Ms. Watson. I want to commend all the military personnel 
for their courage, their training, and being able to execute 
and have our side accomplish its goals. I just have a couple of 
issues that anyone on the panel might address. And the first 
is, I heard you say very clearly that most of your training was 
done very hurriedly on the ground in Afghanistan.
    Is there an assessment of ranges that you could train on 
that are similar to that territory? Would they be better suited 
than the locations that you already have, say, in California? I 
do represent Los Angeles, CA. And what are your training needs 
in terms of ranges? Do we have an assessment, an inventory? Do 
we have like-kind environmental conditions throughout our own 
country that would be similar? I understand that places in 
Afghanistan look like the surface of the Moon. So can we find 
ranges--have you sent in a request at all for what you're going 
to need to continue the war in Afghanistan, or wherever in the 
surrounding countries? And my main question is the ranges and 
how can we duplicate the conditions that you face when you go 
out to combat in those theaters?
    General Tangney. Well, ma'am that is a multipart question, 
but I will certainly endeavor to at least answer part of that 
from a USSOCOM perspective. Last year, we initiated a study 
team to do a comprehensive worldwide look at the range issue, 
based on the issues of availability for our formations, looking 
at what the Services have, the procurement of the services, the 
joint ranges that exist for a variety of reasons, one of which 
was to ensure that we had a full, common, relevant picture of 
the ranges that were available and that we had some insights in 
the ranges that we might have to actually spend our own dollars 
to create sought unique ranges for specific mission type 
purposes. We should have the results of that study out, 
hopefully, sometime by the end of the summer. That, of course, 
is the Tiger Team referred to by the chairman at the beginning 
of this testimony.
    Our concern is, just as you pointed out in your comments, 
to identify range complexes where we can get a more 
comprehensive full-mission profile train-up for our joint 
formations prior to deployment, minimizing individual 
operations tempo and minimizing costs at the same time, while 
at the same time attempting to achieve the tradeoffs that you 
mentioned between training for combat readiness and legitimate 
environmental considerations.
    Colonel Waldhauser. Ma'am as far as the Marine 
Expeditionary Unit is concerned, we are heavily integrated and 
depend quite extensively on our Navy counterparts. 
Consequently, any type of training or ranges that would be 
ideal from the MEU perspective would have to start from the 
sea, with the Navy. We need to be able to use sea space and use 
our beaches in order to be able to accomplish our training in a 
realistic manner.
    Additionally, we have to be able to maneuver over the 
ground. We have to be able to drive off road, we have to be 
able to go across the country. This is one of the operations we 
had in Afghanistan where really for the first time we 
maneuvered over 90 miles from Rhino, up in the vicinity of 
Kandahar, to be in a position to take on forces that were 
escaping out of that city. And it was one of the first times 
that our light armored vehicle unit had the opportunity to 
maneuver with all the weight that combat brings with it, the 
food, the ammunition, the fuel and whatnot, over different 
types of terrain. And consequently, that skill of the driver 
needs to be honed back in CONUS and not in the country of 
Afghanistan.
    Finally, we also are dependent on our aviation support and 
we need to have ranges to drop bombs for our aircraft that are 
not repetitive. In other words, at Camp Pendleton, for example, 
the airspace is so tight that the aircraft are constantly in a 
turn in order to make a drop on targets. The targets are always 
the same. The ingress and egress routes out of the targets are 
always the same so, quite frankly, there isn't a lot of 
thinking that has to go into the planning. There isn't a lot of 
thinking that has to go into the execution on the part of the 
operators.
    So from the MEU perspective, because of the way we are and 
how we are integrating with the Navy, we have to start from the 
sea. We have to have access to beaches. We have to have off-
road, cross-country movement. And, additionally, we need 
airspace that will allow us to train like we fight.
    Ms. Watson. Let me just respond and see if I heard you 
correctly.
    Mr. Barr. Without objection, the gentlelady is granted 1 
additional minute.
    Ms. Watson. Thank you. I think I heard you say, General, 
that there is a comprehensive, well-thought-through report, or 
proposals I should say, for what is needed. Is the Navy also 
going to be part--or do you do it in your separate military 
units? Is there a comprehensive report that will come in as to 
the needs to continue on with the current war, or will it be a 
separate report coming in from the different branches? And is 
that the one we can expect to see--did you say July?
    General Tangney. This is an internal report which we have 
done within U.S. Special Operations Command and full 
collaboration with all the Services and the Office of the 
Secretary of Defense. We hope to finalize that some time by the 
end of the summer, and we certainly could make that available 
to the committee upon request.
    Ms. Watson. And just to followup, I think that's what the 
GAO was getting toward, that they wanted to see your proposals, 
the costs and the breadth of what your needs are, an 
assessment.
    General Tangney. Ma'am, I haven't seen the GAO report. But 
from what I understand, I think it's a little bit more 
comprehensive than U.S. Special Operations Command and looks at 
the entire----
    Ms. Watson. I think that's what this committee was 
concerned about, too, was the report from the GAO; and I hope 
it will be addressed when we see your proposals.
    Thank you very much. Thank you, Mr. Chair.
    Mr. Barr. I thank the gentlelady. The Chair recognizes the 
distinguished gentleman from New York, Congressman Gilman.
    Mr. Gilman. Thank you, Mr. Chairman, and I want to commend 
you for conducting this hearing on what has become a growing 
problem for our military: the issue of encroachment.
    It is obvious to everyone on our committee that our 
military forces, especially since 9/11, need to have access to 
the best training possible. I realize that deploying military 
forces have limited experience in live-fire training. It's not 
only foolhardy, it's laying the groundwork for future problems. 
The primary goal of our government is to make certain that we 
protect the lives of all of our citizens and everything else is 
secondary.
    Today we find ourselves engaged in an open-ended conflict 
with an enemy that has pledged to the destruction of our way of 
life and our political system. I just attended a hearing this 
morning where we were trying to find what would happen if the 
Congress suddenly was devastated by an attack. The issues of 
military training and encroachment are no longer academic 
exercises, and we recognize they all have serious consequences, 
and it is hoped that some practical compromises can be worked 
out with regard to a number of these encroachment issues.
    General Tangney the GAO study that we are hearing about 
indicates the Secretary of Defense needs to require the 
services to develop and maintain inventories of all of the 
training ranges' capacities and capabilities and fully quantify 
their training requirements.
    Is there any work being done in that direction, General?
    General Tangney. Sir, I could only speak to what we were 
doing internally, as I mentioned earlier, and I am sure there 
is probably something going on, but I would defer to subsequent 
witnesses from the Office of the Secretary of Defense who will 
testify later on, who will probably have more knowledge than I 
do.
    Mr. Gilman. As far as you know, you are not aware of any 
study right now of what training facilities are available, 
training ranges?
    General Tangney. I am aware of what we have going 
internally to our command. I am not aware personally of other 
ongoing activities within the Department, and therefore, I 
would defer to a more knowledgeable person in that area.
    Mr. Gilman. The GAO notes that the Department of Defense 
needs to create a data base that identifies all ranges 
available to the Department and what they can offer, regardless 
of service ownership, so that the commanders can schedule the 
best available resources to provide required training.
    Are you aware of any activity of that nature, of providing 
that kind of a data base?
    General Tangney. Sir, as I mentioned in earlier testimony, 
that is what we are attempting to do with our own internal 
study for our own training purposes. And again from the 
Department perspective, I would defer to subsequent witnesses 
who might have more in-depth information because, quite 
frankly, I am not up to speed on that particular topic.
    Mr. Gilman. Do you have a list of all of the training 
facilities?
    General Tangney. We are developing a list, yes, sir. We 
have a Tiger Team which we stood up last summer to address the 
issue of ranges, range availability, range commonality within 
all of the services and across the Department to facilitate the 
training of our joint formations. That study is ongoing and we 
hope to be through with that by the end of the summer and 
produce a report which we can use for our own purposes and 
which we can certainly make available to the committee upon 
request.
    Mr. Gilman. And GAO is also referring to the need for the 
Department of Defense to finalize a comprehensive plan for 
administration actions that includes goals, timeliness, 
projected costs. And a clear assignment of responsibilities for 
managing and coordinating the Department's efforts to address 
encroachment issues.
    Are you aware of any study of that nature underway?
    General Tangney. Sir, once again, I would have to go back 
to my earlier comment. That is not something that I am 
personally familiar with, because I don't deal with that on a 
daily basis.
    Mr. Gilman. Thank you. Just one or two other questions. 
What training encroachment issues are of most concern to SOCOM?
    General Tangney. Certainly we have a number of concerns, 
and I will highlight two installations, one Air Force and one 
Navy, just to show how joint I am. We have severe problems on 
San Clemente Island, CA, which is a habitual training ground 
for our Navy SEALS, our West Coast SEALS in Coronado, CA. San 
Clemente has become severely restricted over the years, 
primarily because of the existence of 13 separate protected 
species which exist on that island, which has significantly 
reduced the amount of training space and forced our Navy SEAL 
formations on the West Coast to use training areas at far 
greater distances, which results in greater expenditures in 
terms of training dollars and also results in a greater amount 
of time which is spent away from home, which gets to individual 
OPTEMPO.
    Second example I would use is in the State of Florida, 
specifically Eglin Air Force Base, FL, which is the home of our 
Air Force Special Operations Command, where ranges have become 
greatly curtailed over the years due to increased competition 
and where a significant impact on training and readiness for us 
has been the Marine Mammal Act, which precludes the firing of 
weapons into the Gulf of Mexico, which we could do prior to the 
passage of that act. So that is two installations that we use 
on a regular basis where training has been degraded because of 
environmental encroachment.
    Mr. Gilman. Are you having any problem in conducting night 
training?
    General Tangney. Sir, I think night training is a problem 
across the entire Department of Defense. It was certainly 
mentioned on my left, very eloquently, by the Commander of the 
15th MEU. It's a problem for our formations as well. A lot of 
that has to do with increased urbanization.
    For us to get effective training for our joint formations, 
we really require the ability to fly extended distances, low 
level, at night, with our fixed wing and rotary wing 
penetrators both from the Army and the Air Force, to be able to 
refuel, to do a full mission profile workup, so we get the full 
training value not only for the ground operator or maritime 
operator, whether it be a Navy SEAL, Army Ranger, or Special 
Forces soldier, but also for the flight crew which is 
delivering that formation.
    Mr. Gilman. Are you limited by any encroachment issue in 
performing that kind of a mission at night?
    General Tangney. Sir, it's primarily not so much 
environmental, but it can be environmental because you are 
restricted in terms of your flight corridors and your ability 
to fly over areas where you have some endangered species. 
Primarily you are limited by increased urbanization 
encroachment.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Barr. The Chair recognizes the gentleman from 
Connecticut for 5 minutes.
    Mr. Shays. I welcome all of you to this hearing and I thank 
you for your service to our country. We have had opportunities 
as Members of Congress, particularly in our committee's 
jurisdiction, national security and government reform, to go to 
so many different bases, to see our men train, to be onboard 
planes when they have been refueled, to stand on the deck of 
the Theodore Roosevelt as plane after plane comes in. And one 
of the things I was struck when I saw a plane refueling was the 
absolute tension on board, the real live tension as we were 
doing what they do quite often. And I was struck at the fact 
that you have to be at an extraordinary high level of 
performance and you're allowed very little error.
    I was struck by the fact that when you land at night, with 
all due respect to all the pilots, they were grateful as hell 
to be onboard that ship, it made me realize that this isn't 
routine. Every time you land at night, it's a small, little 
space. And I was thinking if you had to practice landing on a 
ship at night by just having to be on land, it still wouldn't 
be the same thing. And I just use that as an illustration of 
all the other things that I imagine.
    Tell me, each of you, why live ammunition makes it a 
different operation than not using a dummy weapon. I would like 
to go down--whoever wants to jump in. We will start with you, 
Captain Voetsch. Tell me what the difference of live versus 
nonlive, and describe to me the people having to load the plane 
up and what the people feel onboard who make sure you take off 
safely and land safely.
    Captain Voetsch. I mentioned briefly earlier, the entire 
process is what--of actually bringing a weapon out of a 
magazine onboard a ship, which is way below the decks almost to 
the waterline. It is extremely hard to move--the numbers of 
weapons we were dropping over in Afghanistan per day for these 
guys, the average age of a sailor onboard the Theodore 
Roosevelt is 19 years old, and they have to bring it up about 
five or six stories high. They have elevators and things like 
that to bring them up to the flight deck. And we do what we 
call cyclic ops, and that means every hour and 30 minutes we 
launch and recover aircraft. And during that period, because we 
only have so many airplanes on the flight deck, about 42 at any 
given time, they will land. As soon as they land, we park them, 
they chain them down and bring the ordnance out while other 
aircraft are still turning with their jet engine exhaust and 
everything else. They refuel the aircraft, load new weapons on 
there, and another crew will man that jet up, and an hour 30 
later they will launch it again.
    Mr. Shays. I saw hundreds of men and women onboard that 
deck. They had different colored jerseys and different tasks. 
There were no fences along the side. Someone could literally 
back off the back and fall right off. It's clearly a different 
environment.
    Captain Voetsch. It's like a three-ring circus. The colored 
jerseys as a matter of point, that's how everyone knows what 
responsibility that person has on the deck, and also serves as 
a safety device in case they fall over. It inflates. Red 
jerseys, for instance, are ordnance; and those are the guys 
that load the weapons.
    There's a lot more to it than just the live weapons. It's 
the systems that become so complex, the systems like the 
flares. And what a flare is, it's the device that actually puts 
a laser spot on the ground that the bomb sees when you drop it. 
And those systems are very sensitive. And when you take an 
aircraft and shoot them off the catapult from zero to 150 miles 
an hour in 2 seconds, and then when you trap the aircraft, it 
puts a lot of stress on the airframe in these systems. We 
constantly have to wring the systems out and groom them, so to 
speak, to make sure they work.
    In fact at the beginning of Operation Enduring Freedom, 
that first week, our systems, even though we used them, we 
didn't get enough opportunity to drop--my personal opinion--
some of the laser-guided munitions to practice with. And the 
results, we got a lot better as the war went on.
    Mr. Shays. I realize 5 minutes is almost silly here, not to 
be able to get to others as well, but did you get to train in 
Vieques?
    Captain Voetsch. We did get to train in Vieques during our 
at sea periods which I call JTFX.
    Mr. Shays. Did you get to do a coordinated type--because I 
am told Vieques, in the three times I have been there, I'm told 
that you need to challenge your land, sea, and air. Were you in 
that kind of coordinated practice?
    Captain Voetsch. Yes, sir, the whole battle group 
exercised, and there's a lot of moving parts to it to 
coordinate all that.
    Mr. Shays. And the possibility is that if you don't 
practice it right, you could have your explosive land on your 
own troops.
    Captain Voetsch. Yes, sir. That's a true statement.
    Mr. Shays. Could I have 1 additional minute just to ask----
    Mr. Barr. Without objection, the gentleman is recognized 
for 1 additional minute.
    Mr. Shays. Why is it important to experience live 
ammunition while planes are doing their tasks and so on and 
ships are potentially launching artillery? Can someone on land 
tell me the value of that?
    Captain Amerine. Just to clarify your question, you're 
asking about just the combined arms team?
    Mr. Shays. Absolutely. And why does it help you to have 
practice with live ammunition where planes are dropping bombs, 
artillery, from the ship. Why is that all important?
    Captain Amerine. Sir, I will explain it this way. When we 
are directing air strikes while dealing with ground forces, I 
mean it's a three-ring circus for us, too. I'll be dealing with 
a couple different radios, different frequencies. I will be 
talking to headquarters and ground units, directing their 
movements. We'll be talking to aircraft, directing them to 
targets. We will be deconflicting aircraft from the ground 
crews that are moving out. You can't simulate that without 
actually having aircraft overhead and troops on the ground.
    Mr. Shays. Is there more of a tension when it's live?
    Captain Amerine. Oh, definitely, sir, very perceptively.
    Mr. Shays. I am asking the obvious, but I need to put it on 
the record.
    Captain Amerine. Yes, sir. When you have live ammunition in 
your weapon and you have aircraft overhead, there's just no 
other real feeling like it. We become accustomed to slightly 
lighter magazines with blank ammunition or we become accustomed 
to one or two aircraft overhead dropping dumb bombs. But you 
put everything together, and it's all live, you have things 
blowing up all around you, I mean, that is where you really 
learn your lessons.
    Mr. Shays. Thank you, Mr. Chairman, for the extension.
    Mr. Barr. The gentleman from Florida, Mr. Putnam, is 
recognized for 5 minutes.
    Mr. Putnam. Thank you, Mr. Chairman. This has been referred 
to somewhat, but I would like to elaborate on it further. What 
East Coast ranges are currently available for joint force 
combined arms realistic training? General.
    General Tangney. Sir, I will take a stab at that. With 
significant limitations, I would say that Eglin Air Force Base 
certainly has some ability, although the problem there is 
congestion with regard to airspace and lack of availability, 
really, for ground formations to maneuver. So that while you 
can do some combined live fire, there are significant 
restrictions.
    Beyond that, with the nonavailability of Vieques which, of 
course, was a combined live fire range which is traditionally 
used by the carrier battle groups and the fleet in their 
workups, I am not aware of any facilities on the East Coast 
where you could do a comprehensive live fire that involved all 
of the formations in a joint task force. I mean, you can do 
that to a certain extent at Camp Lejeune, NC, you can do that a 
little bit at Fort Bragg, NC. But you really don't have the 
full access in terrain to pull it all together with the 
airspace to make it happen.
    Mr. Putnam. Captain, did your air wing have to go west 
before you could deploy from the East Coast to train?
    Captain Voetsch. They sure did. One of the problems that we 
see is the competition for ranges. What few we do have, 
everyone needs to go to use them. With the carriers, the 
carrier schedules, it adds a lot of competition. We almost do 
all our training outside from the Oceania area which is where 
we're from. We spent a lot of time out in Farallon or down in 
Key West using the airspace to fight the airplanes. We do a lot 
more than just drop bombs. In Afghanistan, for instance, we 
didn't have an air threat, but the next country might. But, 
yes, we do deploy a lot outside our hometowns.
    Mr. Putnam. So is it fair to say that because of eastern 
U.S. encroachments, you have been forced to move more and more 
of your training to the West to an already crowded scheduling 
situation?
    Captain Voetsch. In most cases that's a correct statement.
    Mr. Putnam. General Holland, the commander-in-chief of 
SOCOM, has requested a commandwide review of ranges. Did you 
participate in the setting up of that study? Could you 
elaborate on the need for the range as a Tiger Team?
    General Tangney. I have not participated as a direct 
participant. We have a number of very, very talented officers, 
colonel and below, who participate in that on a daily basis, 
some of whom are represented here today. That's the study that 
I was referring to earlier that we hope to get published by the 
end of the summer. And, of course, the genesis of that or the 
rationale for commissioning that study was to ensure that in an 
era of declining availability of critical range assets 
throughout all the services and DOD that we had a better 
picture of what was available in the joint community, and also 
we had better insights on areas where we needed to spend our 
own limited dollars on a major force program 11 to make 
selective investments for SOF-unique ranges. I hope that 
answers your question, sir.
    Mr. Putnam. It does. Thank you.
    Colonel Waldhauser, the issues that you face on the West 
Coast are similar to those on the East Coast in terms of 
population encroachment and urban growth and noise restrictions 
and competition for commercial airspace. If you had to rank the 
threats to readiness, the threats to training, the 
encroachments that are out there, what would be at the top? 
Would it be the tightened airspace, would it be the marine 
mammal protections that impact your ability to practice 
amphibious assaults? Could you attempt to rank the greatest 
threats that you face on the West Coast where you are, and then 
I'll allow the others to do the same, particularly the captain.
    Colonel Waldhauser. In addition to obviously the use of our 
sea space and beaches, I would rank 2. The first would be night 
operations and the second would be live fire. It's been 
discussed here quite extensively this morning about the use of 
the night. And an interesting side note is during our time in 
the northern Arabian Sea we had detainees from the Taliban 
onboard of the USS Pellalou. During their interviews, when 
asked why the Taliban collapsed rather rapidly once the 
momentum went against them in late November, early December, 
one of the main reasons was that not only the Marine Corps but 
all forces fought at night. That's one of the main reasons, 
according to a Taliban detainee, that they decided to pack it 
in. So I think consequently we have a very big combat 
multiplier net operations, and anything that would restrict 
that, to include noise abatement, what-have-you, we have got to 
find ways to work around that. So my first priority would be at 
night.
    The second would be live fire. We had talked earlier today 
what the requirements are for live fire and why it is so 
important to be on the mark when you're delivering live 
ordnance. The only thing I would add is that in many cases the 
ability to drop bombs, for example, in Afghanistan for sure 
would require positive identification of the target.
    Now when you're on the ground, what that translates into is 
the enemy is in closer proximity to you in order for you to get 
that positive ID. So when the enemy is approaching and it's 
closer and it's time for you to drop live ordnance, there is no 
margin for error. You have to have the confidence to be able to 
press the button, pull the trigger, call for whatever you need 
in order to make it happen in close proximity.
    So, consequently, the ability to conduct live fire training 
at night in the walking stage of your training to graduate to 
nighttime operations at close ranges is something that is very, 
very critical. And in order to exploit some of the capabilities 
of our systems, laser designators, flares have been mentioned, 
you have to be able to do it at night.
    So the ability to fight at night, drop bombs on different 
ranges, different target sets, those to me are the two most 
important things that I would rate at the top of my list.
    Mr. Putnam. Is what you just described what might 
colloquially be described as the ``pucker factor''?
    Colonel Waldhauser. It's been called that and much worse, I 
must say.
    Mr. Barr. The gentleman from--does the gentleman from 
California, Mr. Horn, need to go first? Would that be OK, Mr. 
Schrock? The gentleman from California is recognized for 5 
minutes.
    Mr. Horn. I thank you, Mr. Chairman. This is indeed a very 
important issue and I'd like to put in the hearing at this 
point what I had to say on the defense authorization bill on 
May 9th. And it's H. 2333 in the Congressional Record. I'm not 
going to go into all the detail we did there, but I'm going to 
just use one example.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.081
    
    Mr. Horn. There's been considerable concern, as we know, 
with this legislation and authorization as well as 
appropriations. It gives the Department of Defense some limited 
exemptions from current environmental laws, and I've talked to 
a number of the generals involved that have to deal with that 
issue at Camp Pendleton on the way between Long Beach where my 
district is and San Diego. I was particularly pleased with the 
attitude of the officer corps there that they were doing the 
best they could to merge environmental interests along with 
training interests.
    I had a particular issue in terms of training and that is 
helicopters. I've been very disappointed in what is going on in 
part of Afghanistan when we've lost a number of people. And I 
asked the question like at--Camp Pendleton can help a lot 
because they have a topography there where you'd have to move 
back and forth with different wind matters and so forth. So I 
just want to deal with one issue now and that's fact No. 1.
    The Migratory Bird Treaty Act does not interfere with 
military training in past wars for a simple reason: The courts 
never applied the act in this way until March 2002, when the 
U.S. District Court for the District of Columbia interpreted 
the Migratory Bird Treaty Act to apply to military readiness 
activities. This is an important and real change in application 
of the Migratory Board Act and we must address it.
    Navy carrier battle groups, as we've listened, in deploying 
Marine Corps and Air Force squadrons have been blocked by court 
order from using the only U.S. bombing range available to them 
in the Western Pacific. And we need to be clear that our forces 
deploying to Afghanistan cannot now use the only range suitable 
for training with smart laser-guided weapons as a result of 
unprecedented judicial interference with military readiness 
activities.
    Fact No. 2. There's no Presidential exemption available 
under the Migratory Bird Treaty Act. Under the current district 
court interpretation, any military training can be enjoined 
and, except through legal appeals, there is no way to continue 
that vital military training.
    I go on with fact No. 3, Mr. Chairman, and I'll let it 
stand for itself. The legislation that we should have and that 
we certainly think we did have in the defense authorization 
bill, that the legislation could set the necessary balance, and 
I urge my colleagues here and there to support that.
    Thank you very much, Mr. Chairman.
    Mr. Barr. Thank the gentleman from California. The 
gentleman from Virginia, Mr. Schrock, is recognized for 5 
minutes.
    Mr. Schrock. Thank you very much, Mr. Chairman. First of 
all, let me thank you all for coming. I really admire what you 
do, what you continue to do, and the service you give to our 
country. Thank you for coming here to tolerate us for a 
morning.
    Before I begin, I want to make one thing clear. I hope 
you'll notice that the two members in this committee that were 
the most critical of what you did, did not see fit to stick 
around. I think if they had they would have a better 
understanding of what you all do and would maybe change their 
mind on that. But I want people to notice that.
    Let me comment on one thing the colonel said: We own the 
night. You're absolutely right. I flew in the AC-130 gunships, 
which was a hoot, boy. They really own the night. That's 
something the Russians could not do when they were in this war 
and that's the reason they weren't successful and that's the 
reason we are and will continue to be successful.
    There's one question I'm going to ask of Commander Metz and 
Captain Amerine, but I want to make a comment about something 
that the captain said. He said the best training we got was in 
Afghanistan, which is a sad commentary. We're to blame for 
that. It's a shame you had to go there to get the best 
training. You should have had it before you went over there. 
Fortunately you've had good results, but that should not have 
been the case.
    Captain, in your written statement, you said, ``From an 
operational perspective our team's ability to train for this 
war was far from ideal. Range encroachment issues affected 
nearly every aspect of the missions--of our mission's 
profile.''
    Could you go into detail, give me a description of where 
the most critical limits on your training, and if the commander 
could do the same thing because you're in similar functions, 
I'd appreciate that.
    Captain Amerine. Yes, sir. I'll kind of go by the numbers 
on this. We infiltrated by helicopter. There was a long low 
level flight in Afghanistan. Prior to infiltration, prior to 
the war, we had never done a practice mission to the parameters 
that we executed in the war. Where we train at Fort Campbell, 
for example, we could do low level operations within Fort 
Campbell itself, but the entire perimeter of the base is about 
100 kilometers. So if we want to do anything long range, we 
have to go off post where we need to go up to elevations of 
about 500 feet, which is not low level flying really by 
helicopter standards in terms of what we did in Afghanistan.
    Once we got on the ground, we engaged in long range vehicle 
movements. We're driving all over the desert out there 
attacking the Taliban. We, prior to going in, we couldn't do 
any of that from our post because it was just very difficult to 
do the coordinations at the last minute. It would have been 
very difficult even with more time to do the sort of 
coordinations necessary to do any long range movement in a 
realistic environment. We would have been forced essentially to 
do laps around the post which soldiers on my team know really 
well since they've been in 5th Group for decades, in some 
cases.
    Laser designation equipment, again we face restrictions in 
terms of where we could use it. A big problem is we have to 
train on the same ranges all the time for the same pieces of 
equipment. So you can get there and turn it on and you go OK, 
I'm going to be under that tree, the one I was at last time and 
we'll be working under there. You're not getting the realism 
out of this training.
    In terms of close air support, the best training that we 
get for close air support in my experience has been in Kuwait 
at the Udairi training area. And again, as we were gearing up 
to go to war, we just didn't have the time to go to better 
facilities and we just couldn't do it. We had to practice just 
talking on the radio back and forth and we did what we could 
with the time available.
    Finally, although fortunately we didn't have to execute 
this aspect of it, the NBC threats, chemical weapons, we're 
very restricted on where we can actually use tear gas, which to 
me is about the best thing you could use because you know your 
mask is sealed or not if your eyes are burning. And we have 
great restrictions on where we could use that, too. So again 
that wasn't something really afforded us.
    So all of these things contributed to diminish our ability 
to train for this war, sir.
    Mr. Schrock. Kerry.
    Commander Metz. Sir, as you know but perhaps some of the 
other distinguished members of the committee might not know, we 
routinely deploy SEAL platoons year round all the time 6 months 
at a pop. So therefore we have to strike a delicate balance 
before we send these guys out to ensure that they have the best 
training possible and minimize as much as possible the impact 
on their family. It doesn't make any sense to have these guys 
be deployed away for a year to do training to get ready to go 
do a 6-month deployment overseas.
    So what has happened over the time as we've identified 
ranges near where the--either on the East Coast near Dam Neck 
and Little Creek in Virginia or on the West Coast near 
Coronado, CA or for the SEAL delivery vehicle teams out in 
Hawaii, ranges close to minimize as much as possible the 
impact.
    With the restrictions and reductions in our ability to 
train at some of our nearby ranges, what has happened in 
certain cases is we've had to chop up the training, if you 
will. For example, they'll do their range live fire at one 
range. They'll have to do, as the captain mentioned, movement 
at another one. They'll have to do long range air infiltration, 
the halo or static line parachuting at another location. What 
happens is that the guys very rarely get the opportunity to put 
it all together because of the restrictions, as we mentioned 
earlier, at San Clemente Island or out at the Chocolate 
Mountain aerial gunnery range near Niland, CA.
    Therefore, at times either you send these guys away for a 
while where they can do it all together, that may be overseas, 
as Jason mentioned, or the first time they have to do it, 
meaning when they go into combat, is the first time they can 
put all the pieces together and do the entire full mission 
profile. What we want to look to the future for is somewhere 
where we will have assurance that we can continue to train in a 
full mission profile nearby so that our SEALs and special boat 
operators, when they go out the door they are fully combat-
ready and, as Colonel Waldhauser mentioned, we don't want 
anything they do in combat to be the first time they've ever 
done it. Thank you, sir.
    Mr. Schrock. Thank you. Mr. Chairman, my time has expired. 
Let me finish by saying as much as I appreciate these hearings 
and value them for the knowledge we gain from them, I hope when 
this is over this committee and this Congress will do something 
and do it swiftly to ease some of the regulations that have 
been forced on these folks. Because we're just entering the 
beginning phases of this war, I believe, it's going to be a 
long haul. The best training they can get, I think it's 
incumbent upon us to give them the best training they can get, 
and these regulations are obviously hampering that, and we need 
to put a stop to some of that right away. Thank you very much.
    Mr. Barr. I thank the gentleman. The Chair notes the 
presence of the distinguished gentlelady from the District of 
Columbia, Ms. Eleanor Holmes Norton. Welcome to this very 
important hearing.
    We'll have a few more questions and then we'll move on to 
the second panel, but there have been so many issues that have 
been raised I'd like to have a second round for those members 
that might have additional questions. Recognize myself for 5 
minutes.
    General Tangney, in your written testimony and I think 
perhaps in some of your oral testimony you refer to close air 
support training with live ordnance. And you mention in 
particular an incident at the Udairi range in Kuwait. What did 
the official investigation reveal with regard to any role the 
lack of proper and comprehensive training might have played in 
that incident?
    General Tangney. Well, sir, as I recall the results of the 
accident investigation which I was briefed on quite some time 
ago, the situation in that particular case involved soldiers 
from the 3rd Special Forces Group, based out of Fort Bragg, NC, 
some of their Kuwaiti allies, who were injured, through the 
erroneous drop of a 500-pound bomb, actually three 500-
pounders, in a vicinity of their observation post on the Udairi 
range.
    In that incident, as I said, we had several soldiers from 
Kuwait army seriously injured. We had a couple of soldiers in 
the 3rd Special Forces Group critically injured and we had a 
major from New Zealand who was killed.
    The accident investigation in that particular case pointed 
out that the proximate cause of the accident was pilot error. 
And, in fact, on that particular iteration, it was the first 
time that team had trained with that pilot who is flying off of 
a carrier which had recently deployed into the Persian Gulf to 
assume operations in support of U.S. Central Command.
    In that particular case, the carrier battle group was not 
afforded, as I recall, an opportunity to do a full mission 
workup prior to deployment at Vieques as normally would have 
been the case. So, in essence, they were completing the final 
leg of their training at Udairi range, and our personnel, of 
course, were exercising their Mission Essential Task List 
[METL] task for close air support which, as Captain Amerine 
pointed out, unfortunately cannot be conducted many places in 
CONUS, and one of the premier training areas is, in fact, 
Udairi range. So we have a situation where our people who were 
training up engaged a target with a pilot who in fact was 
training up and we had a tragic accident because, as I said, of 
pilot error.
    Mr. Barr. I know that none of us can say with any degree of 
certainty--actually I guess there aren't degrees of certainty--
whether something is certain or not, none of us can say with 
certainty that had a certain type of training been available, 
an accident would not have happened or lives may not have been 
lost. But is it fair to say that the type of training that is 
being curtailed with regard to in particular the close air 
support and coordinating missions is the type that is designed 
specifically to avoid the problem that occurred and the 
casualties that occurred at the Udari range?
    General Tangney. Yes, sir, that's correct.
    Mr. Barr. Thank you. Captain Amerine, if you would, please, 
tell this panel just very briefly, because I know you don't 
want to go into this in great detail, but I think it's 
important for the panel to go into this, how you earned the 
Bronze Star for valor and the Purple Heart.
    Captain Amerine. Sir, my detachment was assigned to operate 
with Hamed Karzai and his Pashtu and anti-Taliban forces in 
Afghanistan as he attempted to operate within Oruzgon province 
and ultimately take control of Khandahar. On my detachment, two 
members of my team were awarded Silver Stars, in their cases 
posthumously, and eight members of my team were awarded Bronze 
Stars for valorous action engaged in the battles we took part 
in that campaign.
    Mr. Barr. Were you involved in the incident at Khandahar in 
which there were casualties occasioned by friendly fire?
    Captain Amerine. Yes, that was my team. Every member of my 
detachment including myself was medically evacuated after the 
bombing.
    Mr. Barr. You state in your written testimony, I think--and 
I apologize if you went into this in your oral testimony, but I 
know in your written testimony you state from an operational 
perspective your team's ability to train for this war was far 
from ideal. Range encroachment issues affected nearly every 
aspect of your mission's profile.
    Were you thinking of or would that comment be directly 
applicable to the incident that you just indicated occurred?
    Captain Amerine. Sir, I want to be careful how I answer 
this because there's an ongoing investigation which, as I 
understand it, is not yet complete. The thing that I'll say, 
though, is in my experience with accidents of this nature 
normally there are skills that are identified which could have 
been better trained on, things that we could have done more of 
in order to mitigate the chances of these accidents.
    So I anticipate that there will be lessons that will come 
out where they'll say these are some things that we need to 
focus on in the future to keep this from happening, things that 
we need to train on. But that's about as far as I really could 
comment on it, sir.
    Mr. Barr. Thank you. I ask unanimous consent for 1 
additional minute. Without objection.
    Would any of the 5 of you gentlemen disagree with the 
following statement: That the type of exercises that are 
available for our troops in training that are being limited by 
the legal restrictions that we're talking about here and the 
judicial restrictions that the gentleman from California 
indicated, that when those are cut back, when those are 
curtailed, when those are not available in the duration and 
quantity that we have had in the past, that real things happen 
with real consequences, sometimes very tragic? Is that an 
accurate statement? Thank you. All gentlemen are indicating 
agreement with that. Thank you very much, gentlemen.
    Any further questions?
    Mr. Gilman. Just one question, Mr. Chairman.
    Mr. Barr. The gentleman from New York is recognized for 2 
minutes.
    Mr. Gilman. With regard to broadband restrictions, is the 
Defense Department trying to do anything to launch some 
military satellite so that we can increase the band use?
    General Tangney. Sir, I guess I'm stuck with that as the 
senior oldest man present at the table.
    Mr. Gilman. Thank you, General.
    General Tangney. It certainly goes beyond my level of 
expertise. I know enough about satellites to be minimally 
conversant and dangerous on that topic. I would defer to anyone 
else who might have more expertise.
    Sir, I don't think we're able to answer that question.
    Mr. Gilman. Is there a need for greater band usage by the--
--
    General Tangney. Band width is a problem within the Defense 
Department and across the Services. And the lack of band width, 
the increasing scarcity of band width, coupled with the 
development of systems like Global Hawk, which was mentioned 
earlier, and Predator, which use up a great deal of band width, 
coupled with the network centric or net centric technologies 
which are out there now which commanders can avail themselves 
of, make band width an increasingly scarce commodity within the 
department, an increasingly sought-after commodity.
    Mr. Gilman. Anyone else want to comment on band width 
problems?
    Commander Metz. Yes, sir. To amplify some of the general's 
comments, let me give you a real world example. In naval 
special warfare we have a mission support center located in 
Coronado, CA. And what this mission support center allows us to 
do is deploy far fewer people forward into a hostile territory 
and still conduct the same level of mission, the same types of 
missions with the same or greater effectiveness.
    In order to use this reach-back capability to the mission 
support center, we require a great deal of band width. There 
are a number of systems, most of them classified, that enable 
us to reach back and get intelligence data from the entire 
intelligence community, to get operational maps, charts, 
weather data. And without the increase in band width that needs 
to become available, one of our concerns is in the future we 
may not be able to do that and leverage the technology and the 
capabilities of the mission support center and other new 
emerging technologies in order to minimize the amount of people 
that we have to expose to the very riskiest part of warfare. So 
that's always--it's a concern now and it's going to be a 
greater concern in the future, sir.
    Mr. Gilman. Just to the entire panel, has the band width 
problem restricted any of your current operations in any 
manner? Anyone want to comment?
    General Tangney. I'll comment in general terms, sir. As I 
indicated, there's only so much band width available. To give 
you a concrete example, in the ongoing war in Afghanistan, 
particularly with our formations and Special Forces, Air Force 
Special Tactics, Navy SEALs, the primary means of communication 
was by satellite communications. There are only so many 
frequencies available. So while frequencies were certainly made 
available, I think the Captain Amerine and probably Commander 
Metz would certainly verify the fact that band width was a 
major concern for operators on the ground in terms of having 
access. And it's certainly not enough to go around for 
everybody in the quantities that they would like to have it.
    Mr. Gilman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Barr. Thank you. Are there other members who have 
additional questions? The gentleman from Florida, Mr. Putnam, 
is recognized for 5 minutes.
    Mr. Putnam. I want to pick up where I left off on the last 
round. Captain Voetsch, Dr. Mayberry, the Deputy Under 
Secretary of Defense for Readiness who will join us on our 
second panel has stated, ``To maintain the dominance of our 
armed forces on the battlefield, they must train as they fight. 
That means practicing and conducting exercises that closely 
replicate the realities of the battlefield. If we fail to do 
that, we put lives at risk.''
    Do you agree with that statement, and could you, in 
following up to my earlier round, prioritize the critical 
degradations or encroachments that you as a naval aviator have 
faced?
    Captain Voetsch. Yes, sir. Some of them have been covered. 
What concerns naval aviation in general and particularly due to 
lessons learned from Afghanistan, altitude. And we weren't 
allowed to go below 20,000 feet mainly because that kept us out 
of surface to air threat. It wasn't until several months into 
the Operation Enduring Freedom that we were allowed to go below 
that altitude. But the point to be made is the ranges, 
especially on the East Coast, it's tough to be able to operate 
above 20,000 feet to replicate the profiles we use when we are 
either dropping GPS-guided weapons or laser-guided weapons. So 
that's a concern as far as the ranges.
    Also we need to practice putting out expendables. It's not 
just all air-to-ground ordnance, flares, chaff. There's 
restrictions on when and where we can do that. And obviously, 
as was pointed out earlier, it's a challenge to land the 
aircraft on board the carrier, especially at night. And we 
constantly, any time we land anywhere, will do several landings 
to practice to simulate what we go through at sea. So there's 
another issue there also.
    One thing I will point out, we practice--it's called 
collateral damage. We work extremely hard to pinpoint the 
target when we drop on it. In fact, it's so critical over in 
Afghanistan, that's something that has now developed into a 
term called time-sensitive strike. And that's where you do an 
entire process again of finding a target and effectively 
hitting it right away. And that's another issue that we're 
training toward that requires ranges, and not just what we 
think of land ranges like Eglin or Vieques, but battle--you 
need water space to do a coordinated strike, at least from the 
Navy side, but even in the joint arena when you have carrier 
battle group or several battle groups operating in the ocean.
    Mr. Putnam. Colonel Waldhauser, could you also elaborate on 
the issue of collateral damage and how limited or bad or 
improper training contributes or does not contribute to 
collateral damage in friendly fire accidents and other related 
factors like that?
    Colonel Waldhauser. Well, I must say that I did find out 
this morning that on December 5th when Captain Amerine was in 
fact wounded, Marines from the MEU flew up into Khandahar and 
evacuated Afghani nationals and some of our U.S. servicemen as 
well. It was very interesting to find that out.
    Collateral damage is one of the things that goes back to 
quality training. In order to be confident to hit your target, 
especially at night, you have to be able to train properly to 
do that. In order to have the forward air controllers on the 
ground, to have the expertise to call in the target, to have 
the expertise to work with the sophisticated equipment that's 
required in order to drop a precision-guided munition, again 
goes back to training.
    And the ranges, for example, are somewhat limited to do 
that. We talked about San Clemente Island today. San Clemente 
Island on the southern tip, in a very small area you're allowed 
to drop bombs, laser-guided munitions. It's very, very 
restricted. Laser-guided munitions are also very restricted in 
terms of where and when you can drop them even at the other 
ranges throughout southern California. So collateral damage 
will always be with us, it seems to me. You have to identify 
the target, you want to limit the collateral damage, that's why 
we have precision munitions. And in order to be able to do that 
properly, you simply have to train to do that.
    Mr. Putnam. Thank you. Captain Amerine, you've heard your 
colleagues' testimony on the subject and you have elaborated 
very eloquently on the situation that you called being less 
than ideal. What are your concerns for the future as these 
encroachments continue to grow, as urban encroachments, 
particularly in areas around Fort Bragg or Fort Campbell, 
continue to grow? What are your concerns for the future and the 
future readiness of Green Berets unless congressional action 
mitigates this?
    Captain Amerine. Sir, the one area that I would focus on, 
being a captain with the amount of experience I have--there are 
others obviously a bit more qualified to speak on the broader 
implications of this--but from what I've seen, urbanization has 
generally led to second and third order effects.
    For example, the towns will extend near the ranges so the 
wildlife will move on to the base's military ranges. And then 
from there you end up with a whole bunch of other problems that 
develop. So from my point of view, I think urbanization itself 
is something that we need to focus on to some degree to 
mitigate the future impacts on our bases and on our readiness.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Barr. Thank the gentleman from Florida. The gentleman 
from Connecticut will close out this round of questioning and 
he's recognized for 5 minutes.
    Mr. Shays. Thank you, Mr. Chairman, for recognizing me. The 
cold war is over and I think we all agree the world is a more 
dangerous place. And based on the hearings our committee has 
had, our subcommittee and the full committee, I don't think 
it's a question of if, I think it's a question of when, where, 
and of what magnitude we'll face weapons of mass destruction in 
this country, attempts. And given that, I understand why we are 
doing all the things with wiretapping and arrests and so on. 
But what I'm curious to think about is that it seems to me the 
whole strategy of warfare certainly changes when we're talking 
about terrorist activities. And one of the strategies in 
response to the threat is going to be preemptive rather than 
responding. I mean, that's one of the outcomes.
    I'm also going to say publicly that when I first went out 
as the chairman of the National Security Subcommittee with some 
of our members and the military gave us the opportunity to 
experience firsthand how you train, to be on a helicopter at 
night, to see the watch that was at the front and on the side 
and the back, to feel the extraordinary heat of this helicopter 
in a summer day, to wear night goggles and realize I couldn't 
look to my left or right and then to realize that I had to 
respond to an attack, you all make it look so easy that I think 
that's probably one of the challenges you're faced with. We see 
a film, we see this, and it looks so easy we don't feel the 
tension and see the incredible adrenaline that has to be, you 
know, involved in this amazing effort that you all make.
    I guess what I would like to ask each of you, and maybe 
this is a question that doesn't have an answer--I'd like to 
know if any of you were in battle when you thought it would 
have been nice to have had a little more training on a 
particular aspect of what you were doing? And that doesn't mean 
you went unprepared. So this is not an indictment against the 
military, but where there are some things where you said, boy, 
I just wish I had more hours or few more days or few more weeks 
before today to do this particular thing. And I open it up to 
any of you.
    Captain Amerine. Sir, I guess I'll open with this one. As a 
team leader on the ground with 10 men, I'll be honest, every 
aspect of my training, I wished I could have had more time to 
prepare for anywhere from the vehicle movements to the 
infiltration by helicopter, use of laser designation equipment. 
These were all things which weren't a surprise to us. I mean, 
as I said in my testimony, I consider this a classic 
unconventional war. These were all things that, you know, in 
our dreams these were all things that we anticipated doing some 
day if we were allowed to perform a mission such as this. But 
still when I was on the ground, every aspect we could have done 
more of and it would have benefited us, I believe.
    Mr. Shays. That's quite an answer. Thank you. Anyone else?
    Colonel Waldhauser. I would just add that while at Camp 
Rhino in the southern Afghanistan desert, helicopter operations 
at night in the most extreme or severe conditions I have ever 
seen were very, very dangerous. We have a process of 
operational risk management that we brief all our missions. And 
we try to mitigate them for various means. Green, of course, 
means good to go, yellow would be medium, and red would be 
severe problems. At Rhino we had severe problems when we 
started and we couldn't--through all the efforts to mitigate 
them, they were still red or severe when we took off.
    So, consequently, there was not a very large margin for 
error in helicopter operations in that environment. There were 
times when I wished we had more nighttime helicopter operation 
training in order to mitigate that, even though we did 
everything we could to do that. We had crashes at Rhino, but 
fortunately no one was killed. Later on there were a few 
helicopters that did crash and marines died. Fortunately we did 
not have that experience, but, as I said, we did have crashes. 
So there were times again when I wish we had some more night 
vision goggle, low level training for pilots, although they 
were extremely proficient, did a superb job under the most 
extreme conditions that I've ever witnessed.
    Mr. Shays. It seems to me what you're saying, that someone 
has to decide not whether to send troops into battle but to 
send troops into training; that you want them to have a level 
of training that potentially could risk their lives even in 
training, but if you don't do that, they're not going to be in 
a position to carry out their mission in battle.
    And so is that basically a statement to us that once in a 
while if we see men and women who have lost their lives in 
training that may unfortunately be the necessary outcome of 
trying to prepare for war?
    Colonel Waldhauser. Well, unfortunately loss of life in 
training is not routine, but it does happen. We do everything 
we can to mitigate that. There is not a life lost in training 
that is worth that particular effort. But again the conditions 
in Afghanistan were such and missions were such that they had 
to be flown. Doing everything you can to mitigate the risk that 
is humanly possible is what's required. But the level of skill 
required when have you such a small margin for error has to be 
there. And that goes back to training. When a Marine 
Expeditionary Unit leaves southern California, in my particular 
case, you essentially are trained. You have to be prepared at a 
moment's notice to do many, many missions and tasks. We're 
certified to conduct 23 missions and tasks when we leave the 
West Coast. So essentially the bulk of your training is over.
    Now we have the opportunity to train at various locations 
in the Western Pacific and in the Gulf to maintain that level 
of proficiency. But one of the challenges that we have 
operating from the sea is when we go on station and are 
essentially cutting circles in the ocean to maintain that 
proficiency for our pilots is very difficult.
    As an aside, what we tried to do before we went into 
Afghanistan is we conducted low level night operations in an 
adjacent country in order to get that proficiency back up to 
speed, primarily as a result of the amount of time that we were 
at sea for the extended period.
    Mr. Shays. My red light is on. The chairman said I could 
close here. Is there any question that you need to put on the 
record that we should have asked that you're prepared to answer 
that we should have put on the record? If not, General, I'll 
look forward to that drink.
    General Tangney. I knew I shouldn't have handed that many 
coins out.
    Mr. Shays. It's got your name on it.
    General Tangney. Sir, that will earn you another one.
    Mr. Barr. I thank the gentleman from Connecticut. Words 
really cannot express the esteem that this entire panel on both 
sides of the aisle has for you gentlemen here today and the men 
and women that perform so admirably on behalf of our Nation for 
the cause of freedom around the world under the most trying 
circumstances imaginable. We all know that we barely scratched 
the surface of the operational needs and the training problems 
and solutions that you see based not on theory and conjecture 
but the real world out there.
    If there are any additional materials that any of you all 
would like to submit or deem appropriate to submit for the 
record in addition to what you've already submitted, please do. 
So our record will remain open for 7 days to include additional 
materials in the record.
    And there may be additional questions that Members might 
submit to you all afterwards. We would appreciate your 
expeditious response to those.
    As you leave here today, do so with the thanks of a very 
grateful Congress, a very grateful Nation, and we hope that the 
Lord will continue to watch over you and those who serve under 
you. Thank you, gentlemen.
    We will take a 10-minute break before we welcome and swear 
in our second panel.
    [Recess.]
    Mr. Barr. I'd like to reconvene this hearing of the 
Committee on Government Reform entitled Critical Challenges 
Confronting National Security: Continuing Encroachment 
Threatens Force Readiness, and to welcome our second panel.
    What I'll do is just introduce our very, very distinguished 
second panel here very briefly, and without--we will also 
introduce into the record all of your bios which are very 
distinguished and that will provide more than adequate 
background information in support of your appearing here as 
expert witnesses, for which we appreciate.
    Our second panel, following our first panel of military 
witnesses, includes three very distinguished leaders of the 
civilian side of defense. The Honorable Raymond DuBois, Deputy 
Under Secretary of Defense for Installations and Environment; 
the Honorable Paul Mayberry, Deputy Under Secretary of Defense 
for Readiness; and Mr. Barry Holman, Director, Defense 
Capabilities and Management of the U.S. General Accounting 
Office [GAO]. I'd like to welcome the panel today. And I would 
ask the three panelists, if they would, to stand and raise 
their right hands to be sworn in.
    [Witnesses sworn.]
    Mr. Barr. Thank you. Let the record reflect that all three 
witnesses answered in the affirmative. As I know you gentlemen 
all know, both from your experience as well as the experience 
of the prior panel how we proceed, we will ask each one of you 
to provide an opening statement limited to approximately 5 
minutes. Your full written statement and any additional 
material that you brought with you here today will be inserted 
into the record, without objection. The record will remain open 
for 7 days so that if there's any additional material that you 
believe would be relevant for this committee's consideration 
and appropriate for submission in the record, that will be 
gladly received by the committee.
    There may be additional questions that any committee member 
or Member wish to pose to you after the hearing today and we 
will submit those to you and would very much appreciate your 
quick responses thereto.
    Again, thank you all for appearing with us today. We 
appreciate your patience also in the length of the prior panel, 
but I know you can understand just how important it was to get 
full questions and answers background on the record from that 
panel. We appreciate your patience.
    At this time I'd like to recognize the Honorable Raymond 
DuBois, who is our first witness, for an opening statement. If 
you all would please remember to make sure you pull the 
microphones very close. They're high tech, but you still have 
to get them pretty close. Thank you.

STATEMENTS OF RAYMOND F. DuBOIS, JR., DEPUTY UNDER SECRETARY OF 
   DEFENSE FOR INSTALLATIONS AND ENVIRONMENT; PAUL MAYBERRY, 
  DEPUTY UNDER SECRETARY OF DEFENSE, READINESS; AND BARRY W. 
HOLMAN, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, GENERAL 
                       ACCOUNTING OFFICE

    Mr. DuBois. Thank you, Mr. Chairman. The prior panel was 
indeed impressive and deserved every minute that you gave it. 
We appreciate this opportunity, Dr. Mayberry and myself. As you 
indicated, we have a joint statement that will be entered into 
the record. I want to, however, address in my oral remarks some 
of the themes that came up this morning, some of the questions, 
some of the concerns from both sides of the aisle.
    Last month after careful interagency deliberations, led by 
the Council of Environmental Quality, including the Departments 
of Interior and Commerce, the Environmental Protection--I don't 
think any of them are working.
    Mr. Shays. Why don't we start over.
    Mr. DuBois. As I indicated, the prior panel deserves every 
moment that you gave it, and I appreciate the fact that they 
got their opportunity to relay, shall we say, their ground 
truths, some would call them anecdotes. I think if you string 
enough anecdotes such as the ones that they testified to, you 
end up with empirical evidence.
    Last month, as you all know, after careful interagency 
deliberations led by the Council of Environmental Quality to 
include the staff and senior leadership of the Environmental 
Protection Agency, the Departments of Interior and Commerce and 
OMB, President Bush and Secretary Rumsfeld submitted to 
Congress the legislative component of our readiness and range 
preservation initiative as part of the annual defense 
authorization bill.
    Now these provisions are designed first and foremost to 
save lives, save the lives of America's young men and women, by 
preparing them and their equipment for combat on the first day 
of battle.
    These provisions are narrow in scope, addressing only 
military readiness activities, that is to say, the training, 
testing, and operations that relate purely to combat. And we 
believe they need to be retained. The provisions are necessary 
to safeguard existing practices against litigation seeking to 
overturn them. There is no better example than the proposed 
Migratory Bird Treaty Act provision, as was related to earlier. 
This provision would merely restore the legal and regulatory 
status quo as it has existed for over 80 years. But a Federal 
District Court, as Mr. Horn referred to, in April of this year 
enjoined all military live fire training at the Farallon de 
Medinilla range, the island range in the Western Pacific.
    Now this island range is an uninhabited 206-acre hunk of 
volcanic rock that was leased in 1976 by the Navy for the sole 
purpose of live fire training with the sea-based population, 
sea-based bird population, which I would submit is smart enough 
to leave when the range is hot.
    But we are now prevented from training there for lack, as 
the judge has indicated, of an incidental take permit from the 
Fish and Wildlife Service which, I might add, has never issued 
such a permit in the past.
    General Myers, our chairman of the Joint Chiefs of Staff 
said, in a letter to Congress, ``This ruling halts vital 
training for pilots and shipboard crews deploying in support of 
Operation Enduring Freedom and threatens military training and 
testing nationwide. These decisions are steadily eroding our 
ability to train as we fight.''
    I would also like to suggest that if the Migratory Bird 
Treaty Act had the flexibility that Representative Allen 
implied, and there is no Presidential waiver, I might add, in 
that statute, then why did the court enjoin the Navy?
    Now, our critics have been vocal in their opposition to 
what this administration considers vital, fair, and balanced. 
As Mr. Cummings and Ms. Watson referred, balance is indeed one 
of our objectives. We have been pleased to find that the vast 
majority of those who actually take the time to read and 
understand our proposals, friends as well as critics, leave our 
discussions with at least a much better appreciation of our 
issues, if not support for them.
    But the initial skepticism, if not opposition, is because 
much of what has been written and some of what has been 
reported has not been factual. For example, our proposals are 
limited to military readiness activities. Our initiatives have 
been portrayed, however, by some as attempting to, ``exempt and 
grant special reprieve,'' to DOD from environmental statutes. 
To, ``give the DOD a blanket exemption to ignore our laws,'' 
and violate the principle that no government agency should be 
above the law.
    In reality, and in truth, our initiatives would apply only 
to military readiness activities, not to closed ranges or 
ranges that close in the future, and not to the routine and 
normal operation of installation support functions. Our 
initiative thus excludes the Defense Department activities that 
have traditionally been of greatest concern to State and 
Federal regulators and only includes uniquely military 
activities. That is to say, what the Department does that is 
unlike any other governmental or private activities.
    We cannot simply train somewhere else. As you heard in the 
prior panel, there were many remote locations to site training 
ranges in the 1940's. This is no longer true. Our existing 
ranges are national assets with an infrastructure of testing 
and training areas targets, instrumentation, and other enormous 
sunk investments in place. They are typically closely 
associated with nearby installations and bases that use those 
facilities on a regular basis to train.
    The costs involved in relocating major existing ranges 
would be enormous, not just to the government but to the 
community economies surrounding the existing facilities.
    Similarly, models and simulations cannot replace live 
training and maneuver operations because they cannot replicate 
the stress, the discomfort, the other physical conditions of 
combat. Troop performance under live fire conditions, a series 
of questions that you quite correctly posed to the prior 
uniformed panels, those live fire conditions are but one aspect 
of training that cannot be adequately accommodated through 
simulation. The stresses of handling and releasing live 
ordnance, as Mr. Shays pursued that line of questioning, that 
important line of questioning, the ability to coordinate 
supporting fire conditions or the experience to guide troop 
deployments and maneuver under live fire conditions, cannot be 
replicated on a computer. Our troops' first exposure to live 
fire cannot come as they land on a hostile beach or landing 
zone in combat.
    I am reminded of a comment that Winston Churchill once made 
when he commented on his experiences in the Boer War. He said 
the most exhilarating thing in his life was to have been shot 
at and missed. Live ammunition, whether you're handling it or 
whether it's coming at you, focuses your attention, it forces 
discipline, it instills care, and, yes, it saves lives.
    Now with respect to environmental compliance, it is 
absolutely necessary that the American people understand that 
the Department of Defense remains committed to that high level 
and high degree of compliance. There has been concern expressed 
that the proposed legislation foreshadowed a DOD retreat from 
its environmental responsibilities, for example, our cleanup 
responsibilities at the Massachusetts Military Reservation, 
which I visited, and elsewhere. The Department has no 
intentions of backing away from our environmental cleanup 
programs. We remain fully committed at our obligations under 
existing law for environmental remediation. In fact, President 
Bush has requested in the fiscal year 2003 budget request an 
increase of over $150 million from last year's request to a 
total of over $4.1 billion for Department of Defense's 
environmental programs.
    The Department is not trying to roll back environmental 
oversight. We will continue to be committed environmental 
stewards of our natural resources.
    We submit also that these goals do not have to be mutually 
exclusive. In fact, as was referred to earlier, some ranges are 
and will continue to be the last viable habitat for some 
threatened and endangered species.
    Mr. Chairman, we believe that military readiness can go 
hand-in-hand with environmental stewardship. Now our challenge 
is to apply this principle to some of the unique problems 
associated with military munitions. The entire defense 
leadership of this country take very seriously their 
responsibility and obligation to sustain and manage effectively 
the lands which the Nation has set aside for this training and 
testing purpose and to sustain those lands in such a way as to 
have them available for generations of soldiers to come.
    Now, as a personal aside, not unlike the young warriors who 
you heard from earlier, all of who have served in combat in 
prior wars are witness to the direct correlation between 
success on the battlefield and realistic combat training with 
live ammunition on unrestricted ranges in combined arms 
scenarios. If anything, the complexity of today's weapons 
systems, the reach of our C4/ISR capabilities and the intricacy 
of air, land, sea joint warfighting doctrine only argues more 
compellingly for places to train with fidelity. As we who were 
once soldiers and young, our sons and daughters in uniform 
today are grateful to their fellow citizens in Congress who 
have set aside these places for this crucial purpose.
    Last night I flew back from 3 days in Europe to appear at 
this important hearing. I addressed a NATO conference on this 
very encroachment issue. I also conferred extensively with our 
NATO allies, with the Partnership for Peace countries, with the 
European Director General for Environment and the chairman of 
the European Union Military Community Finnish 4-star general, 
Gustav Haglund. And based on those conversations, it occurred 
to me as I was flying back last night that few other countries, 
few other countries approach military training with quite the 
same intensity nor believe it quite as fervently as we do. For 
it is only through this combination of talented and skilled and 
resourceful and well-led and well-equipped soldiers, sailors, 
airmen and marines who have had the advantage, the advantage to 
train as they will fight, individually and in cohesive 
formations, that we win, and we win, and we continue to win on 
the battlefield. Anything less, I would think, should and would 
draw condemnation from the American people.
    And, finally, Mr. Chairman, in the absence of the statutory 
clarifications and revisions which the administration has 
recommended, we have concluded and I believe the GAO's recent 
report has substantiated, notwithstanding Mr. Waxman's 
comments, that the military services will experience ever 
increasing loss of training and test range capabilities. The 
outcome, Secretary Rumsfeld and the Joint Chiefs of Staff, they 
believe that the Congress and the executive branch would find 
wholly inconsistent with our obligations to the military and 
ultimately to our citizens.
    Thank you very much Mr. Chairman. I turn the mic over to my 
good friend, Dr. Paul Mayberry.
    Mr. Barr. Thank you very much, Mr. DuBois. I would ask 
unanimous consent that the document that all of you see 
displayed on the TV screens entitled Department of Defense 
Range Organizations, which is the offices involved in 
encroachment issues and range sustainability, be introduced, be 
made a part of the record. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.082
    
    Mr. Barr. So if any of you all want to refer to this Rube-
Goldberg-appearing document, please feel free to.
    Mr. Mayberry, you're recognized for 5 minutes, sir.
    Mr. Mayberry. Thank you, Mr. Chairman. It certainly is a 
privilege to follow the previous panel, as they are the 
individuals that we collectively serve, as they serve us. And 
we must put them only in a position to be successful.
    Our existing ranges, the land, the sea and the airspaces, 
are critical to ensuring the continued readiness of our forces. 
Central to successful training is our ability to practice for a 
wide variety of operations and to conduct complex mission 
rehearsals under realistic combat conditions.
    The testing of our equipment and the training of our forces 
is a very complex undertaking, as was well described in the 
previous panel. But their proper execution raises considerable 
challenge. As we train and test our forces and our equipment, 
we must not only ensure the readiness of our forces, but 
preserve public safety, community welfare, and the natural 
heritage of our ranges. Foremost in the mind of all military 
manners is the ultimate readiness of our force. It is such 
readiness that saves lives in combat and ultimately wins 
battles.
    There's a growing realization that our ability to train and 
test is being compromised by a variety of encroachment factors. 
Though the exact cause of encroachment may vary from range to 
range and from one part of the globe to another, the effects on 
testing and training both at home and abroad pose increasing 
challenges to our readiness. Although the services have found 
work-arounds to some training requirements, the viability and 
the fidelity of that training has suffered. Even when work-
arounds do not increase and advance realism, a huge price is 
often paid in terms of direct dollar expenditures, resources to 
replan an event, to transport troops and equipment to other 
locations, or fly aircraft further.
    We now confront a national problem and these specific 
individual accommodations cumulatively become the de facto 
standard for regulating all of our DOD ranges. And while 
sometimes necessary in specific instances, work-arounds impose 
great strains and are unacceptable as the status quo.
    The Department of Defense takes its environmental 
stewardship responsibility seriously as part and parcel of our 
mission. We do not view realistic combat training and testing 
as incompatible with our environmental responsibilities.
    The General Accounting Office, acting upon this committee's 
question, has recently completed an analysis of encroachment on 
training ranges within the United States. While we're currently 
in the process of reviewing and commenting on those findings, 
we are familiar with their methodology, have worked closely 
with their investigative team, and are in general agreement 
with their findings. Their conclusions substantiate that the 
Department of Defense and the military services have lost 
training range capabilities and can be expected to experience 
increased losses in the future, absent any efforts to mitigate 
encroachment. We believe that the GAO report is timely and we 
will use it as the basis for developing comprehensive responses 
to our overall encroachment challenges.
    The services have ongoing programs to better inventory 
their training ranges and to document the encroachment effects. 
The Department has initiated efforts to incorporate 
encroachment into our readiness reporting processes to better 
quantify these encroachment effects and to improve the data 
management to better oversee the progress being made.
    Let me just focus on a few of these efforts quickly. In 
terms of readiness reporting, we undertook a project last year 
at the direction of the Secretary of Defense to improve both 
the way that we assess and report our unit readiness. Our study 
suggests that the department should implement a new 
capabilities-based readiness system to provide timely and 
accurate information on the readiness of our forces and their 
supporting infrastructure. Such a system will provide 
information that reveals broad readiness trend information.
    However, as of today, the readiness reporting systems of 
the services and the department are not sufficiently refined 
nor are they detailed enough to capture the cumulative effects 
of degradations to realistic training or to acknowledge the 
compounded cost of work-arounds and alternative training means.
    The department is also actively investigating measures to 
identify and report readiness of our installations affected by 
encroachment that will in turn provide the necessary test and 
training resources to achieve unit readiness. Such reporting, 
tailored to installation readiness, provides encroachment 
information with sufficient fidelity to identify where and how 
these limitations are affecting an installation's ability to 
meet its training mission.
    Reliable readiness reporting data must also include 
accurate information. The quantification of encroachment 
impacts readiness has really been a weakness to our reporting 
systems, but we are seeking to change that. The Marine Corps 
has taken the lead in developing methodologies for grading the 
ability of an installation to support documented training 
requirements for the forces stationed at its base. And as part 
of our readiness and range preservation initiative, the 
department is working with all services to better identify 
encroachment quantification measures that will satisfy common 
informational needs as well as suit each of the services' 
unique testing and training requirements.
    Also, Section 1041 of the National Defense Authorization 
fiscal year 2002 directed the Secretary of Defense to submit to 
the President a recommendation concerning whether defense 
impact reviews should be established within the executive 
branch. The recommendation that is due to the President later 
this spring is currently being developed. The Department is 
quite concerned that military readiness is not always given the 
appropriate consideration during the regulatory and 
administrative processions that other agencies follow.
    While our specific recommendations are not yet complete, it 
will embrace four key principles. First, the Department of 
Defense must receive advance notice of any proposed action that 
may have a potential to affect military training, testing or 
its operations.
    Second, the Department must be given a reasonable 
opportunity to review and comment in writing on those proposed 
actions.
    Third, the action agency must consider DOD's comments and 
respond in writing if the agency elects not to accommodate our 
concerns.
    And, finally, in the event that the agency decides to 
pursue a course of action that does not accommodate our 
concerns, DOD must be given a reasonable period of time to 
appeal the decision within the executive office of the 
President.
    Military commanders have done an exceptionally exemplary 
job of protecting and restoring natural resources, often 
surpassing regulatory guidelines in areas that we use to train 
and test our military. But it is also clear that urbanization, 
competition for spectrum, and airspace, as well as the present 
application of some environmental requirements threaten our 
ability to test and train as necessary to answer the call for 
combat when needed.
    We owe our servicemen and women the best training and the 
most effective weapons the country can provide to ensure that 
they are ready to fight, win, and survive. The Department is 
committed to a comprehensive approach of addressing 
encroachment and ensuring sustainable ranges.
    We look forward to working with this committee and the 
Congress as we seek to balance the competing but not mutually 
exclusive national objectives of national defense and 
environmental responsibilities to address this complex issue.
    Thank you, and I look forward to addressing your specific 
questions.
    Mr. Barr. Thank you, Mr. Mayberry.
    [The prepared statement of Mr. DuBois and Mr. Mayberry 
follows:]
[GRAPHIC] [TIFF OMITTED] T0496.083

[GRAPHIC] [TIFF OMITTED] T0496.084

[GRAPHIC] [TIFF OMITTED] T0496.085

[GRAPHIC] [TIFF OMITTED] T0496.086

[GRAPHIC] [TIFF OMITTED] T0496.087

[GRAPHIC] [TIFF OMITTED] T0496.088

[GRAPHIC] [TIFF OMITTED] T0496.089

[GRAPHIC] [TIFF OMITTED] T0496.090

[GRAPHIC] [TIFF OMITTED] T0496.091

[GRAPHIC] [TIFF OMITTED] T0496.092

[GRAPHIC] [TIFF OMITTED] T0496.093

[GRAPHIC] [TIFF OMITTED] T0496.094

[GRAPHIC] [TIFF OMITTED] T0496.095

[GRAPHIC] [TIFF OMITTED] T0496.096

[GRAPHIC] [TIFF OMITTED] T0496.097

[GRAPHIC] [TIFF OMITTED] T0496.098

[GRAPHIC] [TIFF OMITTED] T0496.099

[GRAPHIC] [TIFF OMITTED] T0496.100

[GRAPHIC] [TIFF OMITTED] T0496.101

[GRAPHIC] [TIFF OMITTED] T0496.102

[GRAPHIC] [TIFF OMITTED] T0496.103

[GRAPHIC] [TIFF OMITTED] T0496.104

[GRAPHIC] [TIFF OMITTED] T0496.105

[GRAPHIC] [TIFF OMITTED] T0496.106

[GRAPHIC] [TIFF OMITTED] T0496.107

[GRAPHIC] [TIFF OMITTED] T0496.108

[GRAPHIC] [TIFF OMITTED] T0496.109

[GRAPHIC] [TIFF OMITTED] T0496.110

[GRAPHIC] [TIFF OMITTED] T0496.111

    Mr. Barr. Mr. Holman, before you begin your statement, I 
want to take the opportunity to thank you and the U.S. General 
Accounting Office for all the work you and your team have done 
with our members and staff in preparation to their study.
    I would also like to recognize for the record Mr. Glenn 
Furbish, Mr. Mark Little, Mr. James Reid, Mr. John Lee, Mr. 
Jason McMahon, Mr. John Van Schaik and Mr. Stefano Petrucci for 
their contributions. Thank you very much, and we look forward 
to continuing to work with you.
    And at this time I'd like to recognize Mr. Holman for your 
opening statement.
    Mr. Holman. Thank you, Mr. Chairman, for those kind 
remarks.
    Mr. Chairman, Mr. Shays, I'm very pleased to be here to 
participate in this very important hearing on looking at the 
impact of encroachment on training readiness. As you 
acknowledged, my testimony is based on work that we have 
recently carried out at your committee's request, at Mr. 
Shays's request, to study the effects of encroachment on 
military training ranges, and we are looking specifically at 
the United States.
    I should also note, however, that we have recently 
completed a separate report looking at encroachment in training 
impacts overseas, and the findings of the two reports are very 
similar in many respects.
    In the response to the questions you have asked me to look 
at, I will address briefly what we have found regarding the 
impact of encroachment on training ranges, the effects of 
encroachment on readiness and cost, and DOD's progress in 
developing a comprehensive plan to address encroachment.
    Concerning the impact of encroachment on training ranges, 
officials at the installations we visited gave us comments that 
sounded very much like what we heard on the very first panel 
this morning in terms of the impact of encroachment: lost 
capabilities for training and work-arounds that need to be 
undertaken to complete the required training.
    Available data indicate that encroachment problems are 
indeed exacerbated by population growth and urbanization. DOD 
is particularly affected because of urban growth; around 80 
percent of its installations exceed the national average. 
Again, each of the installations we visited indicated they had 
lost capabilities in terms of times ranges were available, the 
types of training that can be conducted. They noted, as 
Commander Metz did this morning, that encroachment results in 
work-arounds or adjustments to training. Again, the potential 
problem with work-arounds is that they can lack realism, can 
lead to the use of practice and tactics that are contrary to 
what will be employed in combat.
    But population growth and urbanization being a key factor 
affecting encroachment, service officials--and I would say we 
do it too--believe that the effects of encroachment will 
continue to increase over time.
    Concerning the impact of encroachment on training readiness 
and cost, we found that despite the concerns voiced repeatedly 
by Defense officials about the effects of encroachment on 
training, operational readiness reports that we looked at 
largely do not indicate the extent to which encroachment is 
adversely affecting readiness. In fact, most of the reports 
show that units have a high state of readiness and these 
reports are largely silent on the issue of encroachment.
    Now, we have reported repeatedly over the years of 
limitations and problems in DOD's operational readiness 
reports, so it is really not that new an issue to us. We have 
seen it in the past with other issues, but it's true here 
today. And while improvements in readiness reporting can and 
should be made to show any shortfalls in training, we believe 
that DOD's ability to fully assess training limitations and 
their impact over time on training capabilities and readiness 
will also be limited without more complete baseline data on all 
training range capabilities and limitations and the services' 
training range requirements and full consideration of how live 
training capabilities may be complemented by other forms of 
training.
    While these other forms of training cannot replace live 
training, they cannot eliminate encroachment, they may help to 
mitigate the effects of some training range limitations. Stated 
another way, these objections are not meant to take the place 
of other actions to deal with encroachment, but they are key to 
better depicting the effects of encroachment now and 
particularly in the future.
    While service officials have noted increasing costs because 
of work-arounds related to encroachment, the services' data 
systems do not capture these costs. Now, I would not want 
anyone to infer from this that there are not costs; there 
certainly are costs. There are increased costs associated with 
working around, and as we visited many installations, we heard 
good examples of those. The difficulty, though, is that data 
systems are not established to capture those data in a 
comprehensive fashion, to give you full accounting for those 
costs. But those costs are real and they're there.
    At the same time, we also noted that DOD's overall 
environmental conservation funding has fluctuated with only a 
modest gain over the past few years.
    Now, concerning the development of a comprehensive plan for 
addressing encroachment, DOD certainly has recognized the need 
for such a plan in the year 2000 to task subject matter experts 
to begin working on that issue to develop a comprehensive plan. 
Now, at the time we completed our review, the draft action 
plans had not been finalized. DOD officials told us that they 
consider the plans to be working documents, stressed that many 
of the concepts remain under review, some may be dropped, 
altered, modified, others added.
    Although DOD has not finalized a comprehensive plan of 
action for addressing encroachment, it has made progress in 
several areas. Dr. Mayberry outlined a number of steps this 
afternoon that are being taken, and I think those are key steps 
that are needed.
    Of course, as everyone is aware, DOD is also seeking 
legislative action to deal with encroachment issues. 
Consideration of these legislative proposals affecting existing 
environmental legislation will require the Congress to consider 
potential tradeoffs on multiple policy objectives and issues.
    In conclusion, let me note that, as already alluded to, GAO 
has recommended that DOD develop and maintain inventories of 
their training ranges, capacities, capabilities; finalize a 
comprehensive plan of action that would include goals, 
timelines, projected costs and clear assignment of 
responsibilities; and perhaps equally important, periodically 
report on progress and continuing problems dealing with 
encroachment. Our recently issued report on overseas training 
also recommended that DOD develop reports that actually--
accurately capture the causes of training shortfalls, because 
they may be many, and objectively report units' ability to meet 
their training requirements.
    Mr. Chairman, this concludes my prepared statement. I will 
be glad to answer any questions that you or Mr. Shays may have 
at this time.
    [The prepared statement of Mr. Holman follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.112
    
    [GRAPHIC] [TIFF OMITTED] T0496.113
    
    [GRAPHIC] [TIFF OMITTED] T0496.114
    
    [GRAPHIC] [TIFF OMITTED] T0496.115
    
    [GRAPHIC] [TIFF OMITTED] T0496.116
    
    [GRAPHIC] [TIFF OMITTED] T0496.117
    
    [GRAPHIC] [TIFF OMITTED] T0496.118
    
    [GRAPHIC] [TIFF OMITTED] T0496.119
    
    [GRAPHIC] [TIFF OMITTED] T0496.120
    
    [GRAPHIC] [TIFF OMITTED] T0496.121
    
    [GRAPHIC] [TIFF OMITTED] T0496.122
    
    [GRAPHIC] [TIFF OMITTED] T0496.123
    
    [GRAPHIC] [TIFF OMITTED] T0496.124
    
    [GRAPHIC] [TIFF OMITTED] T0496.125
    
    [GRAPHIC] [TIFF OMITTED] T0496.126
    
    Mr. Barr. Thank you very much. I'd like to begin with 
myself for 5 minutes of questioning, and depending on when 
other Members show up--Mr. Shays, OK, we'll do 10 minutes. 
Thank you.
    With regard to the issue of national security exemption--
which, as you all know, is provided and contemplated would be 
used. Otherwise, it wouldn't have been put in the legislation 
of Endangered Species Act. Section 7(j) provides for a very, 
very broad, very clear national security exemption saying 
simply that notwithstanding any other provision of this 
chapter, the committee shall grant an exemption for any agency 
action where the Secretary of Defense finds such exemption is 
necessary for reasons of national security. Of course, that 
refers to the committee comprised of various Cabinet and sub-
Cabinet-level officials, including an additional Presidential 
appointee who will determine whether or not to grant an 
exemption from the requirements of section A(2) of section 
1536, which otherwise would require that any action to be 
carried out by the agency must not be carried out in such a way 
as to jeopardize endangered species or threatened species, etc.
    I haven't been able to find any instance, despite the many 
years that this exemption has been on the books, that, one, 
it's either been utilized or even been a request having gone up 
to the Secretary of Defense for its utilization.
    Are you all aware of any requests or submissions for the 
national security exemption under the Endangered Species Act?
    Mr. DuBois. Mr. Chairman, my understanding is, as you 
indicated, there have been no requests or issuances of 
exemptions under the Endangered Species Act. Let me, though, 
address your question in two ways.
    One, I wanted to also point out that the Marine Mammal 
Protection Act and the Migratory Bird Treaty Act have no 
exemptions in the statute, but I think it's important to 
recognize that emergency exemptions are typically limited in 
scope and duration and are declared only in instances of 
critical threats to human safety. They have been used very 
rarely--and I'm speaking beyond just the Endangered Species 
Act. They have been used very rarely by the Department and 
usually as an option of last resort.
    Reliance, it seems to us, on emergency declarations really 
fails to address the fundamental readiness requirement that 
we're trying to deal with. Environmental regulations should be 
addressed, it seems to me, by establishing the appropriate 
legal and administrative framework, allowing the Department to 
fulfill its commitment to environmental protection and the 
readiness of the Armed Forces.
    Our concern in terms of the readiness and range 
preservation initiative that we have suggested is not with 
emergency examinations. It's really, as both this panel and the 
prior panel suggested, it's really with the cumulative effect 
on training and testing activities that must be undertaken on 
hundreds of military installations every day to ensure 
readiness.
    Now, to be sure, there are specific instances wherein such 
exemptions would be or could be valuable, but they will not go 
far in solving the broad encroachment problems that we are 
faced with, the day-to-day issues, the notion that if you are 
going to wait to exercise the national security exemption when 
faced with sending troops into battle, it's too late. They 
are----
    Mr. Barr. Not necessarily, it wouldn't be. For example, 
I've been looking as you've been speaking, and the exemption 
doesn't say anything about an emergency. It says exemption for 
national security reasons.
    I just don't understand, particularly with the current 
administration that clearly has, demonstrably has a much more 
appropriate feel for national security and national defense 
needs than the prior administration, and given the fact that 
all of the witnesses, the military witnesses, that we have had 
in this whole series of hearings all indicate that the current 
restrictions are harming the ability of our Navy personnel, 
Army personnel, Marines and Air Force personnel to prepare 
themselves adequately in advance of being put into a hostile 
environment, as opposed to using that hostile environment for 
on-the-job training.
    Given the fact that is well known--and let's assume it 
wasn't well known before September 11; certainly it is now--the 
importance of that live fire training, comprehensive training, 
different scenarios and so forth, all of which are closed off 
in large part under current restrictions because of the 
Endangered Species Act, in addition to the other acts; we all 
know that--what I fail to understand is, yes, the better 
approach would be to change the laws or to pass, as we are 
trying to do in the Defense authorization bill, a very limited 
provision.
    But you all know as well as we do what happens when you 
have an amendment or a proposal up here in the Congress that 
relates in any way, shape or form to the Endangered Species 
Act, the environmental wackos come out, the media comes out, 
and they all say, oh, those Republicans are going to gut the 
Endangered Species Act and so forth; and the Members get very 
weak-kneed, and we lose the votes. We know that happens.
    One, we have not seen any firm move by the administration 
to support us in trying to effectuate these changes, but in the 
meantime, given the emergency situation really that is facing 
us in fighting the war against terrorism, why not even ask? Why 
not at least ask for this exemption? And if, in fact, somebody 
is going to make a claim, well, this isn't a true emergency, 
heck, let them make the claim. Put the environmentalists on the 
defensive for once, not us.
    I don't understand. Why wouldn't we take advantage of this 
clear provision of the law that I think--clearly, I think, 
contemplated the sort of situation that we have?
    Mr. DuBois. I think, Mr. Chairman, as I tried to indicate, 
that our understanding of the national security exemption is 
that it is focused on a certain time and place.
    Mr. Barr. No, it's not, and there's obviously no case law 
that established that, because nobody has ever even tried it.
    What I read before was the full language of it. It says, 
``Notwithstanding any other provision of this chapter, the 
committee shall grant an exemption for any agency action if the 
Secretary of Defense finds that such exemption is necessary for 
reasons of national security.'' It doesn't mention emergency at 
all; it doesn't mention any time duration.
    All I'm saying is, let's be bold. If somebody wants to 
claim, oh, that's not a true emergency, or it's only for a 
short period of time, let them make that argument and try to 
prove it. I don't think they are going to be able to because 
the language of this provision is pretty clear; but even if 
they win, at least we've tried something.
    Mr. Mayberry. I believe, as you've mentioned, the 
Department does perceive it has been bold in terms of even 
coming forth with its overall readiness and range preservation 
initiative. That certainly is the first focused attempt to try 
to address on a broader scope the types of systematic, systemic 
problems that are at many locations, particularly with respect 
to the Endangered Species Act.
    But I think that we, as the Department, have also been 
criticized that we have not been allowing for full and open 
debate in this process and that any request for such a 
Presidential waiver would certainly circumvent that process as 
well.
    Mr. Barr. Good. I say good.
    Mr. Mayberry. And I think that may be----
    Mr. Barr. National security is at stake here. We're 
fighting a war.
    Can you imagine if we had to fight World War II under these 
circumstances, saying, oh, my goodness, we can't do something 
because it hasn't been put out for full comment from all of the 
stakeholders? People would have laughed at us.
    If one of these stakeholders doesn't like what we're 
proposing, if they want to come forward and say, this 
exemption, national security should in fact take a second 
seat--and this will tee up the issue quite clearly--to some 
clover or some tortoise--you know, the sex acts of some 
tortoise or something at nighttime, so that it interferes with 
nighttime sea training operations, I say, let them make that 
argument, see if they can make it with a straight face.
    Why not put them on the defensive? Why do those of us who 
believe in national security and who believe it is more 
important than some of this stuff--why do we have to feel we're 
on the defensive? Why proceed so cautiously that nothing gets 
done?
    Mr. DuBois. Mr. Chairman, if I could just add here, I can 
assure you that the administration will not hesitate to evoke 
section 7(j) where appropriate, but I think, as you pointed 
out, that we ought not emphasize that such an exemption--that 
exemption ought to supplement our critical habitat reform that 
we've suggested----
    Mr. Barr. I agree. I'm not saying, do this instead of it; 
but I'm saying, at least let's try this if, in fact, we believe 
that there is an immediate need to beef up our training and get 
back to where we used to be, where our forces didn't have to 
tiptoe around a marked-off area when making an assault on a 
beach, or you couldn't use an armed vehicle in an area because 
you might go over some yellow cockeyed grass or whatnot.
    If that is the case, which we've heard testimony it is, 
let's use this as a tool, as part of our arsenal to try to get 
some changes, because none of this other stuff is going to 
happen real quickly, unfortunately.
    Hopefully, the best shot that we have is through the 
efforts of Chairman Hansen and many others in the Defense 
authorization bill; and I do appreciate the fact that you all 
support that. I mean, it is important to finally have an 
administration that will do that; but I continue to be 
mystified and somewhat distressed that we don't use--that, one, 
we've never used this exemption, and we're not even using it 
right now when our Nation is at war. I think it would be an 
important tool to use, not in lieu of, but in addition to these 
others; and I would hope you all take that message back, 
because there are certainly a lot of us here that will support 
you in that interpretation.
    Mr. Holman. Mr. Chairman, if I might add----
    Mr. Barr. Yes, sir.
    Mr. Holman. I'm not aware of any exemptions under the 
Endangered Species Act, but I believe there have been two other 
exemptions in the past pertaining to other legislation.
    I think there was one in the early 1980's, perhaps an 
Executive order issued by the President, allowing some waivers 
of the Clean Water Act, Clean Air Act, pertaining to 
resettlement or housing of Haitian immigrants. I believe it was 
in Puerto Rico.
    And I think there was another one in about 1995, an 
exemption dealing with RCRA, the Resource Conservation and 
Recovery Act. That dealt with classified Air Force activity out 
West.
    But those are the only two I'm aware of.
    Mr. Barr. Were they sustained? Were they challenged at all, 
do you know?
    Mr. Holman. I do not know.
    Mr. DuBois. The last item that Mr. Holman was referring to 
is a year--an exemption that's granted annually. It's with 
respect to a classified situation.
    Mr. Barr. OK. Thank you all.
    Mr. Shays, would you take over the chair, please?
    Mr. Shays. Certainly.
    Mr. Barr. I apologize, gentlemen. I have another hearing 
that I have to chair just down the hall. So I will ask Mr. 
Shays to take over the chair here, but I would say now what I 
would say at the conclusion of this panel.
    Thank you all very much for your work in this area. It's 
extremely important to our Nation's defense and our fighting 
ability; and we appreciate your continuing work, and look 
forward to continuing to work with you to solve these problems 
we've identified. Thank you.
    Mr. DuBois. Thank you very much.
    Mr. Shays [presiding]. Sorry to keep you gentlemen waiting. 
I first want to put on the record, and I just want to tell the 
minority as well, I'm going to allow professional staff on the 
majority and minority to ask questions. So if there are any 
questions you want to ask, I just want you to know you have 
that right and opportunity.
    I would like to put on the record a letter we sent on April 
24 to Jim Hansen. It was from Chairman Burton, and I'm going to 
read it.

    As you know, the Committee on Government Reform is still 
investigating military training range sustainability.
    In March of last year, I authorized a GAO study of military 
training range encroachment in the continental United States 
and Department of Defense management of encroachment. This 
study will be completed tomorrow, and delivered to the 
Department of Defense for comment.
    The results of the study will indicate that although the 
military services have proven that environmental regulations 
have resulted in the degradation of training and the loss of 
training ranges, the Department of Defense and the Office of 
the Secretary of Defense are lacking in long-term encroachment 
management structures and policies, training range inventory 
data or readiness reporting that reflects training 
encroachments. There is also no reporting requirement to 
Congress and its committees of jurisdiction on the loss of 
ranges and threatened training. I feel that these 
administrative requirements are of critical importance to 
protecting military training now in the future.
    I gladly share the findings and recommendations of this 
study with you because of your long-term commitment to 
protecting military training. The language in the Hansen-Weldon 
amendment has my support and the support of many interested 
members on the Government Reform Committee. Please let me know 
what I can do to ensure its inclusion in this year's Defense 
Reauthorization bill.

    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.127
    
    [GRAPHIC] [TIFF OMITTED] T0496.128
    
    [GRAPHIC] [TIFF OMITTED] T0496.129
    
    [GRAPHIC] [TIFF OMITTED] T0496.130
    
    [GRAPHIC] [TIFF OMITTED] T0496.131
    
    [GRAPHIC] [TIFF OMITTED] T0496.314
    
    [GRAPHIC] [TIFF OMITTED] T0496.315
    
    [GRAPHIC] [TIFF OMITTED] T0496.316
    
    [GRAPHIC] [TIFF OMITTED] T0496.317
    
    Mr. Shays. And basically the inclusion was offered by Mr. 
Hansen in the Subcommittee on Readiness on April 25, and it 
passed the full committee on May 1 and the House on May 9; and 
what it requires is the Secretary of Defense to develop a 
comprehensive plan for addressing problems created by 
limitations on the use of military lands, marine areas and the 
air space reserve withdrawal or designation for training and 
testing activities by, for or upon behalf of the Armed Forces.
    ``The plan shall include''--and it talks about the number 
of points it shall include; and it says, ``Not later than June 
30, 2003, the Secretary of Defense shall submit to Congress a 
report on plans for the Department of Defense to improve the 
global status of resources and training systems,'' and it does 
more.
    So that will be submitted for the record.
    And also Mr. Hansen briefly stopped by the committee, and 
we just want to thank him for what he did. As chairman of the 
Resource Committee and a member of the Armed Services 
Committee, he has worked very closely with this committee on 
training range sustainment issues.
    Based on prelimary findings by the General Accounting 
Office study under discussion here today, he introduced 
language in the Defense authorization bill to make sure this 
legislation passed, and so we're just very grateful to him.
    And it's an example, I think, of what this committee does. 
More often than I think people realize, we take advantage of 
the reports that are submitted, and we try to work with the 
other committees of cognizance.
    I'd like to know, Mr. DuBois, why there couldn't have been 
an attempt on the part of the administration to develop a plan 
without legislation needed.
    Mr. DuBois. The plan, Mr. Chairman, is----
    Mr. Shays. Just a plan of taking all these various, this 
incredible resource we have available of training facilities 
and to understand how they all fit in, what is needed and what 
is not needed and so on.
    Let me ask you, how long have you been in this capacity 
that you're in right now?
    Mr. DuBois. Slightly over 1 year.
    Mr. Shays. Mr. Mayberry.
    Mr. Mayberry. August of last year.
    Mr. Shays. Maybe both of you could share with us why we 
aren't seeing a plan exist today, even under a previous 
administration.
    Mr. Mayberry. Well, I believe that each of the Services 
have had ongoing efforts in terms of trying to identify their 
training requirements, but there was really not an effort to 
integrate and bring all of these issues to the forefront.
    I think, as your graphic here illustrates, this truly is a 
multifunctional problem. It involves the operators, the 
soldiers, the sailors, airmen and Marines, as we saw as part of 
the first panel. It involves the readiness advocates, myself 
included. It involves the environmentalists, represented by Mr. 
DuBois; and it also gets at someone who is not represented 
here, and that is our training--excuse me, our testing and 
evaluation director.
    There are so many players here involved, and I don't think 
it was really--the press of really bringing this to the 
forefront within previous administrations.
    This is not the result of the September 11th event. The 
Senior Readiness Oversight Council had been addressed, for 
which I served as the Executive Secretary of that body also in 
the previous administration. We have--myself, as well as my 
boss, Dr. Chu, Under Secretary of Defense for Personnel and 
Readiness--have really tried to push these issues forward 
because we realize the true readiness impacts on our forces and 
their ability to operate.
    Mr. DuBois. Let me, if I might, add a comment to that.
    When I took this job and began to talk to Paul after he 
came on board, it was clear--and the Services actually 
demonstrated to us--the need for this kind of reporting. Mr. 
Holman has talked about the DOD reports of the past being, 
``largely silent,'' on encroachment issues as they pertain to 
readiness.
    Readiness reporting focuses on a unit's readiness, not on a 
training range's readiness or the basis of what encroachment 
may or may not have impacted the range's readiness. As you can 
imagine, a unit commander--unit commanders will do whatever is 
necessary to receive at least an adequate readiness rating, but 
we--in line with the chairman's letter, I think we agreed that 
the range itself needed to be graded with respect to its 
ability to deliver to a unit cohesive and live fire training 
readiness.
    To that extent, the Marines developed a readiness reporting 
procedure--plan, if you will--for Camp Pendleton, and we are 
now addressing and assessing that methodology to see how it's 
applicable to all of our ranges.
    So I hope that perhaps next year when we testify on this 
issue before you that there will be, in anticipation of that 
2003 summer report, a greater level of detail and fidelity as 
to these issues.
    Mr. Shays. What brought this issue to my forefront, 
frankly, was Vieques and my absolute amazement that the 
politics seemed to supersede--and I'm going to say, in both 
administrations--the readiness of our troops to one to visit 
that island and to realize that one-third of that island was so 
pristine because of what the Navy did. It was kept in 
absolutely perfect condition, with no degradation except for 
places to store munitions; and so it will now be turned back to 
the people of Puerto Rico in better condition than probably 
anyplace else in the Territory of Puerto Rico.
    Then the center part, where the village is, and then the 
other part, the 9 miles where there was live, at the tip of 
that 9 miles, training for land, sea and air coordinated. And 
to think that the previous administration and this 
administration would somehow say that we don't need it blows my 
mind. And when you meet with any military personnel privately, 
no one privately would tell me that we don't need it.
    Now, the only thing I can think of is, one, politics came 
into play; and two, we didn't know how it fit into the rest of 
the program. But the one thing that's pretty clear is--and I 
would like to ask all three of you, how many places on the East 
Coast do we have to train in a simulated way, in a coordinated 
way, land, air and sea?
    And, Mr. Holman, maybe I will start out with you. Tell me 
where.
    Mr. Holman. Chairman Shays, we haven't made a comprehensive 
assessment of that. The ones I'm certainly aware of mentioned 
this morning, perhaps Eglin. But Puerto Rico is probably the 
preeminent place to do that; the loss of that is significant.
    In Eglin, you can do some, but perhaps not all, the 
training. But there are quite--the number of places are very 
few on the East Coast.
    Mr. Shays. This involves utilizing submarines as well?
    Mr. Holman. Yes, sir.
    Mr. Shays. So you've got to do it all.
    Mr. Mayberry.
    Mr. Mayberry. Yes, sir, the quality of Vieques training 
cannot be questioned. I, as a readiness advocate in the 
Department, certainly press for live fire training and 
integrated operations. The task is to the Secretary of the Navy 
at this point in his Title X responsibilities to address 
alternative sites at this point. I know that the Center for 
Naval Analysis is conducting a variety of----
    Mr. Shays. But to interrupt you, if you don't mind, the 
craziness of that is, we have no plan. We don't know how it 
fits in with all the other things we're doing. We're looking at 
it, frankly, somewhat in isolation; though I don't think it 
takes a rocket scientist, frankly, to understand that there 
aren't many places where you can do all three at once.
    And to suggest somehow we can do them in separate sections, 
some by sea, some by land, but it wouldn't be coordinated--Mr. 
Mayberry.
    Mr. Mayberry. The previous panel used some very good words 
of ``chopped-up training.'' There are locations that probably 
could be used to do the respective pieces--parts here, but the 
notion of being chopped up is--and how integrated, combined and 
joint operations will be tested, evaluated and trained is truly 
a critical piece.
    Mr. Shays. Thank you.
    Mr. DuBois.
    Mr. DuBois. I think that notwithstanding Vieques--and I too 
have visited Vieques--to replicate the capabilities of that 
particular range will be extremely difficult. But prior to this 
administration, the Joint Chiefs did commission action plans a 
couple of years ago to--and directed Services, each military 
service, to look at their training requirements and their 
training range availability. Those plans were submitted last 
spring when we--after we came into office.
    Deputy Secretary Paul Wolfowitz, on the basis of those 
plans, directed preparation of a legislative and administrative 
set of measures to develop those measures to address the known 
problems. The planning continues, as I indicated. Perhaps a 
year from now we will be able to give you more definitive 
answers.
    But the bulk of our efforts, the bulk of our efforts are 
not legislative. But for issues such as the Endangered Species 
Act in terms of critical habitat and the Migratory Bird Treaty 
Act, we do not think any alternative legislation exists.
    But back to your question in terms of planning and 
preparation, when we came into office, it had been set into 
motion in the summer of 2000; reports were--preliminary reports 
were made in the spring of 2001 and, as I said, Dr. Wolfowitz 
then directed more in-depth and detailed studies.
    Mr. Shays. Let me just ask Mr. Allen a question. I've 
probably gone on for about--I've gone on for 13 minutes and I'm 
happy to give the gentleman time. Would you like a little more 
time before starting, or----
    Mr. Allen. I'm ready whenever.
    Mr. Shays. I'm going to take 2 more minutes and then give 
you 15.
    I want to say for the record that I did not agree with the 
characterizations of our acting chairman as it related to the 
environmental issues. I'm somewhere between where the chairman 
is, probably, and Mr. Allen is; and I did mention to him when 
he was leaving that I just wanted to say to you, and for the 
record, I believe that we won't have a world to live in if we 
continue our neglectful ways with our environment.
    And we could make a joke about bees, but if we had no bees, 
we would have no growth in 4 years. So I believe the military 
has a moral duty to--where it can, to protect the environment. 
But if it is an environmental issue and training that can't be 
done elsewhere and can't simply be done, then I believe that 
training trumps the environment in those instances; and that's 
kind of where I would disagree with my colleague.
    And I would say to Mr. Allen, it is important to have you 
back because you did raise important questions; and I didn't 
comment on the points you made while you were away, but I think 
it will make for a better hearing to have you voice your 
concerns and to give the gentlemen an opportunity to respond to 
them and give me an opportunity to react as well.
    So I welcome you, and you have 15 minutes.
    Mr. Allen. Thank you very much, Mr. Chairman. I gather 
people noted that I had to leave and some took objection to 
that after my opening statement. There is nothing I wanted to 
do more than stay here, but we have so many conflicting 
obligations. I had questions for that first panel that I never 
got to ask, and it's a little bit frustrating.
    Let me say a couple things. First of all, I am completely 
committed to making sure that our troops are ready for the 
conflicts that they are likely to participate in. Readiness is 
not a minor issue to me. It's a fundamentally important issue. 
I don't want to lose a single member of our Armed Forces 
because they weren't properly trained.
    On the other hand, the President said when he campaigned 
for office that he felt that Federal agencies should comply 
with our environmental laws, and that's a position that I still 
have. There was a radio report, and I believe it was the 
commander of Fort Bragg, talking very positively about how 
they'd been able to conduct their training, in spite of certain 
environmental constraints by working with the local community 
and environmental organizations, and I believe that this is the 
proper model.
    I would only say with respect to the military and I'm not 
trying to cast blame on anyone, but when you come to Congress 
and you want to change laws that are of fundamental importance 
to the entire society, and you try to do it at the last minute 
with no substantive hearings on the proposals that are being 
raised--I mean, you can look back and somewhere find a hearing 
on an environmental issue.
    But if you're not having a hearing on the legislative 
proposals that are being raised, and there are 4 days before 
the markup of the Readiness Committee, you are going to get a 
negative response from some of us because while we might be 
willing to accept changes in the laws after full consideration 
and debate and the participation of those who object, we are 
not likely to say, oh, fine, go ahead on 4 days notice.
    And one other sort of general comment: If I had been here 
to ask questions of the first panel, there was a GAO report in 
October 2001 which said that the Defense Department has nearly 
28,000 potentially contaminated sites. The Defense Department 
can't have broad exemptions, we can discuss narrow exemptions, 
but it can't have broad exemptions from our environmental laws 
because it is the Federal agency with the greatest 
responsibility for pollution in this country--the Federal 
agency that has the most problems, I guess I would say.
    And another way of saying it is that DOD has easily the 
world's largest environmental clean-up problem.
    That's not to say, that's DOD's fault. There's a lot we've 
learned about how pollutants move underground than we knew when 
bases in my district and elsewhere were first created; but the 
GAO report concluded that the cost recovery data in the 
Department's annual environmental clean-up report is not useful 
to the Congress or the Department for management or oversight 
because it is inaccurate, inconsistent and incomplete. That's a 
statement that DOD needs to do a better job of looking at and 
figuring out its own costs for environmental cleanups.
    That's not the issue of the moment, but it is just a point 
I raise because when you talk about exempting DOD, we're not 
talking about exempting some agency that has only a minor 
impact on the environment of this country.
    Mr. Holman, I want to turn to you. I apologize for not 
being here during your direct presentation, but I want to ask 
you about several coments and several findings in your report. 
Those findings seem to me to cast doubt upon the Department's 
claims that they urgently need special exemptions from our 
environmental laws; and I want to ask you briefly about these.
    You concluded in your report that the Department has not 
even completed an inventory of its own training facilities. In 
your report, you said commanders sometimes find out about other 
training facilities by chance. Is that correct?
    Mr. Holman. Yes, that is correct. As we were talking with 
the Navy component of the Special Operations Command, we did 
find that while they use--they own no facilities of their own, 
but they use each of the Services' facilities as they know of 
them; and they told us that they had recently become aware of 
the ability to do training at--Aberdeen Proving Ground had 
water access, something they very much needed.
    And they pointed out to us the fact they did not have 
available to themselves an inventory of training facilities; 
and I think that's something that's probably important to have. 
Particularly as we look more toward an increasingly joint 
training environment, it becomes good to have that.
    Dr. Mayberry said the Department and the services are in 
the process of trying to put together some inventories of their 
facilities. I think they have some, but they need to be more 
complete. There probably needs to be consistency of data that's 
gathered on each one of them in terms of their size, 
capability, limitations particularly with encroachment and so 
forth.
    Mr. Allen. In the October 2001, report that I mentioned 
earlier, ``Improved Guidance Needed for Reporting on Recovered 
Cleanup Costs,'' the GAO recommended in that report that the 
Pentagon do an inventory of its ranges. That request was over 8 
months ago. You're making it again now.
    Do you have any sense of whether progress has been made by 
the Department in doing that kind of inventory of ranges?
    Mr. Holman. I'm not quite sure where they are at this 
point, Mr. Allen.
    I should point out also that report referred to closed 
ranges, as well as--probably more so closed ranges than it did 
open ranges, but it's a combination. And when you look at the 
two together, there are a sizable number of sites--and perhaps 
Mr. DuBois can indicate where they are in terms of the 
inventory now.
    Mr. Allen. What I'd like to do is finish my questions with 
you and then come back to the rest of the panel.
    You also found that the Department does not know what its 
training requirements are. You stated that no military service 
has, ``comprehensively reviewed available range resources to 
determine whether assets are adequate to meet needs.'' Is that 
a fair statement?
    Mr. Holman. What we were trying to say with that statement 
is, it's a combination of things. One, you need to identify 
what your training requirements are, what ranges do you have 
that can satisfy those capabilities, what are the limitations; 
and then once you've done that, what options do you have for 
any other forms of training that might be complementary.
    We have heard comments about simulation training this 
morning, and we certainly are not here to say that simulation 
is the answer to encroachment and certainly simulation cannot 
take the place of live training. However, significant advances 
have been made in simulation, simulator technology, in recent 
years as an increasingly ever-important, complementary form of 
training. You put all those facets together, and then you start 
to have a more complete picture of just what are the 
limitations that you face today.
    And, again, that's not going to do away with the 
encroachment issue. That's not going to do away with needing to 
take other steps to mitigate and safeguard training ranges for 
the future, but it tends to give you a more complete picture of 
what your deficiencies are and what are the things you really 
need to work on.
    Mr. Allen. And I certainly would agree with you that 
simulation is not a complete answer to training either. 
Clearly, our troops need to have the most realistic training 
possible in a number of different circumstances.
    The report also concluded that the Pentagon has no data 
showing that encroachment has increased costs. Now, we can 
assume that there are some increased costs, and I would be 
perfectly willing to make those assumptions; but you indicated 
that no installation you visited could provide data on costs 
incurred as a result of encroachment. Is that fair or not?
    Mr. Holman. What we said is that there's no system in place 
that will give you a comprehensive picture of the costs, added 
costs, that occur because of work-arounds associated with 
encroachment.
    Now, we can go to individual installations and we can get 
estimates here and there of $50,000, $100,000, whatever, that 
may be needed to move a unit from Camp Pendleton to Yuma to 
Twenty-Nine Palms, whatever, to train. You can talk to Navy 
officials, and you can get estimates of what it requires to 
hire biologists, operate planes to fly over the ocean for a 
couple of hours before and during exercises to watch for marine 
mammals; you know, there's costs associated with that.
    But what we're saying is, just the nature of the way the 
accounting systems are, it's not easily done to develop a 
comprehensive picture of those additional costs; but they are 
there and they are real.
    Mr. Allen. I think it would be worthwhile making a 
distinction myself.
    There is no question that protecting the environment around 
DOD's bases is going to cost money. That is obviously going to 
cost money. It's obviously going to cost a lot of money. The 
question in my mind is whether these particular environmental 
laws that we are being asked to change, by themselves, involve 
such significant additional costs that costs should even be 
considered.
    I mean, clearly the quality of the training, that is a high 
priority; we've got to consider that. But since we inevitably 
are going to spend some money to protect the environment 
anyway, the question is whether the costs of what is been 
called here ``encroachment'' is really a factor that we should 
be considering.
    You found, I believe, that the Pentagon's overall costs for 
environmental obligations have decreased over the past 3 years. 
Is that true, so far as you can tell?
    Mr. Holman. They went up slightly over a period of about 6 
years. The past 3 years, they have come down just a little bit, 
so with a net increase over the past 6 or 7 years, but not a 
significant increase. And I think a lot of that has to do with 
the Department's budget constraints and maintaining a fairly 
level standard of funding.
    I think where we did see some significant increases or some 
increases, more had to do with the Army, and they associated 
those costs with developing the integrated resource plans they 
were developing.
    Mr. Allen. To my mind, your most important finding was that 
these services demonstrated no significant reduction in 
readiness as a result of encroachment.
    Can you tell me what readiness reporting systems you 
examined when making this conclusion?
    Mr. Holman. Mr. Allen, we looked at the operational 
readiness reports for fiscal year 2000. I might also add, in 
the recent report that we did, looking at training overseas, we 
looked at operational readiness reports over a 2-year period, 
and those are the particular reports that are prepared by units 
on a monthly basis, or as readiness changes; and not 
surprising, those reports show the majority of units reporting 
a high-level standard of readiness both here in the States as 
well as overseas.
    Overseas training constraints are even greater, and you 
would expect, perhaps, the readiness rates to be lower.
    I have to say from a historical perspective, because I've 
looked at that type of data for many years and I've seen that 
same situation over the years, that's why GAO has consistently, 
repeatedly over the years recommended that DOD develop and 
improve readiness reporting systems.
    Now, having said that, I need to say at the same time you 
will see some conflicting data. Mr. DuBois referred earlier to 
facilities readiness reports. In the past 3 years, the 
Department's been submitting facilities readiness reports to 
the Congress; and the most recent one--a lot of information has 
come out about it recently, and they're unclassified--I think 
it was 69 percent of DOD's facilities, and that includes 
operations and training facilities, were rated C-3 and C-4, 
which would suggest by the readiness system that the 
organizations reporting would have significant problems in 
accomplishing their mission.
    I compare that data against the operational readiness 
reports that say the majority of units are rated C-1 or C-2, 
high state of readiness; and you see data there that conflicts.
    Mr. Allen. If I could add there, I set off a response on 
the other side of the aisle with my comments about governing by 
anecdote this morning, but this is what I mean.
    I would say the fundamental point is that if we are saying 
that readiness is being affected, there has got to be some way 
of showing that readiness is actually being affected. I would 
grant the Department that in specific instances it is 
complicated to work around environmental laws, just as it's 
complicated to work around civilian homes. The comment was made 
in the first panel that sometimes, as civilian homes are built 
closer and closer to bases, that creates problems.
    Homes create problems for civilian airports as well as 
military bases; the overflight rules create problems. The 
question really is whether the Department of Defense is going 
to be able to figure out how to accommodate all these other 
different interests in society, or whether it's going to be 
exempted from accomodating these other interests.
    I have just a little bit more.
    To summarize, Mr. Holman, you said that DOD doesn't have an 
inventory of its ranges, they have not comprehensively assessed 
their range needs, they can't tell us which encroachment issues 
are the most challenging, they haven't documented any increase 
in costs, and most importantly, they don't show any effect on 
readiness from the data that you're referring to.
    In your opinion, do the Pentagon's legislative proposals 
which focus on exemptions to these environmental laws seem 
premature to you?
    Mr. Holman. Mr. Allen, I'm really not in a position to make 
that call. I think what you're looking at there--I mean, 
certainly we say DOD needs a comprehensive plan. The study 
groups have looked at it, have suggested they needed some 
clarification of legislation dealing with dangerous species, 
Marine Mammal Act and others. So I think they were looking at a 
combination of administrative actions, as well as legislation.
    And we certainly say they need a comprehensive plan, but 
when it comes to the legislative proposals, we're talking about 
some significant tradeoffs, policy objectives. I think those 
are decisions best left to the Congress. We just really haven't 
made a call on that.
    Mr. Allen. I just hope that the Congress will be able to 
consider them after a full-blown hearing with people on both 
sides of the aisle, because it's my experience we make better 
decisions when they do that.
    Mr. Holman. Mr. Allen, if I might make one additional 
comment in terms of your summary remarks about our report.
    One thing I want to make clear, I would not want anyone to 
conclude from looking at that report that GAO is saying no 
data, no problem. We're not saying that.
    I think it's very clear from listening to the first panel 
this morning--again, it sounded like going to many of the bases 
that we went to, the comments we heard in terms of impacts on 
training. You can't help but know from that there are 
limitations on training.
    Our difficulty, given the longstanding problem with DOD's 
readiness reporting system, is that we cannot tell you the 
magnitude of that problem. I know from looking at this issue 
for many years--I think we first reported on encroachment 
issues on training back in 1991. We know the problem, 
particularly with urban growth and development; it's one that's 
increasing over time. So while we may not be able to tell you 
the precise impact on readiness and training today, we do know 
it's an issue that is important, that does require dealing 
with, because it probably will continue to get worse over time.
    Mr. Shays. Let me claim back time and give the gentleman 
another 10 minutes. I'm going to go 10 and then give you 10 
more afterwards, because frankly I think it's important that he 
ask every one of these questions.
    The only problem is your disclaimer at the end, in some 
cases, to me negates a heck of a lot of what you said for the 
first 15 minutes of your report. And you are basically saying 
there isn't the data to show it, but it doesn't mean there 
isn't a problem; and then you almost have to be an idiot if you 
go to these places and not see there's a problem.
    So I'd love to know your definition of ``data'' if they 
can't use a facility for 6 months, then they can't use it; and 
that's data to me, for 6 months.
    So are you saying you want to know what that means? They 
can't use the facility for 6 months, so it means they aren't 
training there for 6 months. So then are we to make the 
assumption, since they aren't able to explain to you where else 
to go or they don't know where else they can go, that therefore 
there isn't data?
    Explain to me what ``data'' means.
    Mr. Holman. We know that from the testimony this morning. 
We know that from the bases we visited over time there are 
limitations. Unit commanders are constantly engaging in work-
arounds to accomplish their training.
    If you are referring to requirements, we are talking about 
overall requirements and what are the limitations. We're 
looking at a major issue called ``encroachment,'' and we are 
trying to get our hands around it and say, what is the 
magnitude of this problem and how does it affect readiness 
today? Again, our difficulty when we look at readiness data is, 
commanders aren't reporting negative impacts; and when they do 
that readiness report, one of the elements they're supposed to 
rate is training readiness.
    Mr. Shays. Mr. Holman, you're doing your job, but the 
problem is, I just want to understand ultimately what your 
report means. I mean, I have almost contempt for the fact that 
we can't audit the Department of Defense. We have over a 
trillion transactions that can't be audited, and there's no 
question--as Mr. Allen says, you go to certain bases, and we 
haven't closed certain bases because they're so contaminated. 
If we close them down, we'd have to spend a fortune to clean 
them up right now; so we haven't done it.
    And so Mr. Allen, in my judgment, is right on target in 
wanting a process and wanting to hold people accountable. The 
problem is, at the same time, we are at war. We do know that 
our troops are not getting the opportunities they need, and yet 
we also know that they have said that everybody's ready. So you 
are saying, OK, I don't see the data that shows to me the 
connection between you can't do this, but we say we're ready.
    And it seems to me, Mr. DuBois and Mr. Mayberry, you're, 1, 
by something that's not too comfortable because you don't want 
to send our troops out into the battlefield and say they're not 
ready; and so we have a level that we have decided is 
``ready.''
    But a question to anyone is, could they be better trained? 
And then the other question is, if they had more training, 
would they be better trained? And the answer is clearly, yes; 
and we don't need a lot of data to show us that.
    But my problem with DOD is that I don't want them to 
overreach to get around environmental rules, and then I just 
get kind of nervous that we end up in the old ways. We can't 
audit you, so we forget about it.
    So there's a part of me that has tremendous sympathy. 
Having seen these places first hand, I am just appalled that we 
would not be more protective of these facilities in making sure 
that we're able to use them more often.
    I would like to have you both, Mr. DuBois and Mr. Mayberry, 
respond to any question that was asked among the very fine 
questions that were asked by Mr. Allen; and I know he would 
like that. I happen to know Mr. Allen to be a very fair man. He 
wants the truth to come out, wherever it is; and frankly, we 
need him to ask these questions.
    Mr. Mayberry. I think Mr. Holman is right on the mark, that 
you can put a lot of onus of this on the Department's readiness 
assessment systems, that it is not of the quality in terms of 
the specific accuracy of information that we're wanting to see 
here. It's truly more of a snapshot in time of a particular 
unit's status, typically documenting their immediate problems; 
but it does also get at the issue of the can-do attitude that 
we saw here this morning.
    I don't think there's any question that unit commanders are 
on the spot to have their forces trained and ready--that is 
their primary responsibility--and that there have been a 
variety of work-arounds for which there is no centralized 
process to capture that type of information--to understand the 
magnitude of the cost of work-arounds, the magnitude of the 
degradation in terms of training within the readiness reporting 
process.
    My analogy is, it's sort of like a physician trying to 
diagnose a patient with a high fever. Anyone can sort of put 
their hand on the head and feel the hot temperature, but we 
don't have a thermometer right now that we can make accurate 
assessments of the degree to which that individual is above 
normal.
    What we do have to work with is the issue of 
quantification, and that truly has been one of the weaknesses 
of our readiness reporting process. Certainly not refined or 
detailed enough to capture the cumulative effects that we've 
heard talked about here over time to the realistic training, 
nor to acknowledge the compounded cost, but that is where the 
Secretary has asked us to go not only in terms of the service's 
readiness systems, but also how do we go about assessing our 
joint capabilities as well.
    Mr. DuBois. Mr. Chairman and Mr. Allen, I think it's 
important to recognize that you use the term ``broad 
exceptions.'' I don't think the Department in any way shape or 
form is asking----
    Mr. Shays. Mr. DuBois, I'm going to interrupt and I 
apologize. I just need to make sure before we lose the thought 
of Mr. Mayberry, we need to know is there any timetable in your 
attempt to get this to happen?
    Mr. Mayberry. Let me say that the Marine Corps has really 
sort of taken the lead here in terms of developing a 
methodology.
    Mr. Shays. Don't say that. They'll get more arrogant than 
they already are.
    Mr. Mayberry. God bless the Marine Corps.
    Mr. Shays. I mean that gently.
    Mr. Mayberry. They truly are trying to assess the ability 
of an installation to support its training mission by looking 
at the units that are located there, their training 
requirements in terms of individuals, in terms of small units, 
in terms of small teams and how the encroachment factors really 
get at the inability of that unit to provide that type of 
training.
    For example, again, the Marine Corps----
    Mr. Shays. I don't mean to be rude, I'm just wondering 
about the timetable. You're telling me kind of what they're 
doing. I want to know are you going to give them money to do 
this? Are you getting more money to have them do this? Do they 
have more money and what kind of time line are we working on?
    Mr. Mayberry. What we're looking at here is incorporation 
of this type of installation information into our installation 
readiness reports. That is part of a directive, a readiness 
directive that the Secretary of Defense is to sign out here 
within the next few months--that is something that is not a 
requirement now--and to make it explicit in terms of 
encroachment factors. There are overall operations and training 
sea ratings, readiness rates as part of that. But again, it 
goes down to the comments. What we want to do within the next 
several months, provide the overall type for the encroachment 
information as well as a quantification of the work-arounds.
    Mr. Shays. You really don't have a time line yet. There's 
nothing that says we're going to have this done by a particular 
time.
    Mr. Mayberry. Sir, it will be part of the next year's 
readiness report. That will be due in December.
    Mr. Shays. OK. December of this year.
    Mr. Mayberry. That's correct. We publish that on an annual 
basis and give it to Congress.
    Mr. Shays. Sorry, I missed the first part. I understand 
now. Do you have anything else to say. I'm sorry to interrupt 
you.
    Mr. DuBois. I want to address three issues that I think 
Congressman Allen correctly raised: One, was the broad 
exception issue, and part of that is the notion of the 
President's commitments, or are we inconsistent or our 
initiatives inconsistent with the President's commitments about 
Federal facilities compliance; two, I want to talk about the 
nexus between what we are facing and detail empirical data; and 
three, I want to talk about the costs issue.
    So first broad exceptions. I don't believe nor have I seen 
anywhere anyone saying that we are asking for very broad 
exceptions. Our initiative is very narrowly focused, focused on 
only, repeat, only those activities which are unique to the 
military.
    Now, this is connected and I appreciate you bringing this 
up, because we believe that our initiative and our legislative 
proposals are fully consistent with the President's commitments 
about Federal facilities compliance. We are not talking about 
activities, the kind of which we perform every day that are 
comparable to the private sector. DOD wastewater treatment 
plants, DOD dry cleaners, paint booths, power generation lands, 
construction, all of these remain, all of these activities 
remain subject to existing environmental requirements.
    Our initiative largely affects environmental regulations 
that do not apply to the private sector or what we believe 
disproportionately impact defense and defense unique 
activities. For instance, critical habitat designation has no 
legal consequence on private lands but has crippling, sometimes 
crippling legal consequences for military bases. The private 
sector's ``incidental take reduction plans'' give commercial 
fisheries the flexibility to kill or injure over 4,800 marine 
mammals a year, but they are unavailable to the Department of 
Defense whose critical defense activities are being halted or 
postponed despite fewer than 10 marine mammal deaths or 
injuries a year.
    Environmental groups are not legally, not legally permitted 
to enforce the Migratory Bird Treaty Act against private 
parties, but are now, with the recent court decision, are now 
able to enforce against government agencies including, in 
particular, the Department of Defense.
    And last, I think another good example is the Clean Air 
Act's conformity requirement applies only to Federal agencies; 
it does not apply to the private sector.
    So again, sir, I'd like to just point out that we are 
carefully crafted, and to be sure there might be some 
improvements in the legislative language, and we certainly want 
to work with the Members of Congress to achieve that, if that's 
the consensus and that's the consideration here. But we made it 
very clear in the beginning of our study of this issue, in our 
deliberations with our sister Federal agencies and in our 
testimony before the House Armed Services Committee Readiness 
Subcommittee, on these very issues, that our approach was 
narrowly focused.
    The issue about detailed empirical data, I think the two 
provisions that are now moving through Congress and have been 
adopted by the full House in our Defense Authorization Act for 
fiscal year 2003 that address impending readiness effects that 
are direct--we believe they are direct and provable without 
recourse to detail data, after all, the shut down at Farallon 
de Medinilla range that I referred to in my opening remarks, 
under the Migratory Bird Treaty Act judgment injunction and the 
shutdown of Pendleton and Marimar, two marine bases by the 
critical habitat designation under the Endangered Species Act, 
these precedents, of course, have implications nationwide.
    Now, as you may know, while the provisions that we sought 
are not included in the House Defense Authorization Act as 
passed by the full House, the issues pertaining to Fort 
Richardson in Alaska, that particular litigation, which I have 
here the summons for the Secretary of Defense, this 
litigation--and by the way, not by the States, but by private 
citizens--claims that the firing of a gun is a circular 
release, and therefore, a creation of a hazardous waste as a 
matter of law. Now, if that's true at Fort Richardson and we 
lose that case, why isn't it true for every other base in the 
country?
    So, I kind of wanted to connect those two thoughts, 
narrowness and then the implications of the court cases that we 
face. Yes, I don't have a litany or statistics in every single 
range that we have on the United States and on our territories 
on the one hand. On the other hand, it's clear that there are 
present dangers to accessibility.
    The last issue is costs. I just want to end with the 
thought that I hope no one thinks that what the Secretary of 
Defense is suggesting here is to save money. We are not 
proposing these legislative clarifications to save money. 
However, I think that you are correct that it is legitimate to 
ask, what kinds of costs have been incurred? And we are going 
to attempt to quantify that. But that is not the motivation 
behind these requests.
    Mr. Shays. Let me just say I will give Mr. Allen 10 minutes 
here. In fact, I went 13, 14 by the time, so he can have more 
than 10. You did I think both of you--first, I appreciate your 
candor, Mr. Mayberry, about the readiness issue because we have 
to be honest with each other. You know the bottom line is 
readiness, is a subjective judgment, ultimately. We try to 
quantify it, but it's subjective. And clearly, the men and 
women would like to be more ready. And you know what? If I'm 
going to send them to war I want them to be more ready, because 
our job is to make sure it truly isn't a fair fight. That's 
what Mr. Allen wants.
    Your response, Mr. DuBois, was an excellent case for the 
military that Mr. Allen would like you to make before not just 
the Defense Committee, but other committees. And my feeling is 
that Members of Congress are pretty reasonable folks if they 
can hear the story. You have a story to tell. You shouldn't 
just be confined to your friends on the Armed Services 
Committee. And frankly, we might not see the kind of concern as 
great as it is. But given past history, the pollution on our 
military bases, given that we don't have a true audit of our 
military, there are times that some people and, rightfully so, 
say what's going on here, and others say we're at war, let's 
get on with it.
    Mr. Holman, I think it would be a misuse of your report if 
people say because the data isn't there, therefore all these 
valid arguments don't exist. Because frankly, the readiness is 
a subjective matter. And we don't want to send anyone who we 
don't think is ready, and should they be more ready and should 
we require readiness--one of the requirements may be that if 
you're involved in this kind of operation you can't be ready 
unless you have actually done all three at the same time: land, 
sea and air. If we don't have that requirement, then we can say 
somebody is ready just by the fact that we didn't require it. 
And so there's a lot in play here. And I've been fascinated to 
see the dynamics of all three as it comes to play.
    Mr. Allen, you had very fine questions, which helped me 
understand this issue better.
    I will just conclude by saying that I do think that the 
effort before the committee in the Defense Authorization was 
reasonable, though I originally didn't. And I would disagree 
with my environmentalists who I tend to be aligned with most 99 
percent of the time. But I wish you had made the case to them 
in a way that they could hear it. And I don't blame them for 
being concerned and opposing it because the case wasn't made to 
them.
    Mr. Allen you've got 15 minutes.
    Mr. Allen. Thank you, Mr. Chairman. I'll try not to take it 
all. This is very, very helpful, and like the chairman, I want 
our troops to be ready. I want the military to be able to do 
its job. It's vitally important to me. But I want to reframe 
this issue and take another stab at it.
    Mr. Holman was making the case that we don't have the data 
we need, and both of you secretaries were saying we have to get 
better quantification in the readiness report so we really 
understand more effectively the impact of these so-called 
environmental encroachments on our training and readiness. 
There's a part of me that wants to say when the military says 
we need more data, there's a part of me that says good, we need 
that and there's a part of me that says oops, watch out. 
Because we might get data of a kind which is problematic, 
because when you get lots of data, sometimes you don't get to a 
conclusion.
    And I want to try to reframe this a little bit and ask 
really all of you if this works. It seems to me that the 
question is not whether or not there is absolutely 
comprehensive data--let me say this. I believe you need to do a 
comprehensive study of readiness and the effects of 
encroachment. On the other hand, I would suggest that at least 
part of that not be just the compilation of data. I believe the 
fundamental issue here is not whether or not there is 
encroachment, not whether or not there is some infringement on 
the ability to train our troops the way we want to, but whether 
or not that infringement, that encroachment is hard to work 
around.
    To me, in many ways, this seems as if, for example, let me 
take Chairman Shays' suggestion. You've got two bases, and I 
missed the discussion because I wasn't here during that part, 
but you've got a base that you can't use for 6 months of the 
year. That is something that affects training. But if there's 
another base nearby where you could go and do the same 
training, then it would not have a significant impact on 
readiness. By the same token, whether we're talking about the 
Endangered Species Act or any of the other environmental 
legislation we're talking about, the fundamental policy 
question I think is the obstacle to readiness, is the obstacle 
to training so severe that we can't work around it.
    So I would urge the Department to not simply compile data 
but also look at and give us some case studies on both sides of 
the issue. Perhaps from Fort Bragg, where they've been able to 
work with both the community and outside groups, according to 
that radio report, to both protect the environment and train 
our troops.
    Perhaps other areas where it's a serious problem because 
the training can't be done anywhere else and it's a real 
obstacle to move forward. That kind of take on the problem 
would be helpful to me.
    And what I'd like to ask you, all three of you, is if you 
have a reaction to that or thoughts about that or how you think 
you could go about getting that kind of analysis into a 
comprehensive report.
    Mr. Mayberry. I think that you make an outstanding point. 
Because there are a full continuum of work-arounds. These can 
be very minor from something as insignificant as moving down 
that beach some number of yards to, you know, get away from the 
critical habitat area for that particular nesting time of year. 
That's fine. It doesn't necessarily impact the quality of the 
training. And then there's another side of the continuum, which 
gets at the notion of complete cancellation of an exercise. For 
example Luke Air Force Base, which trains F-16 pilots, when 
endangered antelope are on their ranges, that completely shuts 
down the range. What they have tried to do is to identify 
alternative target sets that could be diverted to.
    Now, again, much of what they're training is target 
acquisition and identification. There may be some loss there. 
In terms of major battle group exercises, when whales or marine 
mammals are observed, that too can put a stop to the entire 
exercise. Now, that is in the extreme category.
    Mr. Allen. If I could just interrupt you on that particular 
point, the Marine Mammal Protection Act is of particular 
concern to me because I'm not satisfied the science is good 
enough, that we know the impact and that we've done enough 
science to figure out what the impact is on marine mammals. I 
know some have been tested. That's a whole other hearing 
really, and I probably shouldn't have made that comment. So 
let's go back to what you are saying.
    Mr. Mayberry. The issue you characterize very well is one 
of, again, some notion of balance to be able to understand what 
the training degradations are for these work-arounds. Much of 
that comes down to the commander's intent, the commander's 
assessment of was this training of sufficient quality to allow 
me to check the block for having my unit certified as capable 
in this particular area.
    As I said, the Marine Corps has done some good work of 
trying to, I think, explicitly link their training 
requirements, their documented training requirements for an MEU 
to deploy special operations capable certified, they have to be 
able to perform specific tasks to specific standards under 
specific conditions. And it's that type of quantification 
process that is lacking now that we need to institute on a 
department-wide basis, and not get into the problem that you 
mentioned of being completely swamped in terms of data and 
information. But I think that we've got a continuum--as a 
matter of fact, I was down at the Joint Readiness Training 
Center at Fort Polk. They actually tried to incorporate some of 
the protected areas as part of their actual scenarios. Jeez, we 
can't go in this particular area for reasons that it may be a 
church or religious facility. Actually use it as part of a real 
world scenario.
    So there is a full spectrum here in terms of what these 
work-arounds range from in terms of their impact on the 
training.
    Mr. Allen. Good. I would ask Secretary DuBois a question. 
You're not going to be here or you won't be at the desk during 
the next panel. I understand that Dan Miller, the next panel 
from the National Association of Attorneys General is going to 
speak, I don't know if this is exactly from his statement, but 
it's pretty close, on the question of whether these are broad 
exemptions or narrow exemptions that you raised earlier. My 
understanding is that he will say that residual and unexploded 
ordnance and explosives contamination is precisely the problem 
at closed and transferred ranges.
    And the DOD amendment would preempt States and EPA's 
interest in regulating the cleanup of unexploded ordnance and 
related materials at hundreds of transferred ranges. You've got 
explosive hazards, potential toxic or carcinogenic effects, and 
possible groundwater contamination as a list of problems that 
might arise.
    I want to give you the chance, while you're here, before he 
comes up to respond to that, in light of your comment about the 
fact you've tried to make these exemptions--tried to tailor 
them narrowly.
    Mr. DuBois. Yes, sir. We have had a number of meetings with 
the sponsorship of the National Governors Association with 
State regulators, State representatives from the States 
Attorneys General Office, State Governor's office.
    And Mr. Miller and I have had a colloquy on this particular 
issue. It is the opinion of our counsel that the way we have 
written it does not, repeat, not apply as Mr. Miller believes 
it does. In point of fact, just the opposite. Closed, 
transferring and transferred ranges are fully exposed, if you 
will, to environmental regulations laws statutes, etc. Now, I 
did, as I think I mentioned, if there are language changes 
which Dan Miller and others would suggest to make it absolutely 
crystal clear, then we're certainly amenable to entertaining 
these changes.
    And as I hope the States, and I use that in the broadest 
sense, understand, we welcome the opportunity to work with them 
to ensure that we have every opportunity to train to the 
rigorous standards necessary, but we believe we can achieve 
this objective in ways that are compatible. We believe that the 
proposals are modest, narrowly tailored to address discreet 
concern. Mr. Miller has interpreted it otherwise, contrary to 
our interpretation.
    What--and I will conclude with this comment--we are 
attempting it seems to me, we are attempting through our 
proposals to codify existing regulatory policy and practice of 
EPA and the States where it might have been certain--certain 
vagaries may have been attached to these situations we're 
trying to codify what exists today. So I'm interested in a 
continuing dialog with Mr. Miller and all the Governors and 
States' attorneys general in this regard.
    Mr. Allen. I want to thank all three of you for your 
testimony today. This has been a very helpful discussion for me 
and I yield back my time that I still have.
    Mr. Shays. Thank you. I thank the gentleman for coming 
back. Is there any question that you all may have stayed up 
late into the night preparing to answer that you want to put on 
the record? Is there any question that you want to ask yourself 
that you think needs to be put on the record?
    Mr. DuBois. I wanted to make one comment about the notion 
that if training range A for 6 months is unavailable to us, but 
training range B or C might be, and this does go back to the 
issue of cost, how many ranges do we keep operational, and how 
do you just tie that to the taxpayer when this point of fact 
with adoption of some narrow provisions we may be able to avail 
ourselves of a single range 365 days of the year?
    There also is a calculus of encroachment, it seems to me, 
which 27 years ago when I worked at the Pentagon under 
Secretary Rumsfeld, and in the 25 years that we were in the 
private sector, the term ``encroachment'' 27 years ago was not 
in a military lexicon. Perhaps it should have been. Now this 
issue I think has a calculus. Over the last 10 to 15 years 
we've seen, as my graduate mathematics instructor would say, 
the rate of increase has increased. And therefore not to 
address it now would be incorrect.
    Mr. Shays. I'm going to put on the record, and if Mr. Allen 
wants to change it or anybody else wants to qualify anything 
I've said, I'm happy to have them do it, but I'm going to say 
that my sense is that we clearly know encroachment is a problem 
in a local host of different ways. We know that we're not able 
to use some of our training facilities the way we would like to 
use them. We I think realize that our readiness standards need 
to be reevaluated so that we're not saying someone's ready when 
they should perhaps be more ready.
    I'm going to say to you that the GAO has clearly stated 
that they want more data, and based on the data that's 
available, they can't come to conclusions to justify certain 
needs and desires of the Department of Defense. But that does 
not mean that they don't exist. And then I'm going to end up by 
saying that we clearly need a plan for all our facilities. That 
was the motivation, that's of the good things that I think make 
sense about the report and we've already really started to act 
on that. The Department of Defense needs a plan for all of 
their training facilities.
    And then I'm just going to inject my bias once again that 
when I say Vieques being pulled out of our training facilities, 
I said we got one hell of a mess at DOD that we would be doing 
that.
    And so is there any qualification you want to make on that?
    Mr. Allen. Just in addition, Mr. Chairman. I would only add 
that our environmental laws are supported by so many, such a 
large percentage of the American public that the issue of 
exemptions or waivers or whatever you would call the process by 
which the DOD doesn't comply as fully or is allowed not to 
comply as fully as other entities needs to be carefully 
examined. The fundamental issue is can you work around some of 
the problems caused by environmental restrictions in a way that 
makes sense, in order to protect the integrity of the 
environmental laws we have.
    Mr. Shays. And I'm going to just add that in some cases we 
may be asking the Department of Defense to do certain things 
that we aren't asking the private sector. And that I would 
encourage the Department of Defense to make their case before 
other committees besides those who would tend to be most 
friendly to them because I think you can make a case. But I 
think Mr. Allen feels that you could make a case maybe to a 
varying degree than I can but you shouldn't be afraid to make 
that case and treat all the Members of Congress that they 
deserve to hear your case and then make the decision.
    Do you mind me getting the last word?
    Mr. Allen. You've got the last word Mr. Chairman. That's 
it.
    Mr. Shays. Gentlemen, appreciate you being here a great 
deal. Thank you for all of your work. Thank you for your love 
of your country. Now, we have a recess so we may be able to 
finish this hearing before we have a vote and that would be 
lovely. That would be lovely.
    We have, our next witness is Mr. Dan Miller. He's the first 
assistant attorney general of the Colorado department of 
defense. And I would welcome Mr. Miller to stay standing.
    And take your time gentlemen. I don't mean to be rushing 
you. We're not in a rush.
    Mr. Miller I want to say while you are standing--where is 
Mr. Miller? Thank you. Thank you for your patience. That's the 
first thing I want to say to you. Hopefully we paid your way 
out. Don't sit down. I do want to thank you. You probably 
wanted to jump in umpteen number of times but we're going to 
allow you to say what you need to say and request some 
questions. Raise your right hand, please.
    [Witness sworn.]
    Mr. Shays. Thank you. Thank you Mr. Miller for being here. 
I think you have some important things to say and though you 
are third, you are definitely as much a part of the record as 
everyone else, and we welcome you being here. And we give a 
little dispensation to the third speaker if he wants to talk a 
little longer. So if you want to make even your statement--give 
us your statement, but even address some of the other things 
you heard before we ask them, you know that may be good it may 
even save us some time. But I want you to do whatever you want 
out of courtesy to you. So you have the floor.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Shays. I'm going to tell you what we're doing, we're 
going to put the clock on. Every 5 minutes it will go red but 
you turn it green again. If you get close to 10 minutes I'll 
let you know.

  STATEMENT OF DAN MILLER, FIRST ASSISTANT ATTORNEY GENERAL, 
                   COLORADO DEPARTMENT OF LAW

    Mr. Miller. OK. Thank you, Mr. Chairman, Mr. Allen, members 
of the committee. I'm here today to testify on behalf of 
Colorado Attorney General Ken Salazar and Washington Attorney 
General Christine Gregoire. However, as my written materials 
indicate, I think it's fair to say that the general tenor of my 
remarks reflect the views of most of the States.
    I'm only going to address those parts of the Department of 
Defense's legislative proposals that would amend the Clean Air 
Act, RCRA and CERCLA. RCRA is the Federal law that regulates 
hazardous waste management and cleanup. CERCLA, also known as 
Superfund regulates the cleanup of toxic waste sites. So I'm 
not going to talk about the Endangered Species Act, Migratory 
Bird Treaty Act, or Marine Mammal Protection Act.
    The reason I'm focusing on these three laws is that the 
States are the primary implementors of the Clean Air Act and 
RCRA and they're major partners with EPA under CERCLA. First 
I'd like to say that the States absolutely support the goal of 
maintaining the readiness of our Nation's military. The men and 
women of the Armed Forces must have all appropriate realistic 
training. At the same time we strongly support the need to 
protect human health and the environment and we recognize that 
military activities can adversely impact human health in the 
environment. In our view, further military readiness and 
ensuring environmental protection are compatible goals not 
mutually exclusive. The question is how do we balance military 
readiness concerns with environmental concerns.
    We believe that RCRA, CERCLA and the Clean Air Act already 
provide sufficient flexibility to accommodate potential 
conflicts between these goals. Furthermore, as far as we are 
aware, the Department of Defense is not identified a single 
instance in which RCRA, CERCLA or the Clean Air Act has 
actually adversely impacted readiness. We also think that the 
Department of Defense's amendments go far beyond its stated 
concerns with maintaining military readiness and would likely 
provide a very broad exemption from RCRA and CERCLA for 
explosives ammunitions.
    RCRA, CERCLA and the Clean Air Act all allow the President 
to exempt the Department of Defense from their requirements on 
a case-by-case basis simply by finding that the exemption is 
necessary for national security, or is in the paramount 
interest of the United States, depending on which statute we're 
talking about.
    The Federal Government has never invoked these exemptions 
for military readiness purposes. The exemption provides 
flexibility coupled with accountability. Accountability is 
important because the Department of Defense has a history of 
seeking to avoid compliance with environmental requirements. 
Even where Congress has commanded that the Department of 
Defense comply with environmental laws, DOD has a worse 
compliance record than private industry with one exception.
    Accountability is also important because of the 
environmental impact of military activities. Of the 1,221 sites 
currently listed on the Superfund national priorities list 129 
are Department of Defense facilities. Considering the lack of 
any documented, or even alleged impacts from RCRA, CERCLA or 
the Clean Air Act on military readiness, the Department of 
Defense's legislative proposals to amend these laws are quite 
broad. Let's take the amendment to RCRA as an example. Proposed 
section 2019 that would be added to Title X would define 
munitions, explosives, unexploded ordnance and constituents 
thereof for solid wastes. That's the touchstone for regulation 
under RCRA. Nothing is hazardous waste unless it is first solid 
waste.
    The definition of solid waste is also very important 
because RCRA's waiver of sovereign immunity only applies to 
State requirements respecting the control and abatement of 
solid waste or hazardous waste disposal and management. Waivers 
of immunity are construed very narrowly as well established 
Supreme Court doctrine. A close reading of the Department of 
Defense's proposed amendments shows that they will preempt 
State authority over munitions explosives and the like not only 
at operational ranges, but also at closed and transferred 
ranges, at Department of Defense sites other than ranges, and 
even in private defense contractor sites.
    To paraphrase section 2019, the only time munitions and 
explosives are a solid waste is if they are or have been 
deposited incident to their normal and expected use on an 
operational range and one of three things happens. Either 
they're removed from the range, they are recovered and then 
buried or landfilled on the range, or they migrate off range 
and are not addressed under CERCLA.
    In addition, the proposal provides that munitions and 
explosives may be a solid waste if they are deposited incident 
to their normal and expected use off an operational range and 
are not promptly addressed. So this definition excludes 
munitions that were deposited on an operational range and 
remain there after the range is transferred out of Federal 
ownership. Such residual munitions which include unexploded 
ordnance, explosives, explosive constituents, and other sorts 
of contamination that's precisely the problem at these closed 
and transferred ranges. DOD's amendment would preempt States 
and EPA from regulating the cleanup of unexploded ordnance and 
related terms at hundreds of transferred ranges. In addition to 
the obvious explosive hazards by the unexplosive ordnance, many 
of these materials have toxic or potential carcinogenic effects 
and may cause groundwater contamination.
    Proposed section 2019(a)(2) also exempts explosive 
ammunitions that are used in training or in research 
development testing and evaluation of military munitions, 
weapons, or weapons systems. My question is what explosives and 
munitions are not? This provision appears to create a wholesale 
exemption for explosives and munitions under RCRA and CERCLA. 
It would apply to any facility with such wastes, including 
private contractor sites.
    In closing, we do not believe that the Department of 
Defense's far reaching amendments to RCRA CERCLA or the Clean 
Air Act are warranted. We would be glad to work with the 
Department to develop ways to address its readiness concerns 
with these laws within the context of the existing 
environmental laws. And we would urge that any proposed 
legislation on this issue go through a normal legislative 
process with public hearings before the committees with 
jurisdiction over the environmental laws.
    That's the end of my prepared statement. I'd be glad to 
answer any questions you have.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T0496.132
    
    [GRAPHIC] [TIFF OMITTED] T0496.133
    
    [GRAPHIC] [TIFF OMITTED] T0496.134
    
    [GRAPHIC] [TIFF OMITTED] T0496.135
    
    [GRAPHIC] [TIFF OMITTED] T0496.136
    
    [GRAPHIC] [TIFF OMITTED] T0496.137
    
    [GRAPHIC] [TIFF OMITTED] T0496.138
    
    [GRAPHIC] [TIFF OMITTED] T0496.139
    
    [GRAPHIC] [TIFF OMITTED] T0496.140
    
    [GRAPHIC] [TIFF OMITTED] T0496.141
    
    [GRAPHIC] [TIFF OMITTED] T0496.142
    
    [GRAPHIC] [TIFF OMITTED] T0496.143
    
    [GRAPHIC] [TIFF OMITTED] T0496.144
    
    [GRAPHIC] [TIFF OMITTED] T0496.145
    
    [GRAPHIC] [TIFF OMITTED] T0496.146
    
    [GRAPHIC] [TIFF OMITTED] T0496.147
    
    [GRAPHIC] [TIFF OMITTED] T0496.148
    
    [GRAPHIC] [TIFF OMITTED] T0496.149
    
    [GRAPHIC] [TIFF OMITTED] T0496.150
    
    [GRAPHIC] [TIFF OMITTED] T0496.151
    
    [GRAPHIC] [TIFF OMITTED] T0496.152
    
    [GRAPHIC] [TIFF OMITTED] T0496.153
    
    [GRAPHIC] [TIFF OMITTED] T0496.154
    
    [GRAPHIC] [TIFF OMITTED] T0496.155
    
    [GRAPHIC] [TIFF OMITTED] T0496.156
    
    [GRAPHIC] [TIFF OMITTED] T0496.157
    
    [GRAPHIC] [TIFF OMITTED] T0496.158
    
    [GRAPHIC] [TIFF OMITTED] T0496.159
    
    [GRAPHIC] [TIFF OMITTED] T0496.160
    
    [GRAPHIC] [TIFF OMITTED] T0496.161
    
    [GRAPHIC] [TIFF OMITTED] T0496.162
    
    [GRAPHIC] [TIFF OMITTED] T0496.163
    
    [GRAPHIC] [TIFF OMITTED] T0496.164
    
    Mr. Shays. Mr. Miller, maybe what we could do, is there any 
other comment would you make, then I will recognize Mr. Allen. 
Is there any other comment, or should we go right to the 
questions.
    Mr. Miller. I think we can go to the questions.
    Mr. Shays. Thank you. It was a very nice statement. I 
appreciate your statement.
    Mr. Allen.
    Mr. Allen. My first question is real simple. You've been 
here and I just wondered if you wanted to comment about 
anything that you heard from the witnesses during the second 
panel.
    Mr. Miller. I think the main observation I would have as I 
understood the testimony is that a lot of the concern with 
encroachment relates----
    Mr. Allen. Ignore that buzzer.
    Mr. Shays. I think we're recessed until 3:30. I think the 
Gold Medal Award is for Mr. or Mrs. Reagan in the Rotunda as we 
speak. But that seems like two votes. Tell me that isn't so. Go 
for it.
    Mr. Miller. I think the main comment----
    Mr. Shays. Excuse me, no, we are in recess. We're fine. 
Sorry. I overreacted.
    Mr. Allen. Mr. Miller.
    Mr. Miller. As I understood the testimony, a lot of the 
concern with encroachment relates to issues that arise because 
of increasing urbanization near military ranges. And the main 
comment I would have is that as I understood it, the proposals 
that DOD is advancing to address issues related to the Clean 
Air Act, RCRA and CERCLA have kind of gotten lumped in with a 
number of other issues where impacts on military readiness are 
much more apparent.
    Again, as I stated earlier, I'm not aware of any examples 
that DOD has identified where any regulation under the Clean 
Air Act, RCRA or CERCLA has resulted in any impact on readiness 
whatsoever. Yet, as I described with respect to the amendments 
to RCRA, they're pretty far reaching, and the same is true of 
the amendment under the CERCLA.
    So, it's as though these pollution control laws are kind of 
getting swept along with a series of other concerns that are 
unrelated. And I want to make clear that the committee 
understands that the vast bulk of the testimony today as I 
heard it related to the animal protection laws and to issues 
that aren't even--don't even really rise under environmental 
laws at all, but simply have to do with the neighboring 
incompatible land uses of military facilities on the one hand, 
and increasing urbanization and suburbanization on the other.
    Mr. Allen. You do make an interesting point there. There 
were six different environmental statutes for which DOD was 
planning to ask exemptions. As it turned out, the House dealt 
with only two of them in the Defense authorization bill, 
Migratory Bird and the Endangered Species. I may be wrong, but 
it sounded today as though the Endangered Species Act and the 
habitat requirements that go along with it was a major factor 
being discussed, even the Marine Mammal Protection Act has less 
to do with training our troops and much more to do with the use 
of low frequency long-range sonar that the Navy has been 
developing on marine mammals and less on readiness, at least in 
terms of training our troops.
    I have just a couple things, Mr. Miller. Can you tell us, 
as much as you can, about your efforts to express before 
Congress the opinion of the States and whether or not you were 
denied opportunities to make your views known before this 
hearing today.
    Mr. Miller. Earlier this spring, the National Association 
of Attorneys General, National Governors Association and 
National Conference of State Legislatures wrote a letter to the 
House Armed Services, I believe it was the Subcommittee on 
Readiness, requesting an opportunity to appear on that 
subcommittee's hearing on readiness. And that request was 
denied, although we were allowed an opportunity to submit 
written materials for the record.
    We have been somewhat frustrated in our ability to address 
these issues because of the extremely short timeframe for 
analyzing the legislation, which I believe was provided 4 days 
before the first committee mark-up. And so there have been no 
hearings, legislative hearings on the precise language that DOD 
has put forth.
    Mr. Allen. My final question, the Department of Defense, as 
I heard Mr. DuBois, was saying essentially that if you have 
some suggestions for language, he would be willing to entertain 
them. With respect to the statutes you've discussed, is it that 
simple? Is this a matter, in your opinion, of cleaning up 
language in the legislative proposals, or is there something 
more fundamental that isn't so much a drafting issue?
    Mr. Miller. I do not think it is a drafting issue. I think 
the fundamental issue is that as far as I'm aware, the 
Department of Defense has not demonstrated any impact, any 
actual impact that those three laws have had on military 
readiness. The only example that they brought up with respect 
to RCRA and CERCLA that I'm aware of is the citizen suit that 
has been filed in the State of Alaska with respect to Fort 
Richardson.
    Now it seems to me it's kind of a slender reed upon which 
to base a proposal to amend two environmental laws. I 
understand Mr. DuBois stated that he's concerned that if the 
court upholds the plaintiff's theory in that case, that every 
firing range in the country would be subject to RCRA and 
CERCLA. I guess I would make a couple comments about that. 
First of all, the suit is likely to be dismissed on procedural 
grounds, for Richardson is a national priority list site. It's 
very likely the Department of Defense will be able to get this 
lawsuit dismissed because it would be viewed as a challenge to 
a remedy and the remedy hasn't been complete at that site.
    Second, with respect to the RCRA claims, as I understand 
them, the plaintiffs are alleging that the disposal of ordnance 
into the wetlands up there constitutes disposal of hazardous 
waste. If that were true, I think the consequence would be that 
the Department of Defense would have to get a permit for its 
military ranges. And I believe that actually would be a 
positive consequence that we could have appropriate 
preventative regulation under RCRA that would not be burdensome 
on the military, would not impair readiness activities, would 
certainly allow continued live fire training, but at the same 
time, would protect groundwater resources from potential 
contamination as happened at the Massachusetts military 
reservation.
    Mr. Allen. Just a final comment then I want to thank you. I 
practiced law for 19 years. And even then I wouldn't put a 
whole lot of stock in allegations in a plaintiff's complaint 
that had not gone to trial and been tested. But, Mr. Miller, I 
thank you very much for being here today. Thank you, Mr. 
Chairman.
    Mr. Shays. I thank the gentleman. I thank him for 
returning. I would like to know, Mr. Miller, you started by 
saying that you speak for other States. Are you saying that in 
a formal way or informally?
    Mr. Miller. I would say in an informal way with respect to 
specific comments on the proposed legislation, because frankly 
there hasn't been a lot of time for the States to look at it. 
But as the written materials I submitted indicate, there are 
letters from the Association of State and Territorial Solid 
Waste Management officials, which is the Association of State 
regulators for hazardous waste. They expressed, I think in a 
general sense, the same concerns I did with the potential 
breadth of these amendments.
    There's a letter from the Environmental Council of the 
States, which represents the State Environmental Commissioners 
expressing similar concerns. And then there are past letters 
signed by a number of attorneys general related to encroachment 
and a related rulemaking that the Department of Defense had 
proposed a couple of years ago to govern the cleanup of closed 
transferred and transferring ranges. But obviously nobody has 
had the opportunity to review my specific testimony.
    Mr. Shays. Fair enough, but it puts it in context.
    The administration's readiness and range preservation range 
initiative does not include the Clean Air or the Resource 
Conservation and Recovery Act and the comprehensive 
Environmental Response Compensation Liability Act. I mean, it's 
not going to--we did not include it in the Defense 
authorization bill, I'm sorry.
    Mr. Miller. That's correct.
    Mr. Shays. But it was thought that it might be there. But 
it's not--it was not included. And you obviously have raised 
some very real concerns about these three legislations, three 
actions being included. Have you had conversations directly 
with DOD about this legislation?
    Mr. Miller. The only conversation I've had with DOD 
regarding these proposals and the only conversations I'm aware 
of between DOD and the various State organizations have 
occurred over the last couple of weeks. DOD arranged with the 
National Governors Association to provide two briefings on this 
legislative package and I was able to participate in those 
briefings by conference call. But as you're aware, DOD 
testified on this issue last year and between last year and the 
time DOD came forward with its legislative proposals, I'm not 
aware of any efforts on their part to engage us in a dialog on 
this issue to talk about their specific concern with readiness 
and impacts that RCRA or CERCLA have had on military readiness 
activities.
    Mr. Shays. What I would want you to--encourage to do is 
through the committee or the subcommittee, whichever the 
committee may want to do, if they want to help do this or just 
delegate it to us, we would be happy to try to facilitate and 
encourage dialog and conversation on this issue. Dialogue 
doesn't commit other side to take a position, but it would 
inform both sides better. And I happen to have the bias that 
there may need to be some changes made, but that they should be 
able to argue their case in a persuasive way, and that maybe 
there could be consensus.
    Tell me why Colorado is showing up on our radar screen 
instead of some of other States. I realize Colorado has a 
number of bases and training facilities and so on, but is it a 
particularly acute issue in Colorado as it relates to, say, 
California or Utah or anywhere else? Is there anything that 
tells you that you have a particular focus that the other 
States don't, or a particular concentration of certain----
    Mr. Miller. Well, I can tell you about some concerns that 
we do have in our State. I know that several other States share 
these concerns. One of the materials I submitted was a 
statement or letter from the Attorneys General of Washington, 
California, Massachusetts and Colorado to the Senate on this 
issue. I think it's fair to say that Colorado may have been 
leading the charge on this issue.
    Mr. Shays. Tell me your biggest concern. What is the 
biggest thing that you're afraid of or concerned about?
    Mr. Miller. We are particularly concerned with our ability 
to regulate the cleanup of the closed transferred and 
transferring ranges. We have the former Lowry Bombing and 
Gunnery Range, it's a former 60,000 acre range. It's on the 
eastern edge of the Denver metropolitan area. There's quite a 
buildup of unexploded ordnance out there.
    Mr. Shays. That's been returned to the State. I don't mean 
returned, because it was never the State's, but it's been given 
to the State.
    Mr. Miller. Yes. Actually the State Board of Land 
Commissioners owns about 27,000 or 30,000 acres of the total 
60,000. Most of the rest of it is in private hands. Some 
portion of it is owned by the city of Aurora and is owned for a 
reservoir. There's a high school being constructed on the 
western edge of it now that's due to open in the fall of 2003. 
That high school is located within a mile of an ordnance burial 
area where we recently discovered some practice serin bomblets, 
nerve gas bomblets. Now they weren't filled with real nerve 
gas, but there's no real way to know that in advance.
    We've also discovered quite a bit of other ordnance in that 
particular area. We're very concerned with the adequacy of 
funding for that cleanup. We're concerned that the State be 
able to maintain adequate oversight of it. We had to file a 
lawsuit against the United States too before we could get them 
to come to the table and agree to what we thought was an 
adequate investigation and adequate cleanup of that site.
    We're also concerned with the cleanup of a plume of 
contaminated groundwater at the Pueblo Chemical Depo that 
originates from ammunition washout activities under the 
proposed legislation. This plume of ground water which is 
contaminated with TNT and has traveled 2 miles offsite and has 
impacted drinking water in wells, I believe, would no longer be 
subject to the State's hazardous waste authority because this 
legislation proposed legislation would define it not to be a 
solid waste.
    Mr. Shays. Were you concerned that these three acts were 
going to be in the Defense authorization bill?
    Mr. Miller. Yes.
    Mr. Shays. And it may have been your concern, certainly had 
an impact and their not being--who knows. But what it says to 
me is that you've had some impact here. It wasn't included. And 
I'd like to think that if the DOD believes it's important to 
deal with some aspects of these of these acts, that they work 
with various States. You've obviously shown an interest.
    So my point to you is I'm happy to lend our committee's 
offices to try to encourage there to be some dialog, a good 
faith dialog on both parts. Because I think both Mr. Allen and 
I believe very strongly that we need to make sure that training 
happens, and it needs to happen within reasonable restraints.
    Mr. Miller. Absolutely. There's no question about our 
support for training.
    Mr. Shays. Is there any question that you wish we had asked 
that we should have asked or any point that you want to put on 
the record? Let me just say if Mr. Barr was here, he might 
have--it might have been more of an interesting dialog. And I 
mean that respectfully. I have my bias in this issue, and I had 
said when he was leaving that my perspective is a little 
different, so it was just the luck of the Chair that you got 
me.
    Mr. Miller. I appreciate that.
    Mr. Shays. Either that or you may have preferred to have 
him and have an interesting dialog. We'll put some things on 
the record. Maybe could you look at that record and make some 
comments on that as well.
    I thank our recorder. You can put that on the record. 
You've done a wonderful job.
    I thank our guests and I thank all of the witnesses. Thank 
you, Mr. Miller for being here. This hearing is closed.
    [Whereupon, at 3:20 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Constance A. Morella, Hon. 
Doug Ose, Hon. Thomas M. Davis, Hon. Edolphus Towns, Vice 
Admiral Charles W. Moore, Major General Thomas S. Jones, Major 
General Robert L. Van Antwerp, and Major General Randall M. 
Schmidt, and additional information submitted for the hearing 
record follow:]
[GRAPHIC] [TIFF OMITTED] T0496.165

[GRAPHIC] [TIFF OMITTED] T0496.166

[GRAPHIC] [TIFF OMITTED] T0496.167

[GRAPHIC] [TIFF OMITTED] T0496.168

[GRAPHIC] [TIFF OMITTED] T0496.169

[GRAPHIC] [TIFF OMITTED] T0496.170

[GRAPHIC] [TIFF OMITTED] T0496.171

[GRAPHIC] [TIFF OMITTED] T0496.172

[GRAPHIC] [TIFF OMITTED] T0496.307

[GRAPHIC] [TIFF OMITTED] T0496.308

[GRAPHIC] [TIFF OMITTED] T0496.309

[GRAPHIC] [TIFF OMITTED] T0496.310

[GRAPHIC] [TIFF OMITTED] T0496.311

[GRAPHIC] [TIFF OMITTED] T0496.312

[GRAPHIC] [TIFF OMITTED] T0496.313

[GRAPHIC] [TIFF OMITTED] T0496.173

[GRAPHIC] [TIFF OMITTED] T0496.174

[GRAPHIC] [TIFF OMITTED] T0496.175

[GRAPHIC] [TIFF OMITTED] T0496.176

[GRAPHIC] [TIFF OMITTED] T0496.177

[GRAPHIC] [TIFF OMITTED] T0496.178

[GRAPHIC] [TIFF OMITTED] T0496.179

[GRAPHIC] [TIFF OMITTED] T0496.180

[GRAPHIC] [TIFF OMITTED] T0496.181

[GRAPHIC] [TIFF OMITTED] T0496.182

[GRAPHIC] [TIFF OMITTED] T0496.183

[GRAPHIC] [TIFF OMITTED] T0496.184

[GRAPHIC] [TIFF OMITTED] T0496.185

[GRAPHIC] [TIFF OMITTED] T0496.186

[GRAPHIC] [TIFF OMITTED] T0496.187

[GRAPHIC] [TIFF OMITTED] T0496.188

[GRAPHIC] [TIFF OMITTED] T0496.189

[GRAPHIC] [TIFF OMITTED] T0496.190

[GRAPHIC] [TIFF OMITTED] T0496.191

[GRAPHIC] [TIFF OMITTED] T0496.192

[GRAPHIC] [TIFF OMITTED] T0496.193

[GRAPHIC] [TIFF OMITTED] T0496.194

[GRAPHIC] [TIFF OMITTED] T0496.195

[GRAPHIC] [TIFF OMITTED] T0496.196

[GRAPHIC] [TIFF OMITTED] T0496.197

[GRAPHIC] [TIFF OMITTED] T0496.198

[GRAPHIC] [TIFF OMITTED] T0496.199

[GRAPHIC] [TIFF OMITTED] T0496.200

[GRAPHIC] [TIFF OMITTED] T0496.201

[GRAPHIC] [TIFF OMITTED] T0496.202

[GRAPHIC] [TIFF OMITTED] T0496.203

[GRAPHIC] [TIFF OMITTED] T0496.204

[GRAPHIC] [TIFF OMITTED] T0496.205

[GRAPHIC] [TIFF OMITTED] T0496.206

[GRAPHIC] [TIFF OMITTED] T0496.207

[GRAPHIC] [TIFF OMITTED] T0496.208

[GRAPHIC] [TIFF OMITTED] T0496.209

[GRAPHIC] [TIFF OMITTED] T0496.210

[GRAPHIC] [TIFF OMITTED] T0496.211

[GRAPHIC] [TIFF OMITTED] T0496.212

[GRAPHIC] [TIFF OMITTED] T0496.213

[GRAPHIC] [TIFF OMITTED] T0496.214

[GRAPHIC] [TIFF OMITTED] T0496.215

[GRAPHIC] [TIFF OMITTED] T0496.216

[GRAPHIC] [TIFF OMITTED] T0496.217

[GRAPHIC] [TIFF OMITTED] T0496.218

[GRAPHIC] [TIFF OMITTED] T0496.219

[GRAPHIC] [TIFF OMITTED] T0496.220

[GRAPHIC] [TIFF OMITTED] T0496.221

[GRAPHIC] [TIFF OMITTED] T0496.222

[GRAPHIC] [TIFF OMITTED] T0496.223

[GRAPHIC] [TIFF OMITTED] T0496.224

[GRAPHIC] [TIFF OMITTED] T0496.225

[GRAPHIC] [TIFF OMITTED] T0496.226

[GRAPHIC] [TIFF OMITTED] T0496.227

[GRAPHIC] [TIFF OMITTED] T0496.228

[GRAPHIC] [TIFF OMITTED] T0496.229

[GRAPHIC] [TIFF OMITTED] T0496.230

[GRAPHIC] [TIFF OMITTED] T0496.231

[GRAPHIC] [TIFF OMITTED] T0496.232

[GRAPHIC] [TIFF OMITTED] T0496.233

[GRAPHIC] [TIFF OMITTED] T0496.234

[GRAPHIC] [TIFF OMITTED] T0496.235

[GRAPHIC] [TIFF OMITTED] T0496.236

[GRAPHIC] [TIFF OMITTED] T0496.237

[GRAPHIC] [TIFF OMITTED] T0496.238

[GRAPHIC] [TIFF OMITTED] T0496.239

[GRAPHIC] [TIFF OMITTED] T0496.240

[GRAPHIC] [TIFF OMITTED] T0496.241

[GRAPHIC] [TIFF OMITTED] T0496.242

[GRAPHIC] [TIFF OMITTED] T0496.243

[GRAPHIC] [TIFF OMITTED] T0496.244

[GRAPHIC] [TIFF OMITTED] T0496.245

[GRAPHIC] [TIFF OMITTED] T0496.246

[GRAPHIC] [TIFF OMITTED] T0496.247

[GRAPHIC] [TIFF OMITTED] T0496.248

[GRAPHIC] [TIFF OMITTED] T0496.249

[GRAPHIC] [TIFF OMITTED] T0496.318

[GRAPHIC] [TIFF OMITTED] T0496.319

[GRAPHIC] [TIFF OMITTED] T0496.320

[GRAPHIC] [TIFF OMITTED] T0496.321

[GRAPHIC] [TIFF OMITTED] T0496.322

[GRAPHIC] [TIFF OMITTED] T0496.323

[GRAPHIC] [TIFF OMITTED] T0496.324

[GRAPHIC] [TIFF OMITTED] T0496.325

[GRAPHIC] [TIFF OMITTED] T0496.326

[GRAPHIC] [TIFF OMITTED] T0496.327

[GRAPHIC] [TIFF OMITTED] T0496.328

[GRAPHIC] [TIFF OMITTED] T0496.329

[GRAPHIC] [TIFF OMITTED] T0496.330

[GRAPHIC] [TIFF OMITTED] T0496.331

[GRAPHIC] [TIFF OMITTED] T0496.332

[GRAPHIC] [TIFF OMITTED] T0496.333

[GRAPHIC] [TIFF OMITTED] T0496.334

[GRAPHIC] [TIFF OMITTED] T0496.335

[GRAPHIC] [TIFF OMITTED] T0496.336

[GRAPHIC] [TIFF OMITTED] T0496.337

[GRAPHIC] [TIFF OMITTED] T0496.338

[GRAPHIC] [TIFF OMITTED] T0496.339

[GRAPHIC] [TIFF OMITTED] T0496.340

[GRAPHIC] [TIFF OMITTED] T0496.341

[GRAPHIC] [TIFF OMITTED] T0496.342

[GRAPHIC] [TIFF OMITTED] T0496.343

[GRAPHIC] [TIFF OMITTED] T0496.344

[GRAPHIC] [TIFF OMITTED] T0496.345

[GRAPHIC] [TIFF OMITTED] T0496.346

[GRAPHIC] [TIFF OMITTED] T0496.250

[GRAPHIC] [TIFF OMITTED] T0496.251

[GRAPHIC] [TIFF OMITTED] T0496.252

[GRAPHIC] [TIFF OMITTED] T0496.253

[GRAPHIC] [TIFF OMITTED] T0496.254

[GRAPHIC] [TIFF OMITTED] T0496.255

[GRAPHIC] [TIFF OMITTED] T0496.256

[GRAPHIC] [TIFF OMITTED] T0496.257

[GRAPHIC] [TIFF OMITTED] T0496.258

[GRAPHIC] [TIFF OMITTED] T0496.259

[GRAPHIC] [TIFF OMITTED] T0496.260

[GRAPHIC] [TIFF OMITTED] T0496.261

[GRAPHIC] [TIFF OMITTED] T0496.262

[GRAPHIC] [TIFF OMITTED] T0496.263

[GRAPHIC] [TIFF OMITTED] T0496.264

[GRAPHIC] [TIFF OMITTED] T0496.265

[GRAPHIC] [TIFF OMITTED] T0496.266

[GRAPHIC] [TIFF OMITTED] T0496.267

[GRAPHIC] [TIFF OMITTED] T0496.268

[GRAPHIC] [TIFF OMITTED] T0496.269

[GRAPHIC] [TIFF OMITTED] T0496.270

[GRAPHIC] [TIFF OMITTED] T0496.271

[GRAPHIC] [TIFF OMITTED] T0496.272

[GRAPHIC] [TIFF OMITTED] T0496.273

[GRAPHIC] [TIFF OMITTED] T0496.274

[GRAPHIC] [TIFF OMITTED] T0496.275

[GRAPHIC] [TIFF OMITTED] T0496.276

[GRAPHIC] [TIFF OMITTED] T0496.277

[GRAPHIC] [TIFF OMITTED] T0496.278

[GRAPHIC] [TIFF OMITTED] T0496.279

[GRAPHIC] [TIFF OMITTED] T0496.280

[GRAPHIC] [TIFF OMITTED] T0496.281

[GRAPHIC] [TIFF OMITTED] T0496.282

[GRAPHIC] [TIFF OMITTED] T0496.283

[GRAPHIC] [TIFF OMITTED] T0496.284

[GRAPHIC] [TIFF OMITTED] T0496.285

[GRAPHIC] [TIFF OMITTED] T0496.286

[GRAPHIC] [TIFF OMITTED] T0496.287

[GRAPHIC] [TIFF OMITTED] T0496.288

[GRAPHIC] [TIFF OMITTED] T0496.289

[GRAPHIC] [TIFF OMITTED] T0496.347

[GRAPHIC] [TIFF OMITTED] T0496.290

[GRAPHIC] [TIFF OMITTED] T0496.291

[GRAPHIC] [TIFF OMITTED] T0496.292

[GRAPHIC] [TIFF OMITTED] T0496.293

[GRAPHIC] [TIFF OMITTED] T0496.294

[GRAPHIC] [TIFF OMITTED] T0496.295

[GRAPHIC] [TIFF OMITTED] T0496.296

[GRAPHIC] [TIFF OMITTED] T0496.297

[GRAPHIC] [TIFF OMITTED] T0496.298

[GRAPHIC] [TIFF OMITTED] T0496.299

[GRAPHIC] [TIFF OMITTED] T0496.300

[GRAPHIC] [TIFF OMITTED] T0496.301

[GRAPHIC] [TIFF OMITTED] T0496.302

[GRAPHIC] [TIFF OMITTED] T0496.303

[GRAPHIC] [TIFF OMITTED] T0496.304

[GRAPHIC] [TIFF OMITTED] T0496.305

[GRAPHIC] [TIFF OMITTED] T0496.306

                                   - 

</pre></body></html>
